<html>
<title> - TOWARD A COMPREHENSIVE STRATEGY FOR SUDAN</title>
<body><pre>[Senate Hearing 111-302]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-302
 
                TOWARD A COMPREHENSIVE STRATEGY FOR SUDAN 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 30, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-360 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



























                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Eisa, Mohammed Ahmed, M.D., Sudan Organization for Rights and 
  Peacebuilding, Washington, DC..................................    43
    Prepared statement...........................................    44
Gast, Earl, Acting Assistant Administrator for Africa, U.S. 
  Agency for International Development, Washington, DC...........     9
    Prepared statement...........................................    10
    Response to question submitted by Senator Robert P. Casey, Jr    63
Gration, Maj. Gen. Scott, USAF (Ret.), Special Envoy to Sudan, 
  Department of State, Washington, DC............................     5
    Prepared statement...........................................     6
    Responses to questions submitted by Senator Russell D. 
      Feingold...................................................    59
    Responses to questions submitted by Senator Barbara Boxer....    60
    Response to question submitted by Senator Roger Wicker.......    62
    Responses to questions submitted by Senator Robert P. Casey, 
      Jr.........................................................    62
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Page, Susan D., regional director, Southern and East Africa, 
  National Democratic Institute, Washington, DC..................    48
    Prepared statement...........................................    49
Shinn, Hon. David, adjunct professor, Elliott School of 
  International Affairs, George Washington University, 
  Washington, DC.................................................    38
    Prepared statement...........................................    39

              Additional Material Submitted for the Record

Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    58
Save Darfur Coalition, Washington, DC, prepared statement........    64
Save Darfur Citizen Letter to the President......................    66
Testimony by John Prendergast, cofounder, Enough Project, before 
  the House Committee on Foreign Affairs Subcommittee on Africa 
  and Global Health ``Sudan: U.S. Policy and Implementation of 
  the CPA,'' July 29, 2009.......................................    67
Testimony of John Norris, executive director of the Enough 
  Project, before the Tom Lantos Human Rights Commission, 
  Washington, DC, July 30, 2009..................................    70
U.S. Commission on International Religious Freedom, prepared 
  statement......................................................    73
Mercy Corps, Portland, OR, prepared statement....................    78

                                 (iii)

  


               TOWARD A COMPREHENSIVE STRATEGY FOR SUDAN

                              ----------                              


                        THURSDAY, JULY 30, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Menendez, Shaheen, 
Kaufman, Lugar, Corker, Isakson, and Wicker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Good morning to all. I appreciate our two panels that we 
have here today. We have a lot of distance to try to cover, and 
so, we're going to see if we can move relatively rapidly.
    As everybody knows, today's hearing explores America's need 
to craft a comprehensive strategy for Sudan. For years, the 
urgency of either the situation in Darfur or the long war 
between the North and the South Sudan drove United States 
policy in one direction or another. Many people are not aware--
because when they hear the word ``Sudan,'' they automatically 
think Darfur, and there are obvious and justifiable reasons for 
that--but many people are not aware that the longest war in the 
history of Africa, and one which took the lives of over 2 
million people, occurred between the North and the South in 
Sudan.
    Over time, the fact that either Darfur or the long war 
between the North and the South has driven our policy has 
really resulted in a bifurcated policy. Today, I think most 
people understand that we cannot and should not pursue either 
of these challenges, North/South or Darfur, as if they exist in 
a vacuum. As the Save Darfur Coalition affirmed in a statement 
for the record, ``Policymakers have too often focused on the 
South, to the detriment of Darfur, or Darfur, to the detriment 
of the South.''
    At the same time, many discussions of United States-Sudan 
policy here in Washington continue to center on the question of 
whether we should use carrots versus sticks, rewards or 
punishments, to influence Sudan leaders in Khartoum. When I 
visited Sudan in April of this year, I came away convinced that 
we need to build a broader strategic framework that moves 
beyond simple oppositions, like carrots versus sticks, or 
North--or South versus Darfur. Instead, we need--that dreaded 
word, ``nuanced''--a comprehensive strategy for Sudan as a 
whole.
    We should begin by identifying our objectives. Our primary 
goals in Sudan are: Helping to achieve peace and security in 
Darfur and the surrounding region; maintaining and 
strengthening peace between North and South Sudan; expanding 
cooperation on counterterrorism; and promoting democracy and 
conflict prevention throughout the country. These are our 
objectives, our principal objectives, and the question is how 
best to achieve them.
    I believe that the ongoing consequences of the genocide in 
Darfur--and I called it such way back in 2004, as a candidate 
for President--and the onrushing potential tragedy of a renewed 
North-South war together create a dynamic that demands high-
level and sustained engagement.
    As the President's special envoy, Gen. Scott Gration has 
already traveled to the region multiple times, and he comes to 
this task with a long understanding of the region, and a 
passion for the region, I might add.
    Last week, General Gration was in Abyei, Sudan, at the 
center of North-South tensions. His presence on the ground, 
when the Hague's Permanent Court of Arbitration announced a 
decision on Abyei's borders, symbolized America's recommitment 
to the peace process. We need to make the same commitment to 
finding peace in Darfur.
    Almost 5 years ago, then-Secretary of State Colin Powell 
testified before this committee that the United States had 
found a consistent and widespread pattern of atrocities that 
constituted genocide. He recommended that America increase the 
number of African Union monitors, and today the African Union 
monitoring mission has been merged into the United Nations 
peacekeeping mission, UNAMID. I can tell you from firsthand 
visit, as well as from the data that we get, UNAMID is making a 
difference, but it has yet to be fully deployed or to acquire 
full tactical mobility.
    Millions of people remain in camps under conditions made 
even worse when Khartoum expelled 13 humanitarian 
organizations, placing over a million people in potential 
jeopardy. General Gration was right to make his first priority 
as special envoy the restoration of lifesaving assistance, but 
we need to go further.
    When I was in Khartoum, I emphasized to the Sudanese that 
restoring lost aid was imperative, but also insufficient. Our 
goal should not be to recreate the conditions that existed 
before the NGO expulsion, it should be to move beyond those 
conditions. Maintenance of a miserable status quo is not a 
solution. I strongly support the efforts of the African Union, 
the Mo Ibrahim Foundation, and others, to bring the voices of 
civil society into the discussion, and particularly to ensure 
that women are heard.
    At the same time, we need to recognize that, even as we 
work toward peace in western Sudan and in eastern Chad, the 
clock is relentlessly ticking down the hours between now and 
2011. And 2011 is a critical date. That is when the 
Comprehensive Peace Agreement allows Southern Sudanese to vote 
on the question of unity or separation from the North. If the 
people of Sudan are to transform a cease-fire and an uneasy 
power-sharing agreement into lasting peace, we need to think of 
the CPA as the ongoing process stretching into the future, not 
as an event in the past. Today, crucial elements remain 
unresolved, including borders, citizenship, and revenue-
sharing. A central focus of my visit to Sudan was to convince 
both sides to embark on a series of tripartite discussions with 
the United States to tackle these remaining challenges.
    Rising violence in the South is also a matter of growing 
concern, and underscores the need for tangible peace dividend. 
But, even as we move forward, we must not fix our gaze on the 
2011 referendum alone. We also need to consider what Sudan 
could look like in 2012, in 2015, and beyond.
    All of these issues and more, including complex regional 
forces, need to be balanced within a comprehensive United 
States strategy for Sudan.
    Today, we have an impressive array of witnesses to help us 
explore these issues. Gen. Scott Gration serves as President 
Obama's Special Envoy to Sudan. Before that, he served as a 
major general in the U.S. Air Force. And we're eager to hear 
his insights on the situation in Sudan, and the direction that 
our policy will take.
    Earl Gast is the Acting Administrator for Africa for the 
U.S. Agency for International Development, and he, too, has 
traveled to Sudan to advance humanitarian access.
    On our second panel, former Ambassador David Shinn is 
currently teaching at the Elliott School of International 
Affairs at George Washington University. He served in the U.S. 
Foreign Service for 37 years, including 3 in Sudan, and he was 
also Director of East African and Horn of African Affairs in 
the State Department.
    Dr. Mohammed Ahmed Eisa is a physician with the Sudan 
Organization for Rights and Peace-Building. In 2007, Dr. 
Mohammed was named the Robert F. Kennedy Human Rights Award 
laureate. And in addition to his work as a physician, he is a 
respected community leader, peace negotiator, and human rights 
advocate.
    And finally, Susan Page is the regional director for 
Southern and East Africa for the National Democratic Institute. 
From 2005 to 2007, Ms. Page directed the Rule of Law Program 
for the United Nations mission in Sudan, and she has advised 
those involved in both the CPA and the Darfur peace process.
    Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, I thank you, Mr. Chairman, for calling 
this hearing and for your very thoughtful opening statement, 
which, in a comprehensive way, sets forward many of the 
problems. I join, also, in welcoming our distinguished 
witnesses.
    I appreciate that General Gration has taken time to join us 
today. I know that he understands Congress's deep interest in 
this issue. And I applaud the appointment of a special envoy, 
underscoring the President's intention to provide international 
leadership on the Darfur crisis.
    But time is perhaps not on our side. The Darfur crisis now 
in its sixth year, prospects for peace in the region appear to 
be little better than they were when the international 
community first responded with a massive humanitarian 
intervention. In the face of direct obstruction and willful 
delays by Khartoum, these humanitarian efforts probably saved 
hundreds of thousands of lives. But, millions of refugees 
continue to be at risk of violence, malnutrition, and disease. 
The Khartoum Government's expulsion of 13 humanitarian 
organizations that were providing for roughly a million people 
has exacerbated conditions for the displaced.
    The safety net of organizations now operating in Darfur is 
doing its best to shoulder more responsibility, but the sheer 
number of displaced, and the difficulties presented by the 
rainy season, are straining their capacity.
    In July 2007, hopes for security were raised by U.N. 
Security Council approval of an enlargement of the peacekeeping 
force in Darfur to 26,000 troops. Unfortunately, 2 years later, 
the peacekeeping force still lacks elements key to its success. 
The force does not have sufficient helicopters, other types of 
equipment that are essential to achieve mobility and to deliver 
humanitarian supplies. And moreover, the overall stability of 
the region depends on full implementation of the Comprehensive 
Peace Agreement between North and South Sudan.
    With a referendum on independence of the South due in 2011, 
most indicators are that voters will choose to separate. Unless 
some formula for stability can be constructed, the tensions 
between North and South will be highly volatile, and could 
inflame the entire region.
    General Gration is charged with one of the most difficult 
diplomatic assignments in our Government. Given that President 
Bashir has been indicted for war crimes and his government has 
demonstrated little interest in resolving the political 
situation, the Darfur problem does not lend itself to 
straightforward diplomatic negotiation.
    Any successful strategy is likely to involve building broad 
international support for measures that pressure the Khartoum 
Government to accept a settlement to the Darfur crisis. And 
such a settlement should allow refugees to return to their 
homes, establish procedures to guarantee their security, and 
extend some level of autonomy to Darfur.
    The United States must lead in finding ways to address 
these political and logistical shortcomings. The Obama 
administration is conducting an ongoing review of Sudan policy. 
And I'm hopeful this review will soon yield a plan that 
clarifies and galvanizes U.S. policy and encourages far greater 
multilateral support for a resolution of a crisis that has 
produced immense suffering.
    I'll look forward to hearing from our witnesses about how 
U.S. plans and efforts are progressing and what more we can do.
    And I thank you again, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    General and Mr. Administrator, thank you for being here 
with us.
    General Gration, would you lead off, please?
    And your full statements will be placed in the record as if 
read in full, so if you could give us summaries, I think that 
will help the committee members to be able to get a chance to 
have a dialogue with you.

  STATEMENT OF MAJ. GEN. SCOTT GRATION, USAF (RET.), SPECIAL 
      ENVOY TO SUDAN, DEPARTMENT OF STATE, WASHINGTON, DC

    General Gration. Thank you very much, Senator.
    Chairman Kerry, Ranking Member Lugar, members of the Senate 
Foreign Relations Committee, I want to thank you for this 
opportunity to discuss our strategic objectives in Sudan and to 
outline what we're doing to make them a reality.
    Mr. Chairman, we greatly appreciate your leadership on 
these issues, your commitment to resolving the significant 
challenges that we find in Sudan. I know this commitment is 
shared by all members of this committee. We sincerely 
appreciate the dedicated efforts of Senator Feingold, chairman 
of the Africa Subcommittee, and Senator Isakson, the ranking 
member of that committee.
    I just returned, as you noted, from Sudan last week, and as 
I visited Darfur, Abyei in the South, I was reminded again of 
the great humanitarian tragedies that have occurred in that 
country. Many people in Sudan have suffered terribly from the 
pain and loss that conflict brings. It's for these people, for 
future generations of Sudanese, that we are striving to make a 
difference.
    Let me tell you what we want to achieve. We want a country 
that's governed responsibly, justly, democratically; a country 
that's at peace with itself and its neighbors, that's 
economically viable; a country that works together with the 
United States with common interests. We want an inclusive and 
durable peace in Darfur. We want full implementation of the 
Comprehensive Peace Agreement. We want a peaceful post-
referendum period, whether a single, stable, and united Sudan, 
or a Sudan that divides, peaceably and orderly, into two 
separate states. We want only what's best for the Sudanese 
people.
    That's our vision. And to make it a reality, we're using 
all elements of national power: diplomacy; defense; and 
development. We're currently engaging with all relevant parties 
inside of Sudan to bring peace and stability to that country. 
We have weekly discussions with leaders from the two parties of 
the Government of National Unity, the National Congress Party 
and the Sudan People's Liberation Movement, as well as regular 
talks from representatives from critical parties--the other 
parties--and movements and civil society.
    To accomplish our goals, we're also engaging with Sudan's 
neighbors and the international community, and that's why I've 
traveled to Chad, to China, Egypt, France, Libya, Norway, 
Qatar, and the United Kingdom to meet with key leaders who 
share our common concern, who want to work together with us on 
shared objectives. We're dedicated to carrying out our vision 
of success.
    I report regularly to the President and to Secretary 
Clinton about the progress that we've made, and I've visited 
Congress to exchange views with you and members--and a number 
of your colleagues. I look forward to speaking with you many 
more times in the weeks ahead.
    Now, let me detail some of the specific aspects of our 
strategic approach. Most urgently, we seek a definitive end to 
the conflict and the gross human-rights abuses in Darfur, and a 
justice for its many victims. We can never forget the lives 
needlessly lost over the last 5 years, the millions who 
continue to be displaced. Families still crowd into makeshift 
housing in IDP camps. Women continue to gather firewood in 
fear. Children are growing up without a hope for a better 
tomorrow. That must end.
    To resolve the humanitarian tragedy, we're striving to 
facilitate and negotiate a political settlement between the 
Government of Sudan and all parties to the conflict. Our goal 
is to conclude an agreement that will bring a sustainable peace 
to Darfur, that will allow people back to their home villages 
or places that they desire to move to, to resume their lives in 
safety and stability and security.
    The second aspect of our strategy focuses on sustaining 
that fragile peace between the North and the South. Sudan, as 
you said, will hold elections in 8 months, and the referenda, 
in January 2011. Our timeline is so very tight, our task is so 
very great, but we have no option but success.
    The third aspect is to prepare the Government of Sudan and 
the Government of Southern Sudan for the post-referenda period, 
in unity or in peaceful coexistence. Our strategy seeks to find 
a delicate balance between improving security forces and 
developing the social governance and economic infrastructure 
required for growth.
    The last aspect of our strategy seeks to increase and 
enhance cooperation with the Sudanese Government, to 
counterterrorism and to promote regional security. I believe we 
have a golden opportunity now to make a big difference in 
Sudan. As you can see, we're aiming high, we're thinking big, 
and we're expecting much. Failure cannot be an option. We must 
proceed with boldness, with hard work to make this proactive 
and preventative approach work right now.
    Mr. Chairman and members of the committee, I thank you for 
your leadership, for your support to end the suffering in 
Sudan. And thank you again for allowing me to be here today to 
discuss these issues, concerns that need our urgent attention, 
critical problems that must resolve--be resolved--for all the 
people of Sudan.
    Thank you very much.
    [The prepared statement of General Gration follows:]

Prepared Statement of Jonathan S. Gration, Maj. Gen., USAF (Ret.), the 
President's Special Envoy to Sudan, Department of State, Washington, DC

    Chairman Kerry, Ranking Member Lugar, members of the Senate Foreign 
Relations Committee, thank you for the opportunity to be here today to 
discuss our strategic objectives in Sudan and to outline what we are 
doing to make them a reality.
    Mr. Chairman, let me begin by acknowledging your leadership on 
these issues. We greatly appreciate your commitment to finding 
solutions to the many challenges confronting the people of Sudan. That 
commitment is widely shared by the members of this committee, including 
Senator Feingold, chairman of the Africa Subcommittee, with whom I have 
recently met, and Senator Isakson, ranking member of the subcommittee. 
We are especially grateful to you, Mr. Chairman, and Senators Corker 
and Isakson for participating in the State Department's Forum for 
Supporters of the Comprehensive Peace Agreement (CPA) which we held 
here in Washington last month. I will say more about those proceedings 
in a few moments, but I want to thank you now for your support.
    The great human tragedies that have occurred in Darfur and the rest 
of Sudan are deeply embedded in our memories. Many people in Sudan 
suffer terribly from the pain and loss brought by conflict, and it is 
these people who deserve our support.
    We have made progress in recent months, but we have much work 
ahead. From my visits to Sudan, the region, and throughout the 
international community, I have found the challenges in Sudan to be 
complex and our timeline compressed. Because of the complicated nature 
and urgency of the tasks at hand, we have helped to
craft a strategic approach that blends all elements on national power 
and a methodology that is integrated, comprehensive, and based on a 
policy of dialogue and engagement.
    I want to take a moment to discuss our engagement. Engagement is 
not something we pursue for its own sake, and it is not about 
accommodating the status quo. Engagement does not mean the absence of 
pressure, or doling out incentives based on wishful thinking. On the 
contrary, it is about working to change conditions on the ground. 
Engagement means frank dialogue about what needs to be accomplished in 
the months ahead, how we can help make those accomplishments happen, 
how the bilateral relationship could improve if conditions on the 
ground transform, how the Government of Sudan could become even more 
isolated if it does not act now, and how we ensure that all parties are 
held accountable.
    First let me tell you what we want to achieve. We want a country 
that is governed responsibly, justly, and democratically; a country 
that is at peace with itself and with its neighbors, that is 
economically viable; and a country that works together with the United 
States on common interests. We want an inclusive and durable peace in 
Darfur. We want full implementation of the Comprehensive Peace 
Agreement and a peaceful post-referendum period whether as a single, 
stable, and unified Sudan or a Sudan that divides peacefully and 
orderly into two separate states. We want only what is best for the 
Sudanese people.
    This is our vision. Now let me tell you how we're going to make it 
a reality. We are using diplomacy, defense, and development--all the 
elements of national power--to achieve our strategic objectives.
    We are engaging directly with all of the relevant parties inside 
Sudan to bring peace and stability to the country. This includes the 
two main parties of the Government of National Unity (GNU)--the 
National Congress Party (NCP) and the Sudan People's Liberation 
Movement (SPLM), as well as other political parties and movements and 
civil society. We have traveled to the country three times since my 
appointment in March, and returned just a few days ago from our last 
trip. We were in Khartoum to facilitate trilateral talks to advance 
timely implementation of the CPA and in Darfur to review our progress 
on facilitating humanitarian assistance and to promote the Doha peace 
process. I visited several camps for internally displaced persons, met 
with camp leaders, and saw firsthand the day-to-day struggles these 
Darfuris must face. Ultimately, the Government of Sudan must be 
accountable to its people and bear responsibility for peace within 
Sudan's borders.
    To achieve our goals, we must also engage with Sudan's neighbors 
and the international community. This is why we have traveled around 
the world to Chad, China, Egypt, France, Libya, Norway, Qatar, and the 
United Kingdom to meet with key leaders who share our common concern 
and want to work together toward shared objectives. This is why, at the 
end of June, we convened the Forum for Supporters of the CPA here in 
Washington to bring together representatives from over 30 countries and 
international organizations to renew the global commitment to seeing a 
peaceful and stable Sudan. We are confident that this multilateral 
group will work closely together to achieve a lasting peace in Sudan by 
keeping Sudanese parties positively engaged in implementing the peace 
agreement and preparing for the future, increasing the capacity of the 
Government of Southern Sudan, and helping to keep all Sudanese 
Government institutions accountable to their people.
    We are dedicated to carrying this vision to success. I have built a 
team of sharp and dedicated individuals who, along with our colleagues 
based in Sudan, are working tirelessly to achieve our objectives. My 
role is to guide our vision, and I will do all that is in my power to 
see this vision come to fruition. I report regularly to President Obama 
and Secretary Clinton about our progress and have visited Congress to 
exchange views with you and a number of your colleagues. I look forward 
to speaking with many more of you in the weeks ahead. We are committed 
to working together as a strong and united team to achieve our 
objectives of a politically stable, physically secure, economically 
viable, and peaceful Sudan.
    Now let me tell you more about the four pillars required to support 
this vision of Sudan. Most urgently, we want a definitive end to 
conflict and gross human rights abuses in Darfur and justice for its 
many victims. We can never forget the lives needlessly lost in the last 
5 years, and the millions who continue to be displaced. As I witnessed 
last week, families still crowd into makeshift housing in IDP camps, 
women continue to gather firewood in fear, and children grow up without 
hope for a better tomorrow.
    To resolve this humanitarian tragedy, we believe only a negotiated 
political settlement between the Government of Sudan and all parties to 
the conflict will bring sustainable peace to Darfur. Our goal is to 
conclude an agreement that will allow people to go back to their home 
villages or a place of their choosing to resume their lives in safety, 
stability, self-sufficiency, and security.
    Past peace negotiations have faltered, and we have learned from 
these experiences. We are collaborating with the African Union and 
United Nations joint chief mediator, Djibrill Bassole, to ensure that 
the peace process is inclusive and that it adequately addresses the 
grievances of the people of Darfur. We are engaging with the fragmented 
movements in Darfur to help them unite and to bring them to the peace 
table with one voice. We are working with Libya and Egypt to end the 
proxy war between Chad and Sudan that has ignited further conflict. We 
are supporting the full deployment of the African Union-United Nations 
Mission in Darfur (UNAMID) as a critical mechanism for protecting 
Darfuri civilians. We are determined to work toward a peaceful Darfur 
where displaced families can resettle and reestablish their homes. We 
must act without delay--innocent Darfuris have suffered for too long.
    Our second pillar focuses on sustaining peace between the North and 
the South. In January 2005, the Government of Sudan and the Sudan 
People's Liberation Movement signed the Comprehensive Peace Agreement, 
ending a 22-year war. Four and a half years after the signing of the 
CPA, peace remains fragile. In just 8 months, Sudan will hold national 
elections in April 2010 and referenda in Southern Sudan and the Abyei 
region beginning 9 months later in January 2011. Our timeline is so 
very short; it is urgent that we act now to support the full 
implementation of the CPA.
    This will not be easy. Just over a week ago, the Permanent Court of 
Arbitration in The Hague announced its arbitration decision on the 
Abyei border delineation--a highly sensitive and emotional issue for 
both parties to the CPA. Before the boundary decision was handed down, 
we spent a significant amount of time with the parties, working to 
ensure the decision would be accepted and fully implemented. Tensions 
in Abyei remain high and the international community must continue to 
be vigilant. As we have seen before in that area, tensions between the 
Ngok Dinka and Misseriya can quickly erupt into violence, resulting in 
a conflict that could bring the SPLM and NCP into direct confrontation 
and threaten to derail the CPA.
    We will also need to continue support for the U.N. Mission in 
Sudan, help the parties prepare for elections in April, and ensure 
legitimate popular consultations in Southern Kordofan and Blue Nile 
states. Collectively, we must assist the parties as they prepare for 
the January 2011 referenda and their consequences. These are just a few 
of the major challenges ahead as we help the parties implement the 
remaining milestones in the CPA.
    It is critical that we work with the parties to begin the process 
of democratic transformation and decentralization, so that in January 
2011, the voices of the people of Southern Sudan will be heard and we 
can witness a unified and peaceful Sudan or a Sudan that is on an 
orderly path toward becoming two separate and viable states at peace 
with each other. Resolving the issues of North and South is critical to 
tackling challenges in Darfur and other parts of the country. These 
twin challenges must be addressed with equal attention and vigor.
    The third pillar calls for a functioning and stable Sudanese 
Government, and one that will either include a capable Government of 
Southern Sudan or coexist peacefully with an independent Southern 
Sudan. Our strategy seeks to help the South improve its security 
capacity to defend against external and internal threats while striving 
to ensure a potentially independent Southern Sudan is politically and 
economically viable.
    Our fourth and final pillar is to seek increased and enhanced 
cooperation with the Sudanese Government to counter terrorism and to 
promote regional security, consistent with--and not at the expense of--
our overall objectives of peace and security in Sudan. We also seek an 
end to Sudan's efforts to weaken or marginalize opponents abroad or 
align with negative state and nonstate actors.
    Our whole-of-government approach is integrated and comprehensive. 
It is firmly founded in the belief that engagement with all of Sudan, 
the region, the international community, and civil society is essential 
if we are to secure our vision of a Sudan that is ruled more justly and 
democratically, is at peace with itself and with its neighbors, is 
economically viable, and works together with the United States on our 
shared interests. Further, our strategy is deeply rooted in a 
conviction that we must do all we can to end the human suffering in 
Sudan.
    As you can see, we are aiming high, thinking big, and expecting 
much. We do so because we believe innovative concepts and ideas, 
coupled with detailed planning and sufficient resources, are the only 
way to achieve big results. Big results are exactly what we need in 
Sudan at this critical moment.
    Mr. Chairman and members of the committee, I would like to thank 
you for your leadership and support on efforts to end the suffering in 
Darfur and the rest of Sudan. Again, thank you for allowing me to be 
here today to discuss these issues that are so important to us all, and 
especially to the Sudanese people.

    The Chairman. Thank you, General.
    Mr. Administrator.

  STATEMENT OF EARL GAST, ACTING ASSISTANT ADMINISTRATOR FOR 
AFRICA, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, 
                               DC

    Mr. Gast. Good morning, Mr. Chairman, Ranking Member Lugar, 
and members of the committee. Thank you for the opportunity to 
update you on our support for comprehensive peace and stability 
in Sudan, and on humanitarian issues.
    The United States Government has provided more than $6 
billion in assistance to the people of Sudan since the signing 
of the Comprehensive Peace Agreement in 2005. Our overarching 
goal in Sudan has always been to help those affected by 
conflict, and to establish a just and lasting peace. We have 
saved lives, and we have improved conditions for millions of 
Sudanese, but with less than 24 months left in the CPA's 
roadmap for consolidating peace, and with the continuing 
challenges of Darfur, our most critical tasks lie ahead.
    USAID is doing what it can to help support the 
establishment of just, accountable, democratic governments that 
are able to deliver basic services, whether the people of 
Southern Sudan and Abyei choose unity with the North or 
independence in the 2011 referendum. However, the time for 
achieving substantive improvements in governance is running 
out, and the critical window during which we can contribute to 
genuine transformation via the CPA roadmap will soon close.
    In Southern Sudan, development gains have been slow, and a 
recent fiscal crisis has highlighted that many fundamentals of 
good governance still need to be established. Infrastructure 
remains extremely undeveloped, and the burden is on 
international donors to foot the bill. Four years after the 
CPA's signing, our collective contributions are a drop in the 
bucket of what is needed. But considering the state of 
development in the South in the Three Areas when the war 
finally ended, our work has just begun, and it will take 
decades to cement our progress.
    Meanwhile, the situation for the 4.7 million persons 
affected by the conflict in Darfur remains intolerable. 
Although we have managed to fill many of the gaps left by the 
expulsion of 13 international NGOs in March and avert an even 
greater humanitarian crisis, these measures are temporary. They 
rely on temporary staffing and strain already limited 
resources. They are not sustainable.
    Compounding the situation, carjackings, staff abductions 
and assaults, break-ins targeting NGO facilities, and ongoing 
military campaigns still impede the delivery of humanitarian 
assistance to Darfur. Constant insecurity and violence continue 
to be the primary factors limiting the effective delivery of 
humanitarian assistance. We must institute a sustainable long-
term strategy for Darfur that is finally accompanied by 
sustainable long-term peace.
    We look forward to the day when the 2.7 million persons who 
were driven from their homes by this conflict can voluntarily 
return safely to their villages. USAID will not deviate from 
its responsibility to safeguard the rights and protection of 
displaced persons, and we call upon the Government of Sudan to 
support the operations of the U.N. High Commissioner for 
Refugees and the International Organization for Migration so 
that they can undertake the vital task of certifying any 
returns as appropriate and voluntary.
    The violence we've seen recently in Darfur, Abyei, and more 
recently in pockets of the South, are a jarring symbol of the 
legacy of negative trends that developed during Sudan's 
conflicts, and persist to this day: The absence of the rule of 
law; a dearth of good governance; an abundance of weapons; and 
unresolved grievances. We must strengthen governments' and 
communities' ability to deal with tension constructively and 
nonviolently. The alternative is a failed state, where chaos 
will reign.
    Before concluding, on behalf of USAID I want to express our 
appreciation to Senator Kaufman, a member of this committee, 
who recently, in a statement on the Senate floor, paid tribute 
to John Granville, one of 91 agency employees who have lost 
their lives in the performance of their duties overseas. In 
honor of John Granville and Abdelrahman Abbas Rahama, USAID is 
establishing the Granville-Rahama Staff Care Award, which will 
recognize USAID employees who make significant contributions to 
the morale and well-being of agency staff.
    In addition, the John Granville Secondary School is due to 
open this fall in Sudan's Blue Nile state. John had a special 
attachment to the Blue Nile state. And the fact that a school 
is being built in his name, with the support and cooperation of 
the United States Government, the Sudanese Government, and the 
Government of Southern Sudan, is a fitting memorial to a man 
who dedicated his life to helping Sudan's people.
    Thank you, Mr. Chairman, Ranking Member Lugar, for giving 
me the opportunity to speak on behalf of USAID. We certainly 
appreciate your continued dedication to the Sudanese people and 
your commitment to peace and stability throughout the 
continent.
    [The prepared statement of Mr. Gast follows:]

Prepared Statement of Acting Assistant Administrator Earl Gast, Bureau 
                   for Africa, USAID, Washington, DC

    Good morning, Mr. Chairman, and members of the committee. Thank you 
for the opportunity to update you on the humanitarian situation in 
Darfur and our support for comprehensive peace and stability in Sudan. 
I am pleased to join my colleague, Special Envoy Scott Gration, on this 
panel and would like to take this opportunity to acknowledge the 
excellent cooperation and coordination between USAID and the Special 
Envoy's office.
    The U.S. Government has provided more than $6 billion in assistance 
to the people of Sudan since the signing of the Comprehensive Peace 
Agreement (CPA) in 2005. We have helped to stand up a new regional 
government tasked with rebuilding and governing the war-torn South. We 
have conducted wide-ranging civic education programs and immunized 
children. We have supported life-saving humanitarian and peacekeeping 
operations. We have worked to improve economic opportunities and public 
infrastructure. We have provided food aid, and we have supported 
Sudan's farmers and entrepreneurs.
    We have saved lives, and we have improved living conditions for 
millions of Sudanese.
    But with the continuing challenges Darfur and with less than 24 
months left to follow the CPA's roadmap for consolidating peace, our 
most critical tasks lie ahead.
    The situation for the 4.7 million people affected by the conflict 
in Darfur remains intolerable. While we have managed to fill many of 
the gaps left by the expulsion of 13 international NGOs in March, these 
measures are temporary and must be replaced by a more sustainable, 
long-term strategy that is finally accompanied by sustainable, long-
term peace. Compounding the situation, carjackings, staff abductions 
and assaults, break-ins targeting NGO facilities, and ongoing military 
campaigns still impede the delivery of humanitarian assistance to 
Darfur and have resulted in both temporary and permanent suspensions of 
life-saving programs. Constant insecurity and violence continue to be 
the primary factors limiting the effective delivery of humanitarian 
assistance.
    Meanwhile, Sudanese expectations that they would benefit from the 
peace that came in 2005 remain high--and often unmet. The frustration 
of many Sudanese is summed up by what a Nuba man from Southern 
Kordofan, told a USAID partner not long ago: ``The peace is now 3 
years, and there are supposed to be tangible things. The government 
should have expressed its presence; but for us here, there is no 
government.'' The time for achieving substantive improvements in 
governance is running out, as the national elections and the referenda 
on unity draw near. The critical window during which we can contribute 
to genuine transformation via the CPA roadmap will soon close.
    As the Special Envoy has noted, the U.S. Government approach to 
Sudan's multiple challenges requires complex and creative solutions, 
implemented in cooperation with government officials, tribal leaders, 
and civil society representatives throughout Sudan. And it requires us 
to make a political commitment that matches the enormous financial and 
human commitment that we have dedicated to the Sudanese people over the 
years.
                               expulsions
    Even before the Government of Sudan expelled 13 international aid 
organizations in March, there were significant assistance gaps across 
Darfur. The upsurge in fighting in South Darfur in early 2009, for 
example, displaced over 30,000 people, and in February, the U.N. World 
Food Programme (WFP) was unable to reach over 500,000 people in need of 
food aid.
    The NGO expulsion significantly increased the humanitarian 
challenges and drastically reduced USAID's ability to deliver 
assistance to people in need; both in Darfur and in the Three Areas.
Darfur
    In Darfur, the expulsions jeopardized food aid to more than a 
million people and health services to more than 650,000 Sudanese, 
according to a March 24 assessment conducted jointly by the United 
Nations and the Sudanese Government. More than half of USAID-funded 
humanitarian programs in Darfur closed, and 40 percent of the delivery 
capacity of our main food aid partner, the U.N. World Food Programme 
(WFP) was lost. In just one day, much of Darfur's humanitarian 
infrastructure, which took years to establish and thousands of people 
to staff, was wiped out.
    From the moment the Sudanese Government announced the expulsions, 
we have worked with our partners to mitigate the impact. NGOs stocked 
health clinics and nutrition centers with months of supplies. WFP 
conducted a 2-month food distribution through remaining NGOs and local 
food committees. To ensure that services continue, agencies have 
shifted existing operations, are providing supplemental assistance, and 
are relying on community members to provide food, safe drinking water, 
health care, and shelter to the most vulnerable people. Remaining NGOs 
have scaled up their services and expanded their areas of operation to 
address gaps in assistance, and Sudanese Government officials have 
staffed some health clinics.
    We have, so far, averted a greater humanitarian crisis.
    However, these measures are merely stopgaps. They rely on temporary 
staffing and strain already limited resources. They are not 
sustainable.
    We must focus not simply on the quantitative aspects of filling 
assistance gaps, but the qualitative aspects that make programs 
effective and allow them to continue. This means ensuring that programs 
meet technical quality standards, that they are adequately managed and 
staffed, and that assistance meets international norms and standards 
for humanitarian action. Although immediate gaps have been addressed 
through the extraordinary efforts of the United Nations, NGOs still 
operating in Sudan, and parts of the government, the expulsion severely 
impacted the quality of programming and the ability to accurately 
monitor the distribution and impact of assistance. Despite our best 
efforts, many basic humanitarian needs remain unmet. Even before the 
expulsions, NGO access to affected populations in Darfur was limited 
and inconsistent. Simply restoring assistance to preexpulsion levels 
would still leave many people in need.
    In the immediate aftermath of the expulsions, the United States 
sent a clear message that the ultimate responsibility for the well-
being of the Sudanese people solely rests on the shoulders of the 
Sudanese Government. In coordination with USAID, Special Envoy Gration 
successfully negotiated with the Sudanese Government to allow new NGOs 
to fill gaps in assistance, which is enabling USAID and its partners to 
begin the process of rebuilding humanitarian operations. Some new 
projects are already underway. These efforts will reintroduce lost 
capacity and program quality to Darfur.
    However, bureaucratic obstacles and insecurity continue to hamper 
our efforts to rebuild the humanitarian infrastructure. The 
registration of new NGOs has been time-consuming, and many Sudanese 
Government commitments remain unmet or only partially implemented. For 
example, the Government of Sudan has yet to return USAID-funded assets 
that were confiscated from our partner NGOs when they were expelled.
Three Areas
    There has also been a marked lack of progress in enhancing the NGO 
operating environment in the Three Areas, where the NGO expulsions 
significantly altered
the humanitarian, recovery, and development landscape. The expulsion of 
leading USAID partners and subsequent seizure of their program assets 
and equipment severely undermined the operating environment and has 
threatened the stability of these war-torn areas. Due to the unique 
nature of the Three Areas' governance systems, humanitarian programs in 
the parts of Southern Kordofan and Blue Nile controlled by the Sudan 
People's Liberation Movement (SPLM) went largely uninterrupted. 
However, many assistance programs in Northern-controlled areas were 
halted. This dynamic has created an imbalanced distribution of 
assistance, which only reinforces conflict lines rather than fostering 
integration. Although two new organizations have recently started work 
in the Three Areas, the current lack of capacity and loss of confidence 
among remaining NGOs, coupled with the likely delays to reestablishing 
programs now that the rainy season has begun, will further exacerbate 
the risk for conflict. The Government of Sudan and the United Nations 
have yet to finalize joint communiques that will formalize operating 
procedures for programs in the Three Areas--and which are vital to 
safeguarding the conduct of programs in this critical region.
    The U.S. Government has worked closely with the Government of 
Sudan, the United Nations, other donors, and humanitarian agencies to 
increase their access and capacity to address the gaps created by the 
expulsions. We must continue to coordinate and engage with these 
entities to ensure that humanitarian, recovery, and development 
programming proceed without impediment, and that aid agencies are able 
to operate freely.
Darfur IDP Returns
    We have recently received reports that some of Darfur's displaced 
people have returned home. While we believe that some of these returns 
are seasonal in nature, we look forward to the day when the 2.7 million 
people who were driven from their homes by this conflict can return 
safely and securely to their villages. While not all of them will 
choose to return home, we are prepared to shift our assistance to 
support voluntary returns, and as elsewhere around the world, the 
international community will look to ensure that those returns are 
certified as voluntary by the U.N. High Commissioner for Refugees or 
the International Organization for Migration. We call upon the 
Government of Sudan to support the operations of these organizations in 
Darfur so that they can undertake this vital task. USAID will not 
deviate from its responsibility to safeguard the rights and protection 
of displaced people.
                           cpa implementation
    At the same time, we must leverage our coordination and engagement 
to prepare for the upcoming historic milestones of holding national 
elections and referenda on self-determination for Abyei and Southern 
Sudan, which could result in the creation of a new independent country.
    The Government of Southern Sudan (GOSS) did not exist before 2005. 
Every government structure and system has had to be crafted from 
scratch. The committed men and women who serve in the government are 
not career politicians, nor have they benefited from the lessons of a 
life lived in a democratic, transparent state. That's why building the 
capacity of the GOSS is a cornerstone of USAID's strategy in Sudan, and 
central to the successful implementation of the CPA.
    Initially, the GOSS had no offices, no pens, no paper, and no staff 
to undertake the most basic tasks needed for a government to function. 
But with our assistance, the key GOSS ministries have established 
systems for hiring people, for formulating budgets, and for 
establishing office systems. This has required tremendous dedication on 
the part of GOSS officials, who have been willing to roll up their 
sleeves and persevere through each one of these processes.
    Considerable progress has been made in establishing functioning 
institutions where there previously were none. Ministries are 
functional, revenue is coming in, payments are being made, and a legal 
framework is being built. But development gains have been slow, and a 
recent fiscal crisis has highlighted that many fundamentals of good 
governance need to be improved. International NGOs are still the 
primary providers of basic services. Few roads have been paved and 
other infrastructure remains equally underdeveloped. Government at 
every level still needs to forge stronger, more consistent linkages 
between policy priorities and development, legislation, and budget 
capacity. High expectations for tangible benefits of peace remain 
unmet, especially in communities most affected by the war, where 
tensions and instability continue to threaten progress. Episodes of 
clan violence, as well as violence committed by the Lord's Resistance 
Army along the border with the Democratic Republic of Congo, have 
increased, taking scores of lives in recent weeks alone.
    To bolster investments in strengthening the Government of Southern 
Sudan, USAID has launched a program that enhances the ability of local 
governments to provide peace dividends, defuse conflict, and promote 
stabilization in the Three Areas and key Southern states. USAID also 
played a key role in a joint donor--GOSS compact to strengthen the 
government's fiscal responsibility and financial management, 
representing a renewed commitment and redoubled cooperation to deliver 
the peace dividends promised by the CPA. We all are seeking to help 
support the establishment of a just, accountable, democratic government 
able to deliver basic services, whether the people of Southern Sudan 
and Abyei choose unity with the North or independence in the 2011 
referendum.
    And we cannot speak of the CPA without noting the precarious 
footing of elections. Elections were designed to be a central component 
of the broader strategy to transform Sudan democratically under the 
CPA, and our support to the national election process remains firm. But 
the hurdles are daunting.
    As you likely know, the date for elections has been pushed back 
several times from the CPA-mandate of July 2009. While the 
postponements were intended to allow for adequate preparation, ongoing 
delays pose increasing risks. Just 9 months remain until the designated 
polling date, yet there is no public budget for the elections. The 
electoral law--which establishes an electoral system that would be 
highly complicated, even in countries with a long democratic 
tradition--was passed more than 2 years after the deadline specified in 
the CPA. The National Election Commission (NEC) still hasn't fully 
established its 26 subsidiary commissions throughout the country, nor 
has it received its full operating budget. In addition, the failure to 
resolve technical questions related to Northern census data spurred key 
Southern political leaders to reject the census results, making the use 
of those results to delimit electoral constituencies highly sensitive. 
Finally, the logistical and political challenges of implementing 
credible elections in Darfur cannot be understated. Massive civic and 
voter education will be required to engage Darfur's displaced people 
and the vast populations in the South that have low levels of literacy 
and little or no experience with past elections.
    So, given the current status of election preparations, are our 
expectations too high? Do we believe it is too late to have credible 
elections in Sudan? No. It is too early to predict whether or not these 
elections will be credible, when so many administrative decisions are 
outstanding. Until key decisions are made, the ability of our central 
election administration program to move forward as intended will be 
severely limited. However, our programs to increase civic participation 
and observe the entire electoral process will continue, in coordination 
with the National Election Commission. We are coordinating with the 
United Nations and other international partners to bolster a credible 
outcome to this daunting but historic election for Sudan.
    Before concluding, on behalf of USAID, I want to express our 
appreciation to Senator Kaufman, a member of this committee, who 
recently in a statement on the Senate floor, paid tribute to John 
Granville, one of 91 agency employees who have lost their lives in the 
performance of their duties overseas.
    In honor of John Granville and Abdelrahman Abbas Rahama, USAID is 
establishing the Granville-Rahama Staff Care Award, which will 
recognize USAID employees who make significant contributions to the 
morale and well-being of agency staff. Our staff work in some of the 
most difficult, dangerous environments in the world, and the tragedy of 
John and Abdelrahman's deaths reminded us of how important it is to 
promote a caring work environment and to help our staff cope with 
stress in the workplace.
    In addition, the John Granville Secondary School is currently under 
construction and due to open this fall in Sudan's Blue Nile State. John 
had a special attachment to Blue Nile, and the fact that a school is 
being built in his name with the support and cooperation of the U.S. 
Government, the Sudanese Government, and the Government of Southern 
Sudan is a fitting memorial to a man who dedicated his life to helping 
Sudan's people.
    Thank you, Mr. Chairman, for giving me the opportunity to speak on 
behalf of USAID. We certainly appreciate your continued dedication to 
the Sudanese people and your commitment to peace and stability 
throughout the continent.

    The Chairman. Thank you very much, Administrator Gast.
    General, share with us, if you will, your perceptions of 
the situation on the ground, the dynamics on the ground in 
Darfur now, and particularly the current status of activities 
of the principal rebel groups.
    General Gration. Yes, sir. What we're doing right now is 
trying to cope with a situation that is very dire and very 
severe. Obviously, the camps continue to have grave problems, 
and we're trying to ensure that they have the basic necessities 
to ensure the essentials of life.
    On the ground, we still see instability and insecurity, and 
what we're trying to do right now is achieve a lasting and 
durable peace. To do that, we've gotten agreements from the 
Government of Sudan to put a unilateral cease-fire in. We're 
trying to reduce the tensions between Chad and Sudan, and 
reduce the cross-border rebel activities that has continued to 
stir instability. And we're working with the Government of 
Sudan to come up with a plan to disarm militias that have been 
put along the border by the Government of Sudan, and we're 
working with UNAMID, and we're coming up with a plan--a law-
enforcement type of plan--to ensure that warlords who sponsor 
Janjaweed, autonomous Janjaweed, and other people that continue 
to terrorize populations, are dealt with. This is a tough 
problem and needs to be done comprehensively, and that's why 
your statement about UNAMID is very important.
    The Chairman. JEM, I take it, is still receiving support 
from Chad, and still--across the border--and operating in a 
cross-border fashion?
    General Gration. They are currently operating out of Sudan, 
but it's true that they get medical support and other support 
still from within Sudan. What--I mean in Chad--what we're 
working with is the Government of Chad to reduce overt support, 
and even quieter support, in terms of logistics, to this 
movement.
    The Chairman. Well, the Government of Chad would argue that 
part of their support stems from the fact that the Government 
of Sudan has been supporting efforts against them, and you get 
this back-and-forth. Can you comment on that?
    General Gration. Yes. It's very true that JEM has been as 
far as Omdurman and threatening Khartoum. And it's also true 
that Sudanese-backed Chadian forces have been close to 
N'Djamena. What we're trying to do, in working with the Libyans 
and other leaders around the region, is to reduce the support, 
to stop that proxy war, to get rid of the surrogates that are 
destabilizing. We're also working with MINURCAT and UNAMID to 
come up with a monitoring agreement, so that the cross-border 
areas are monitored, so that the forces can't go back and 
create damage.
    The Chairman. And what conclusions have you been able to 
draw about the current relationship and support structure 
between the Government in Khartoum and the Janjaweed?
    General Gration. It is very clear that, in the beginning, 
the Government of Khartoum used the Janjaweed to destabilize 
the population, to wreak havoc. It is now my view that some of 
these groups have gone autonomous, some are not totally 
controlled by the government, although I believe that there are 
still linkages that we have to pursue. We're taking a look at 
this problem in a comprehensive way, to take a look at what 
motivates them and how can we stop them, both from government 
support and also local law enforcement.
    The Chairman. And what happens as you raise that issue with 
Khartoum officials?
    General Gration. Initially there was denial that they had 
anything to do with them. Now we're getting more acceptance 
that they have a role in fixing this problem, and we're making 
progress on working together with the Government of Khartoum to 
stop their support.
    The Chairman. What would you say, to the committee, is the 
level of violence in Darfur itself today? How would you 
describe the on-the-ground situation with respect to killing 
and raids and so forth?
    General Gration. It's getting significantly better, but 
that doesn't mean we have to stop our efforts. It appears, last 
month, that there were 16 people that died a violent death, and 
12 of them were from criminal kind of things, so we need to 
keep working it. One death is too many, from violence. And 
we'll continue to work with law enforcement agencies. But, we 
have been able to reduce the violence because we've been able 
to turn off, to a large degree, the proxy war. And some of that 
happened when the Government of Sudan bloodied the nose of JEM 
at Umm Baru. So, that resulted in a decreased activity.
    The Chairman. It was my perception, as I met with and 
listened to Minni Minnawi, and as I talked to the various 
representatives and just looked at the situation on the ground, 
that some of the rebel groups have, sort of, withdrawn from 
major activities, that over the last year or more, there has 
been a significant reduction in their activity.
    And I think the leaders that I met with in El Fasher were 
saying to me that there were maybe a total of some 500 folks, 
over the course of an entire year, that had lost their lives, 
and many were in criminal activities, as you've described.
    So, where does that put us, in the context of debate that 
people have about the events of 2004 and 2005 and the genocide 
that Colin Powell, myself, and others, and all of us have 
referred to, the atrocities that took place, and the sort of 
status that we find today? Is there a distinction? Is it a 
distinction without a difference? Or does it affect our policy, 
in your judgment?
    General Gration. Yes, sir. I believe that, just looking at 
the facts, there's significant difference between what happened 
in 2004 and--2003, which we characterize as genocide--and what 
is happening today. We are working very hard to make sure that 
we can close the gap, though, and end that violence. Right now, 
currently, as we speak, we're working to reunify rebel groups 
from Abdul Wahed's people, from Yahya. We're bringing in other 
people to come together and work for a comprehensive peace and 
to be part of the solution. There's more that can be done, but 
you're exactly correct, the level of violence that we're seeing 
right now is not a coordinated violence, but it is violence 
that we must end, and, in fact, as there's other areas of Sudan 
where the violence is considerably greater.
    The Chairman. Which raises, obviously, our deeper concerns 
about the North-South peace and the CPA.
    Just a last question, quickly; my time is up. Well, I'm 
going to--I won't ask it. We have a lot of Senators here, and 
we need to get through.
    So, Senator Lugar.
    Senator Lugar. General Gration, the Sudan Program Group was 
created at the State Department to deal specifically with the 
complex issues associated with Sudan, and originally was 
focused on the 30-year North-South conflict. Now it appears to 
be focused on the whole of Sudan. Now, I have three or four 
questions, which I'll ask, and ask you to bring us up to date.
    First of all, is the Sudan Program Group still independent 
of the African Bureau at the State Department? And, if so, what 
rationale is there for the continued independence?
    Second, what role does your staff play in the Sudan Program 
Group? Are you adequately staffed?
    And third, what bureau and office handles the day-to-day 
diplomatic affairs for the United States with regard to Sudan?
    General Gration. Yes, sir. We are now separate from AF, 
although Johnnie Carson and I work very closely together. We're 
very close friends, we coordinate all the time, and we make 
sure--because we bump up against Chad, and we bump up against 
everything else that Johnnie's working--we have to be in very, 
very close coordination. And we are.
    But, we are the Sudan desk. We've taken over the 
administrative responsibilities, we've taken over all those 
kinds of things where we support the State Department.
    And so, yes, we are independent. And I think, right now, 
until we get the situation stabilized--and I believe that'll 
probably be into 2011--I believe we should remain as the Sudan 
desk in the State Department, focusing on a comprehensive 
approach, but integrated with Johnnie in a way that makes 
sense.
    We are working to get more staff. Right now I believe that 
we need to have more presence on the ground in Sudan. Our 
activities in Darfur are four-pronged, with the rebel 
unification, with the political process, with pulling together 
civil society, with working with UNAMID. We need more staff 
there. In the South, you probably know we've been working on 12 
areas, and we reached agreement between SPLM and NCP on things 
like border demarcation and Abyei and wealth-sharing and those 
kind of things. We need somebody on the ground to make sure 
that those things don't fall apart and that we meet the 
deadlines.
    We also need somebody in Khartoum to help us out. And then 
if we go to Doha, we're probably going to need a presence in 
Doha to make sure that that stays on track. We need more 
people, and we're asking the State Department to help us get 
more people.
    Senator Lugar. So, you have made that request within the 
Department. And have you outlined, really, how many persons, 
or, sort of, a battle plan for what's required now?
    General Gration. Yes, sir. We've gotten through detailees 
and secondments. I think we've filled up our personal staff and 
our office staff OK. We've made a request for three more full-
time equivalents, and we also made a request, if we couldn't 
get that, to use contractors. Both of those were turned down, 
but we're in the process of raising them to the next level.
    Senator Lugar. Well, I appreciate that. And that's one 
value of these hearings, to sort of raise to the next level 
that consideration generally, because we all describe the 
comprehensive dilemmas, but you have to get into the nitty-
gritty of who does the job, really
--who, physically, is there, and how many persons, in a vast 
area, quite apart from the variety of topics.
    So, we would like to be supportive, and I raised the 
question just to make certain we all understand requests that 
you've made, and the importance of that.
    Now, second, getting outside the United States, for the 
last few years we've had close coordination with Great Britain 
and France on Sudan issues, but much poorer coordination with 
China, Russia, the Arab League, the African Union. And these 
latter actors in the drama have considerable opportunity, 
obviously, for influence with the Sudan Government. What 
additional policy tools are available to us in diplomacy--that 
is, working with these actors, who may have disparate views of 
this and of their role with regard to Sudan--so, describe the 
international situation and its promise or difficulties.
    General Gration. You're exactly correct. We have to get 
unity there, and that's what we've tried to do.
    We have several initiatives, before I go into the specific 
ones that you talk about. We've reactivated the troika. And I 
was just in Oslo in the--2 weeks ago, to meet with the U.K. and 
with the Norwegians. That was a very important process in 
bringing about the CPA. We have a contact group in Europe that 
we've elevated up to, again, give us inputs and to help us work 
issues. But, more specifically, I was in Beijing, a month and a 
half ago, and Ambassador Zhou Wenzhong is a great friend, we've 
served in Africa together in the early 1980s, and we've been 
able to work that. And now the Chinese are working with us. So, 
we're not building roads in parallel, but we're putting one on 
front of the other one. We're actually coordinating our 
humanitarian assistance.
    Russia--Markelov and I are working on a conference, 
possibly in the first part of October, where we'll get together 
in Moscow.
    But, there is an effort to bring these players in. We now 
have what we call the ``Envoy Six,'' where countries that have 
permanent envoys get together on a routine basis. We actually 
have a bigger group, where countries that have representatives 
in addition--and so, we have 15 people that get together 
periodically to try to work these issues. We've shown support 
to the Doha process. All the envoys showed up, all the envoys 
came here to Washington when we had our forum. So, we continue 
to build that team in the international community.
    But, you're exactly correct, that is so important that we 
do that together.
    Senator Lugar. What is the situation, at this point, of oil 
deliveries to China? In the past, allegations have been made 
that the Chinese were less interested in cooperation because of 
the unusual ties they had for energy needs in China. Presumably 
those needs continue, and perhaps the flow of oil, but can you 
describe what the situation is on that front?
    General Gration. Yes, sir. They only get about 6 percent of 
their oil from Sudan, but it's significant. The converse is 
really where it's significant, as the South gets all their 
income from oil proceeds. And so, oil is significantly 
important to the South, and even to the North.
    And so--but, China and the United States and other members 
of the international community who have investments or 
responsibilities in Sudan have exactly the same agenda. We want 
security. We want stability. They want it to protect their 
investment, we want it because of the people and the future of 
that region, and the security and prosperity of that region.
    Senator Lugar. Thank you very much, sir.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Senator Feingold.
    Senator Feingold. First, let me thank you, Mr. Chairman, 
for calling this hearing today. And I also want to note the 
trips that you took, and Senators Corker and Isakson have 
recently taken to the region. It's been very helpful to the 
overall effort of keeping this critical country on the agenda.
    And I've felt for a long time, and been saying for a long 
time, as you know, sir, that we needed a coordinated approach 
toward all of Sudan, and shoring up the CPA must be a central 
component of our policy. I'm very pleased that the 
administration has made this a priority.
    At the same time, Special Envoy Gration, as you know from 
our meeting and my letter, I do have some concerns and 
questions about the administration's strategy. Thus far, in 
your public statements, you've pushed a relatively new approach 
toward the Government of Sudan, emphasizing engagement and 
incentives. I'd like to know if this approach is linked to a 
more detailed strategy that's been agreed to by the 
interagency? And has this approach been selected because 
Khartoum has demonstrated actual willingness to cooperate and 
live up to its commitments, or is it more because there just 
aren't alternative options?
    General Gration. We have been in a process to come up with 
a comprehensive and an integrative strategy. The National 
Security Council is leading that process. Of course, we've had 
input, as have other agencies in the Department.
    We anticipate that, within the next few weeks, that we'll 
be able to have a rollout of this strategy, and I think you'll 
see from this strategy that it is very comprehensive, and it's 
based on what we're trying to achieve, which is a better life 
for the people there. We're trying to achieve a peace and a 
security and a stability and economic viability, and the things 
you talked about--the CPA, peace in Darfur, making sure that 
the whole region is secure. And the strategy includes both 
incentives and pressures. And it includes ways to judge if 
we're making the progress that we all want to make.
    This isn't about just my judgment. This is about coming 
together and making sure that the United States objectives are 
being met and that we're doing it in a way that makes sense for 
our country.
    And we'll continue to coordinate with the command process, 
the interagency process, to make sure that we stay on track, 
and we'll certainly consult with Congress to ensure that your 
views and inputs are incorporated.
    Senator Feingold. Well, I'm pleased that an attempt is 
being made to create a real interagency strategy, but it does 
appear to me that the constructive-engagement approach was 
engaged in prior to this process being over, or being done and 
being ready to go. So, I have some concerns about, sort of, 
leading with that before the interagency process is complete.
    So, I'd like to know, specifically, what tangible evidence 
have you seen that Khartoum is actually acting in good faith?
    General Gration. Let me just step back and explain what 
happened, and why we started this process.
    When I became the special envoy, the NGOs had just been 
kicked out. But my mandate was to get those 13 NGOs back in. It 
was very clear that we weren't going to be able to do that. 
But, the President also gave me the mandate to save lives, and 
in an effort to save lives, we worked to get new NGOs in, to 
restore that capability, but not only to restore, but to create 
an environment that would actually be significantly better than 
it was on the 4th of March.
    But, this meant two things. If we were going to get this, 
we needed to have a relationship so we could discuss with 
Khartoum. Also, as I went to Juba, I realized if we were going 
to solve the CPA issues we had to have a relationship with both 
Juba, which we had, and Khartoum; we had to have a foot in both 
camps. If we were going to solve the problems along the border 
with Chad, we had to have a foot in Khartoum and a foot in 
N'Djamena. So, it became very clear that at some point we had 
to have a relationship so that we could discuss options. And 
that's what we did early.
    But, that doesn't preclude or negate anything that the 
strategy is trying to do. In fact, it is--it gives a foundation 
for the strategy, and the strategy builds on having 
relationships, not only within Sudan, but with its neighbors 
and the international community.
    Senator Feingold. I understand that rationale, but, of 
course, the concern is that the message is possibly given to 
Khartoum that they don't have to do much at all in order to 
have that kind of constructive engagement. So, I'd like you to 
say more--you've alluded to this--about the stick side of this, 
not just the carrot side. I realize you might not be able to go 
into specifics in an unclassified setting, but can you assure 
this committee that the administration is actively assessing 
the viability of meaningful punitive actions, and preparing 
them, in the event that the Government of Sudan continues its 
historic footdragging? And, of course, that has been the 
hallmark of their record.
    General Gration. There's no question. I'd be happy to come 
up and brief you, in a more secure environment, on what those 
are. But, I believe we have a very balanced approach that 
includes both incentives and includes pressures. And in many 
ways, the lack of incentives is turning out to be also a 
pressure. We will continue to use all methods, all incentives 
and pressures, in a balanced way.
    But, one thing I would like to say as a caveat to this is 
that what we're finding out is that--as you already know--that 
this is a very complex issue, and there's a lot of multiple 
things happening at the same time. And so, we're having to take 
a look at this, not in terms of specific actions, and sticks 
and carrots, and things like that, associated with specific 
actions, but them in concert with everything else that's going 
on in the country.
    So, we're looking at an integrated approach that looks at, 
What is the actions that are being done on the CPA? What are 
the actions that are being done on the humanitarian front? What 
are the actions that are being done to put together a political 
process so people can have their will known and carried out? 
And what is being done to increase security for the whole 
region? And that's what we're judging this on--not specifics, 
but more of a general way----
    Senator Feingold. Well, I--and I agree that that should, 
ideally, be the approach, but will you commit to briefing us on 
the sort of punitive or stick side of this, in the appropriate 
setting?
    General Gration. I'll be happy to.
    Senator Feingold. Well, I think it's very important. We're 
on a tight timeline, as you said, with Southern Sudan's 
scheduled vote on secession just 18 months away, and we have to 
make sure that those mechanisms are as much, or more, in place 
as the other things you've mentioned, or I'm quite sure 
Khartoum will follow their historical pattern.
    General Gration. I totally agree. Be happy to come and 
brief you on these.
    Senator Feingold. Thank you, General.
    The Chairman. Thank you, Senator Feingold.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you for having the 
hearing. And, General and Mr. Gast, thank you for what you do. 
I am very appreciative that we've heightened our efforts. 
Senator Isakson, I know, as has been mentioned, were in 
Khartoum, and also in the Darfur region not long ago, and I--I 
want to get to Darfur in just one second--but, the 
Comprehensive Peace Agreement seems to be the most crucial 
issue that exists there now, because if we, in fact, are not 
successful--all of us, Sudan and all those who care about that 
region--it seems to me that all the gains, the minor gains, 
that have taken place in Darfur, are out the window, because 
the CPA reaching a not good end is something that, I think, 
causes the entire region, possibly, to implode. So, I 
appreciate you putting effort there, I appreciate the efforts 
of our chairman and others.
    There's been discussion about the humanitarian efforts, 
already, so I won't go into that, and the 13 NGOs that have 
been expelled.
    One of the things, though, that I think is most striking in 
the IDP camps there in Darfur is the lack of security for 
women. Here, they exist in a home that none of us would call a 
home, a little area on sand, and yet they're confined to those 
areas because of the gender-based violence that's taking place. 
And we're talking about an area smaller than the area between 
you and I right now, where sometimes cattle is kept; they 
themselves are there. They cannot wander outside of that area, 
especially if they're a young woman, without being concerned 
about gender-based violence. And I wonder if there are security 
measures that we might change inside these camps, which are 
already unbelievably undesirable places to be. Is there 
something there that we might do that is more tangible than 
what is occurring today?
    General Gration. You're exactly correct. And it's something 
that really bothers me. And fact is, when I was at Kalma and 
Kass, I learned that the Sudanese can't even go in those 
camps--I mean, the government and security--and the security is 
inside.
    We--there's--I think there's one ultimate answer, and that 
is to be able to have security over the country and stability 
over the country, and so these people can return to their homes 
and live in dignity with respect. But, how do you draw the dots 
between where we are right now and where we're trying to 
achieve? And that's very, very tough.
    And so, what we've been doing is working with UNAMID to 
come up with a plan for security sectors. That's underneath the 
overall cease-fire, cessation of hostilities that we're trying 
to get. We're trying make concentrated cease-fire zones and 
corridors so that people will be able to go out and collect 
firewood, so they will be able to go out and start farms, so 
they can start an alternative form of getting food, as opposed 
to just getting the handouts. And it's going to start by moving 
in concentric rings or along corridors that start where these 
camps are, so people can start moving out in safety.
    But, you're exactly correct, the situation that we face 
today is unacceptable. The gender-based violence is 
unacceptable. And we are working very hard, with our 
humanitarian groups, NGOs, to stop this, because it's not 
right, and it has to end. And that is a high priority for me.
    Senator Corker. The UNAMID forces were able to accompany us 
inside these camps. And yet, when we went out to actually meet 
with them at their headquarters, to talk about their mandate, 
which I know their efforts are really more out in the region, 
trying to control the rebel groups--I know their mandate is 
being reviewed right now. And in listening to them regarding 
their mandate, one would have to say that it is an incredibly 
weak mandate. The things that they have to do to counter the 
rebel activity out there--you know, by the time they get 
through going through all their protocols, the rebels are gone. 
OK? It just seemed like a no-brainer that that mandate would be 
changed to allow them to be far more productive, to do the 
things you just mentioned.
    And I want to ask one more question. If you could briefly 
respond to that, I'd appreciate it.
    General Gration. We've submitted our suggestions to the 
UNAMID mandate. That was in July. And we're now working with 
MINURCAT and UNAMID to come up with a better mandate, in 
anticipation of a political process that ends up in a 
comprehensive cease-fire and a cessation of hostilities. At 
that point, the mandate's going to have to include more things, 
like monitoring that cease-fire, like working the borders, and 
working these zones.
    And you're exactly right. As currently written, I don't 
think it's strong enough, and we need to fix that. And then we 
also need to ensure they have the capabilities, which may mean 
more aerial assets to do surveillance, and it may mean a new 
command-and-control system that allows UNAMID to work with 
local law-enforcement agencies, to work with the local 
government, and rebel forces that exist in that region, to have 
a comprehensive law enforcement and the cover that we need to 
do exactly what you're talking about, which is that security 
piece.
    Senator Corker. Unless the mandate is changed.
    Even--getting back, though, just to the protocol. When they 
encounter a rebel group out in the desert, by the time they go 
through the things they have to do--which basically are waving 
at them, almost--the rebel groups are gone. And again, it seems 
to me that that's something, regardless of the other things 
you're talking about, that everyone would acknowledge is a 
problem and could be changed. Otherwise, getting back to these 
camps, they're going to become permanent cities, because no 
one's going to go out--back to their homeland, as long as the 
type of security that we're not providing continues to exist.
    And I know you know that. But, I just hope that you will 
work stringently with the United Nations to get that changed, 
and I hope all of us will, too.
    The final point. We met with a central banker while we were 
there, and they talked about the various issues our sanctions 
are creating for them. And again, I'm going back to the CPA, 
because, again, if we end up having the train wreck that, on 
the present course, will occur, OK, Darfur, as terrible as it 
is, is going to get far worse, and it's going to spread to 
other areas.
    So, we met with our intelligence agencies there, and I know 
many folks here have done that here. The fact is, there's no 
evidence today--in spite of the atrocities that we all are 
aware of--there's no evidence that Sudan is involved as a state 
sponsor of terror. None.
    So, the unintended consequences of that defined term 
existing, I think, may be hurting us, as it relates to these 
other efforts. And I just wonder, since there's no evidence of 
that, and since we understand the importance of this 
comprehensive peace agreement achieving its desired end in 
2011--I'm wondering if we're, again, on one of those paths on 
unintended consequences, and would like for you to respond to 
that.
    General Gration. Yes sir, you're exactly correct. There's 
no evidence, in our intelligence community, that supports being 
on the state sponsor of terrorism. It's a political decision.
    What we have found, though, is the consequences of the 
sanctions that have resulted from that, and other sanctions, 
are preventing us from doing the development that we absolutely 
need to do. The heavy equipment that must come in to build 
railroads and roads has to come in through Port Sudan or 
Khartoum; it is sanctioned.
    And so, what's happening is, we're hurting, not only at the 
local level, the humanitarian level--the people, because they 
can't download educational programs and that kind of thing--
but, in addition to that, we're actually hurting the very 
development things we need to do to help the South become able, 
if they choose, to secede, a viable economic state; those 
things are now sanctioned.
    And so, you're exactly right. At some point, we're going to 
have to unwind some of these sanctions so that we can do the 
very things we need to do to ensure a peaceful transition and a 
state that's viable in the South, should they choose to do 
that.
    Senator Corker. So, we're cutting our nose off to spite our 
face, today.
    General Gration. I'd say that that's probably a fair 
analysis.
    Senator Corker. Mr. Chairman, thank you for this timely 
hearing.
    The Chairman. Thank you very much, Senator.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I'm not sure which of you would like to address this 
question. I'd like to follow up a little bit on Senator 
Corker's questions about what's happening with women in Sudan 
and the gender-based violence that's been going on there.
    When the government expelled those 13 NGOs, there was--the 
programs that they were doing, including many that address 
sexual and gender-based violence, were lost. Can you address 
what the current status of those are? Have any of them been 
restored? And is the Government of Sudan obstructing efforts to 
restore those gender-based-violence programs?
    Mr. Gast. Thank you for your question, Senator. You're 
absolutely right. When we lost 13 NGOs during the expulsion, we 
lost our capacity and the international capacity to support 
gender-based programs, including prevention of violence and how 
to deal with gender-based violence.
    What we are doing now is working with existing NGOs on the 
ground to expand their capacity so that they can expand the 
women's programs into other areas. It's slow in coming back. In 
fact, if one were to look at the various sectors that we lost 
when the NGOs were expelled, that is probably the slowest one 
in coming back onstream. But it is critical, and is something 
that we're very mindful of.
    Senator Shaheen. Thank you, I appreciate that. Senator 
Feingold and Senator Boxer held a hearing earlier, several 
months ago, where we heard directly from women who had been--
and people who had been working with women in Darfur, who 
talked about the deliberate effort to use sexual violence as a 
substitute for genocide. And I think whatever we do can't come 
fast enough and be important enough to address the very 
difficult issues that women and families on the ground there 
are facing. So, I would urge you to continue in every effort 
possible. And if we, on this committee, can be helpful, we 
would--I certainly stand ready to do that.
    You talked about the UNAMID mission in Darfur, and I know 
that it was authorized in 2007. We still aren't--supposed to be 
one of the biggest peacekeeping forces ever assembled, 
particularly in Africa, and yet we've seen real delays in its 
deployment. So, can you talk about the gaps in their capacity, 
about how we're working to address those gaps, and what the 
prospect is for increasing their capacity to address the 
challenge on the ground there?
    General Gration. Yes. Let me just touch back on the women 
thing. What we've found is that if we're going to fix the 
problems in Sudan, we have to start with the women. If we start 
with the women, the communities come along. And so, you're 
totally right, we have to restore their respect, their dignity, 
and their safety, and we have to use them as the centerpiece 
for really working the humanitarian and the development things 
that will come later.
    But, on UNAMID, we're at about between 65 and 67 percent 
right now. And in talking to the United Nations while I was 
there on the field, they basically said that by the end of the 
year they should be at 92 percent of pledged forces. As you 
know, we've been working very hard trying to facilitate the Mi-
35s coming in from Ethiopia, but they still have significant 
gaps. And, I would say, an area that's affecting us--in 
addition to the mandate that needs to be adjusted, as was 
pointed out--command-and-control elements, strategic planning, 
logistics planning, are probably things where we need to help 
beef up the support. In terms of soldiers, I think we're 
beginning to see a fill there.
    But, in the technical piece, if we have to get into this 
monitoring piece, if we start doing intel-sharing on border 
activities between the two groups, we're probably going to need 
more analysis and more work on the intelligence side. And 
certainly if we start the monitoring, and we use either 
overhead aerial platforms for reconnaissance and surveillance, 
we're going to need more of the high-tech piece.
    But, those things--it's probably too premature to ask for 
them right now, but I believe we need to start planning now so 
that we can get these elements in if we're successful in the 
peace process.
    Senator Shaheen. So, what's our plan to do that?
    General Gration. Our plan is, we're looking at AFRICOM 
coming up with eight individuals that fit that billet of 
planners, and also helping with the command-and-control 
element. And we--as we continue on in the peace process and 
define the requirements better--I'll be very honest with you, 
in the past we had not defined the requirements. It was just, 
``Send us six helicopters, send us eight people, send us a 
regiment.'' And you'd ask why, and that really wasn't very 
clear. ``Just send them. We got to get up to 26,000.''
    And so, right now I think we've reached the point where 
we've got the bulk of people lined up to come. Now we have to 
be specific to tailor the needs--tailor the requirements such 
that the people that come in now really fill the niches, 
because what we have there now is good, in the general sense; 
we need to really add on to the specific side.
    Senator Shaheen. Thank you.
    The Chairman. Thank you, Senator.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. General Gration, 
welcome.
    General Gration. Thank you.
    Senator Isakson. Mr. Gast, welcome.
    It should be pointed out that you brought charts and didn't 
refer to them. I want to--if I'm reading the charts right--I 
want to compliment you, because I believe you were appointed in 
April, is that not correct?
    General Gration. March, yes.
    Senator Isakson. March?
    General Gration. Yes.
    Senator Isakson. In March, we were at less than 50-percent 
capacity in food, medicine, water, nonfood items, if I read it 
correctly. Now, by August we'll be at 100 percent in everything 
but nonfood items. Is that correct?
    General Gration. That's correct. But, there's a caveat 
there--there's two of them. One is, we've been able to do that 
because Earl and his team have put together some stopgap and 
emergency measures to make that happen. And the other part is, 
is that we haven't really been able to take that capacity and 
fill all the gaps.
    First of all, there was a lot of preexisting gaps that were 
there. Second, just because of the way the distribution has 
been, there are still gaps that exist. The good part is, is 
that that is the current capability that we have, and we have 
four new NGOs coming back in. And as we continue to work this--
what I'm trying to show is that we're going to fix the 
emergency stopgaps, and make them more permanent--that's our 
effort, and that's what Earl and I work on, on a daily basis--
but, two, we're going to try to get back in and, through 
efficiencies that we've gotten with the--working with the 
Sudanese, and the additional capacity of new NGOs coming in, I 
believe we can have a significant impact, and that the future 
is significantly better, and that we've averted what we thought 
was going to be a major crisis in the rainy season. I think 
we've been able to avert that.
    Senator Isakson. Well, you and Mr. Gast are to be 
commended. I was there in May, when you were probably somewhere 
in that 80-percent range of capacity, and recognizing the 
abject, deplorable circumstances there, you're to be 
complimented on making up that gap, both of you.
    On the question of the four goals for the Khartoum 
Government, the fourth one being cooperation in the 
counterterrorism effort, and following up on what Senator 
Corker said, regarding the designation as a state sponsor of 
terrorism, isn't it true--not only is there not any evidence 
that they're cooperating with terrorists, but, in fact, they 
were helpful in stopping the flow of some weapons that were 
coming through the Sudan into Egypt, later to Gaza, most 
recently?
    General Gration. That is true, and they've helped us with 
some key members of al-Qaeda.
    Senator Isakson. Well, I think it's important to know, Mr. 
Chairman and Senator Lugar, that it is one thing to not have 
any evidence of cooperation, but then to have an overt act 
where, in fact, they were helping in counterterrorism, begs the 
question that Senator Corker asked with regard to the state 
sponsor of terrorism list. Are our sanctions counterproductive 
to our goals? And so, I just wanted to follow up on that point.
    Next, one of the keys to the CPA is for legitimate 
elections to take place in Sudan in 2010. I think originally it 
was scheduled for February 2010. I know that's now been pushed 
back to April 2010, is that right?
    General Gration. Yes, sir.
    Senator Isakson. Will it be pushed back any further, or are 
they legitimately moving forward with the elections?
    General Gration. We are trying very hard to hold to April, 
but both sides are reluctant, in some ways, to have elections 
then. But, we believe--and the international community supports 
us--that those elections are so important, not only for who 
gets elected, but the processes.
    If we can push through election laws, if we can push 
through the voter registration and education programs, if we 
can push through the administrative processes of ballots and 
security and getting people to the polling stations, if we can 
do all that, that gives us a jump on making sure that the 
referenda in Abyei and Southern Sudan have a chance of being 
fair, free, and credible. If we skip the election, I think it's 
going to be very difficult to have free, fair, and credible 
referenda.
    Senator Isakson. Not only if we skip it, but if we have an 
illegitimate election; it will ensure that the February 2011 
referendum in the South will be a secession vote, I would 
think.
    General Gration. Yes, sir.
    Senator Isakson. So, I commend you on continuing to push on 
that as fast as you can.
    Last, with regard to what Senator Shaheen was talking 
about, I find it interesting that in your other graph over 
here, of levels of influence, in the fourth--kind of looks like 
Dante's levels in Hades, but anyway, in your fourth level----
    [Laughter.]
    Senator Isakson [continuing]. There is the United Nations. 
I don't know if that depicts the level of which their influence 
is, or you just put it out there, but it does seem that having 
been in Darfur as recently as 2 months ago, having seen what 
deployment is there, and seeing the expanse of the Darfur 
area--I think a lot of people don't realize how big the Sudan 
is; it is huge--we don't seem--they don't seem to have the 
tactical or the infrastructure support to carry out the mission 
that I think the U.N. intends to have there. Is that the U.N.'s 
fault, or is that a fault of participating U.N. nations, in not 
following through on a U.N. plan?
    General Gration. I think it's a combination of a lot of 
issues. And I would just say, in speaking for the U.N.--and 
while there's things that they probably could do better, I've 
got to tell you that, without the U.N. and without the support 
to this mission for security and without the U.N.'s 
participation in food programs and in NGOs and the support 
we're getting from Ameera-Haq, we wouldn't have been able to do 
half the stuff we're doing.
    U.N. can be looked at as a glass half full and a glass half 
empty. I look at them as a glass half full, and I'm a big 
cheerleader for the U.N., and I think we need to work hard to 
help them get the capacity that they need, as opposed to 
tearing them down when they don't measure up.
    So, I think that we're working hard to ensure that they get 
the capability. I think that they're a capacity that can be 
used very productively, both on the humanitarian side and on 
the security side. They're not there yet, but I believe that 
they can be.
    Senator Isakson. Well, I didn't--my statement was not to be 
critical of the U.N., per se--I'm not a U.N. basher--but it is 
to make an observation that, 15 years ago in Rwanda, a failure 
to act in a timely basis to make a difference, a tragedy took 
place. And we're on the cusp of a tragedy again if everything 
falls down in Darfur and in the South and with the elections. 
So, it is critical, I think, that the U.N. forces, in concert 
with the African Union, get the manpower there, but also have 
the tactical and logistical equipment. To secure the routes of 
those women to go get firewood is going to take the high-tech 
things you were talking about, as well as aerial support 
through at least helicopters, if nothing else.
    So, continue to work to push them, because if that thing 
does fail in 2011, in the Southern Referendum, or we have a 
breakdown before then, it could be a catastrophic situation for 
Africa, and really for the whole world.
    General Gration. There's one thing I'd like to add to that. 
You're exactly correct, but the fact that UNMIS and UNAMID 
can't cooperate is disastrous. If there's a problem in the 
Three Areas, if there's a problem in Southern Sudan, those 
forces in Darfur can't come over to assist. That is something 
that has to be changed, and we need to start working 
interoperability between the U.N. commands in a more effective 
way.
    Senator Isakson. I appreciate your hard work very much. 
And, Mr. Gast, thank you for what you're doing with the 
humanitarian effort.
    Mr. Chairman.
    The Chairman. Thank you very much.
    I'm going just to--I will recognize you momentarily, 
Senator Kaufman--just for a very quick comment, I'm going to 
recognize Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. I asked you and 
asked Senator Kaufman for the courtesy of just 10 seconds to 
just respond to the statements, both by Senator Corker and 
Senator Isakson, with regard to Sudan's counterterrorism 
cooperation.
    I think these sort of characterizations are overstated and 
do not state the actual situation. I've laid out my concerns in 
a classified letter, and I'd be happy to repeat them in the 
appropriate setting. I just would like the record to be clear. 
And I look forward to dialogue with them on this.
    I thank you, Mr. Chairman.
    The Chairman. Well, let me just say that it's a very 
important issue with respect to any kind of policy 
determination that we make, and the committee will have a 
classified session in order to explore this so that we can make 
an intelligent set of judgments. And I appreciate your raising 
the issue, and it's one that we need to go at anyway, so we 
will. And we'll do it in the right setting.
    Senator Feingold. Good.
    The Chairman. I was struck by your notion that this was not 
the most secure setting in the world, I just----
    [Laughter.]
    The Chairman [continuing]. Can't imagine why you thought 
that. [Laughter.]
    Senator Kaufman.
    Senator Kaufman. Thank you, Mr. Chairman. And thank you for 
holding this hearing. It's--this is really an incredibly 
important, but difficult, problem, and I want to thank both of 
you for working on this problem.
    And I thank you, Mr. Gast, talking about my comments on 
John Granville, who died in the Sudan, and the 91 employees 
we've had. I mean, I was--I, myself, was not aware that it was 
91. It--I mean, this is a very dangerous place, and people die 
there almost in anonymity. And it is, as I said in a speech on 
the floor in which I say, time and again, our Federal employees 
that are doing this kind of work are just incredible people 
doing an incredible job, for all the right reasons.
    But, John Granville, when he died, was distributing radios 
to try to better improve communications in the area. What are 
we doing in terms of communications in the area?
    Mr. Gast. One important part of our program, especially in 
the South, is education, and education by radio. The newest 
shift in our assistance now is civic education, and getting 
prospective voters ready for elections over the next year--over 
next 8 to 9 months. So, voter education and civic education are 
critical components. And obviously a lot of people in the South 
don't have access to schools, and so, we're--we have devised 
radio instruction programs.
    Senator Kaufman. Great. Is that the sum and substance of 
it, in terms of communications? That's it. In other words, 
basically--what we're basically doing is trying to educate 
folks in preparation for the elections.
    Mr. Gast. And general civic education programs, and 
education programs.
    Senator Kaufman. What are we doing in--prepare--you know, 
the rainy season's coming--what are we doing to prepare to have 
food there? Because usually that is an area of time when we 
have famine. What's AID doing about that?
    Mr. Gast. We do have preposition of stocks. The rainy 
season is coming up. However, we've had experience, over the 
last 4 or 5 years, in how to operate in the environment. We--as 
the General mentioned earlier, a number of the interventions 
that we've had to take, the international community--mainly WFP 
and ourselves--are not fully sustainable. And so, with regard 
to food assistance, there are some things that aren't 
sustainable. For example, instead of relying on NGOs to deliver 
food, and being able to monitor that, we're relying on local 
relief committees. And so, we're trying to analyze the impact 
that the rainy season will--might have on the local relief 
committees that are distributing aid.
    Senator Kaufman. Great.
    General Gration, Senator Kerry, at the beginning of the 
hearing, talked about, we just not have to meet the amount of 
humanitarian aid, we have to surpass what we're doing in 
humanitarian aid. Is Khartoum willing to cooperate with us in 
increasing the amount of humanitarian aid?
    General Gration. Yes, Senator, we have been taking a good 
hard look at this, and we have a stoplight chart that evaluates 
what they've said and what they're turning into deeds. And we 
look at that every week to make sure that they are indeed 
holding up to the agreements that they've made.
    For example, they said they would hold up to the 2007 joint 
communique, which meant that they--we only need notification, 
as opposed to permission, to travel. And they're--and we're 
seeing evidence that that's working.
    We--they made an agreement that they would start issuing 
multiple entry and exit visas, and they are starting to do 
that.
    We have reached other agreements, in terms of technical 
agreements. We had a backlog of up to 6 months in some 
technical agreements. They've signed about 98 percent of all 
the technical agreements.
    And so, we are now working the details--like, right now, 
just this thing that was brought up about the organization--
International Organization for Migration--we know that if we 
are going to get peace, if we're going to be able to start 
thinking about people moving out, we've got to do this in a way 
that their human rights are guaranteed, and that this is not an 
involuntary return, but it is a voluntary return in stability 
and security. So, we're working now with the government to 
actually work those kinds of aspects.
    We're working with the World Food Programme to start 
thinking about, How will we move from humanitarian assistance 
into development, so we can start putting in the social 
networks of waters, and schools, and health, so that people can 
move back into these areas where they want to make their homes 
in a secure and stable--and with the human rights that come 
along with that?
    So, I see a lot of positive change. But, we have a program 
that says, not ``trust but verify,'' but ``verify, then 
trust.'' And right now we're in the verification mode. And when 
we see more and more things happening--and I've got to tell you 
honestly, it is now very positive. But, we also know what we're 
up against, and so, we're making sure that these are verified 
and that continue to be verified. But, as words turn into 
deeds, there is more trust and there is more confidence, and we 
can build on that confidence, not only on the humanitarian 
side, but on the security side, on the political process side, 
and also in the South.
    Senator Kaufman. You also mentioned the need to expand the 
UNAMID mandate and the need for additional training. What role 
is the United States going to play in additional training?
    General Gration. We have a meeting scheduled in AFRICOM to 
discuss this very issue. Right now, I'm not sure. I know what 
our requirements are. Our military, as you know, is strapped, 
in not only what we have going on in Iraq, but also the plus-up 
in Afghanistan and other missions around the world. So, I don't 
speak for them. But, we will lay out our requirements, things 
we need to do, and then we'll try to do this in the most 
effective way, recognizing that they have commitments that they 
have to do.
    Senator Kaufman. Thank you. And thank you for all that both 
of you are doing. I'm looking forward to that briefing; 
security briefing.
    General Gration. Thank you.
    The Chairman. Thank you very----
    Senator Kaufman. Mr. Chairman.
    The Chairman [continuing]. Much, Senator Kaufman.
    Senator Wicker.
    Senator Wicker. And thank you, Mr. Chairman, for holding 
this hearing. And thank you, to both of our witnesses.
    I think it's a testament to bipartisan concern about this 
issue that eight Senators have spent most of the hearing 
listening to the testimony and have taken a considerable amount 
of our time today to stick around.
    I'm sure you're aware, General Gration, that there is a 
concern that the administration is not speaking with one voice 
on the issue of Sudan. As you know, during the campaign last 
year, Senator Obama vehemently denounced the Sudanese 
Government as practicing genocide. Ambassador Susan Rice 
stated, on June 15, that genocide is ongoing. However, you've 
stated that the situation in Darfur was, at worst, the remnants 
of genocide. I'd be interested in you commenting about ``at 
worst.'' That seems to indicate that you're doubtful that there 
was ever a genocide. So, it does seem that, in that respect, 
our U.N. Ambassador and Presidential candidate Obama were 
taking one position, and you're taking the other.
    Also, Ambassador Rice praised the International Criminal 
Court's issuance of an arrest warrant for President Bashir, and 
that is a statement that seems at odds with the 
administration's engagement strategy that you've outlined 
today. So, I'd like for you to comment about that.
    General Gration. Yes, thank you very much.
    The President has referred to the genocide that is taking 
place in Darfur, and that's very clear to me. And he's also 
directed----
    Senator Wicker. Indicating that it's ongoing.
    General Gration. You can read that how you need to read it, 
but that's his statement. And what he's directed me to do is to 
reverse the dire ongoing consequences of genocide. And that 
means to ensure that militias are disarmed and that displaced 
people--persons--can return to homes when they want to and 
where they want to, and that the people of Darfur, who have 
suffered so much, can continue to live in--or, can live in 
peace and security and dignity.
    Senator Wicker. But, don't you think it's important for us 
to know, to the best of our ability, whether there is a 
continuing genocide, ongoing, as Ambassador Rice stated?
    General Gration. Yes. This is a definitional issue, and 
what I can do is only describe what I see.
    Senator Wicker. Have you and the Ambassador had a 
conversation about this seeming difference?
    General Gration. I will tell you in public that Susan Rice 
is one of my dear friends. There's few women in the world that 
I say ``I love you'' to. Susan's one of them. I love Susan. 
[Laughter.]
    And Susan and I talk, and we disagree on some issues, but 
it is not a personal thing. And there is not space----
    Senator Wicker. Well, no one is suggesting that. But, it's 
fair to say----
    [Laughter.]
    Senator Wicker [continuing]. I'm heartened that people in 
the administration are fond of each other.
    General Gration. We are. [Laughter.]
    And by that--and I just say that to say that, you know, 
there's been characterizations of Susan on one side and me on 
the other side. There has been honest debate, but that's why we 
had the debate, so that we could come up with a strategy that 
reflected a comprehensive and integrated approach to ensure 
that all elements were taken care of.
    And right now, as I--as you know, we're focusing on saving 
lives, on making sure that people that live in those IDP camps 
can live as best they can, and that they have a future.
    Senator Wicker. In your opinion, are we dealing now only 
with the remnants of a genocide that is over?
    General Gration. I'm not saying the genocide's over. What 
I'm saying, though, is that my focus is on recovery. Sir, I've 
been a refugee myself. We lost everything we owned when we left 
Congo. I've lived in an attic while waiting to try to find a 
house. I've lived in people's clothes. I don't want people to 
go through that kind of situation. I don't want people to live 
in that environment. I understand it, and I'm passionate about 
changing it, and it really doesn't matter what we call it, in 
my view. What matters is that we have people living in dire, 
desperate conditions that must end. We have women that fear for 
their lives, and they have their souls ripped out of them--and 
that has to stop--as gender violence continues.
    My view is that to get involved in a debate that is not 
required is not as important to fixing the situation, which is 
required. That's my mandate. That's what the President has 
asked me to do. And that's why I've dedicated 24/7 to do that.
    Senator Wicker. Well, let me move, then, to another line of 
questioning.
    Senator Feingold asked you specifically what tangible 
evidence we had that Khartoum is acting in good faith. I'd like 
for you to elaborate on that. As you know, a number of Senators 
have expressed their concern about this policy of national 
engagement. And I guess we could talk about carrots and sticks, 
as opposed to a comprehensive approach, but it seems to me that 
any comprehensive approach is going to have a combination of 
carrots and sticks.
    Senators have advocated a plan of asking for concrete 
progress on a number of fronts, and they've called for 
benchmarks, a timetable to hold the government accountable, and 
they've asked the administration not to rule out further 
punitive actions and more muscular steps in our approach to the 
national government.
    So, what is your response to that, sir?
    General Gration. I'll just give you an example. When I took 
over, we had 12 areas where we had major gulfs in 
implementation of the Comprehensive Peace Agreement. We started 
with 12-hour-a-day meetings here in Washington; four of them. 
We started with 2 days and expanded to another 2. We then went 
to Khartoum. We were able to reach agreement on every single 
one of those 12, except the census. And I've talked to the 
leadership on both sides, and we'll probably resolve that at a 
political level.
    There is benchmarks, there is timetables, and I'll be very 
happy to share with you all those agreements that were made, 
not because of us, but because we create the environment so 
that the two parties, NCP and SPLM, could make the agreements.
    That's the way I see our role right now, to be able to 
create the environment, to help push in areas that we can push, 
to help use the leverage of the international community; to 
push, not for the United States to make policy there, but to 
create the environment so those different views, from the South 
and the North, can be rationalized and problems resolved.
    We will go out there next month, to raise that agreement 
that we got at the working level, with 15 key leaders of both 
parties, we'll raise that up to the two Vice Presidents.
    In Darfur, we're doing the same thing. We're not pushing 
the rebels to unite, we're creating an environment so that they 
can unite. The same with civil society in diasporas around the 
world. We're creating environments where they can come 
together, identify their issues, identify their leaders, and 
then we facilitate them going to Doha, where we can end up 
building the Comprehensive Peace Agreement that's required to 
bring peace to Darfur.
    So, what I see is, we're not giving anything. We haven't 
given anything yet, and we've got an agreement, 12 pages worth, 
of things that they've agreed to, not necessarily with us, but 
things that will move our shared vision, of what Sudan should 
be, forward.
    That's what----
    Senator Wicker. I'd appreciate it----
    General Gration [continuing]. We're trying to achieve.
    Senator Wicker [continuing]. If you would respond on the 
record about those specifics which you just alluded to.
    General Gration. The specifics? OK.
    Senator Wicker. Yes.
    General Gration. First of all----
    Senator Wicker. No, for the record.
    General Gration. OK. I'll turn them in to you.
    Senator Wicker. Thank you.
    General Gration. Yup, no problem.
    The Chairman. Thank you very much.
    [The information referred to follows:]

    As a witness to and significant force behind the Comprehensive 
Peace Agreement (CPA) in 2005, the United States was uniquely 
positioned to encourage the parties to return to the table to negotiate 
their way out of the current impasse. With this encouragement, the 
parties have been able to chart a path forward for implementation of 
many remaining CPA milestones. In conjunction with these trilateral 
discussions, the Sudan People's Liberation Movement and the National 
Congress Party negotiated an agreement during the past 2 months 
covering 10 remaining implementation points between the two parties to 
the Comprehensive Peace Agreement. United States efforts will be 
crucial to the success of this process in areas such as providing 
technical expertise to help demarcate the boundaries of Abyei and along 
the North-South border, facilitating International Monetary Fund and 
other International Financial Institutions greater involvement in 
Sudan, and orchestrating robust support for elections, popular 
consultations, and the referenda.

    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    And I want to thank you, General, for your service. But, I 
have to be--and I had a meeting in the office, so I was partly 
listening to some of your answers, what I don't understand, 
what I fail to glean from what I've heard, is, your the third 
or fourth special envoy we've had----
    General Gration. Yes, sir.
    Senator Menendez [continuing]. To the Sudan. We have real 
engagement by citizens here in this country on this issue--my 
home State of New Jersey, but, for that fact, across the 
country. We have thousands of letters of engagement by people. 
We have the political engagement at the highest levels of our 
government. We have funding for humanitarian programs. I listen 
to us and our efforts, working here multilaterally. So, I have 
real difficulty understanding what is missing that we cannot 
move forward.
    If I am sitting in a camp, still facing pretty dismal 
conditions and worried about my security and/or my life, the 
counsels of patience and delay do not satisfy me. And if it was 
one of us sitting in those camps, I don't think we'd be 
satisfied by what we hear.
    So, I'm trying to grasp what is it--what is the elements 
that we are missing here that, despite everything that we hear, 
and now the third or fourth special envoy and the commitments 
of Presidents and the greatest country on the face of the 
Earth, leading with others--what is it that we are missing, 
here, that we can't reach the conclusion--successful 
conclusions we want, in turning the tide on the lives of these 
people?
    General Gration. Very difficult question. I don't know. All 
I know is that we have a plan to try to make a difference. That 
plan includes five tracks in Darfur, which is the political 
process, the security elements that I've spoken to, the 
humanitarian assistance in solving the problem between--the 
proxy war between Chad and Sudan. We have an integrated, 
comprehensive way to fully implement the CPA. We have--are 
thinking about what we can do to stabilize the eastern security 
pact and the NGOs that are sitting there on the eastern side.
    All I can do is work all these problems together as hard as 
I can. We've assembled the best team that I can. We have 
bright, bright people that are helping us. We are pulling in 
expertise from the whole international community. We are 
building international organizations to help us do this.
    We don't say that the United States can solve this problem. 
But, we believe there is a solution, and we also believe that 
we cannot fail. There's too many people whose lives are 
depending on our success. And that's why we're putting together 
every effort we can, and that's why President Obama has given 
me the support he's given me and Secretary Clinton has been 
totally supportive, because we all understand that this is the 
one where we have to----
    Senator Menendez. What's our timeframe?
    General Gration. Our timeframe is, is that we have an 
election in April of next year, and we have a referendum in 
June. The number of days left, working days, is 174 until the 
election, 362 until the referendum. That is almost ``mission 
impossible.'' But, I believe that there's hope. I believe that 
we can succeed, and that's why I get up every day, and I'm at 
work at 6 o'clock, 7 days a week, to make this thing happen. We 
have a terribly compressed timeline, we have an almost 
impossible job to do, but if we sit back and do nothing, we 
will certainly fail. I'm giving it everything I can, because I 
believe that there's hope.
    Senator Menendez. Well, I have no doubt you're giving it 
what you can, and I certainly am not an advocate of nothing. I 
have been an advocate on this committee of quite more robust--I 
included legislation--in one of our previous legislation, 
giving the U.N. resources from the Federal Government, because 
genocide doesn't have an offset, as I was asked on the floor, 
``Where's the offset for this?''
    The reality is, though--I'm trying to get a sense--what is 
it that you don't have that you need, if anything? Or do you 
have everything that you need, now----
    General Gration. No, I don't.
    Senator Menendez [continuing]. To do what the--OK, then 
what is it that you don't have that you need, outside of it 
sounds like time?
    General Gration. Time is a big one. The second thing is, we 
need some space on sanctions. There are things that we are 
doing and sanctioning that are hindering me from being able to 
bring development to the South. There are things that are 
hindering me because of sanctions that are keeping the people 
of Sudan from getting the education they need.
    I have a simple radio that's a doctor and a BlackBerry that 
connects up to five leading institutions so that doctors in 
Darfur and the South and around can call in and get the latest 
medical help, and I can't even distribute them, because of the 
sanctions.
    The trains, the very elements that we need, and equipment 
that we need to develop the South, can't come through Port 
Sudan or Khartoum because it's all sanctioned. We have to take 
a good look and say what can we do to ensure that the Southern 
Sudanese have every opportunity to be birthed as a nation 
that's not in an incubator, but one that can survive on its 
own?
    And I will tell you that there--we have worked issues and 
put ourselves in the proverbial box in some areas. We're going 
to need some help from the Congress in those areas.
    Senator Menendez. Let me ask you one other set of 
questions. What does this say--you know, we are talking a lot 
about the intelligent use of our soft power. But, what does it 
say about our ability to succeed with soft power, in terms of 
trying to get--the goals of saving these people's lives and 
changing their lives?
    General Gration. Well, obviously all the elements of soft 
power are things that we're trying to use. But, what it really 
comes down to is making a difference with the NGOs that have 
the capacity--I mean, increasing the capacity for the NGOs to 
work, it means bringing more development in, and it means 
having a more integrated development program--rural development 
programs, poverty reduction plans--that the Sudanese themselves 
come up with. And that's what we're asking people in Juba to 
do, is come up with their plan and then figure out how we can 
work with them on their plan to make them successful.
    It really isn't about us doing it, it's about us helping 
them help themselves, and the African region to help itself. 
And that's what we're trying to do.
    Senator Menendez. Mr. Gast, one last question for you.
    Women go out to get firewood, and end up getting raped in 
the process. There's a lot of promotion of alternative stoves, 
solar, gas, et cetera. Has AID looked at this in the thought 
of, ``What is the best alternative?'' so that we can better 
secure those who are in the camps?
    Mr. Gast. Thank you for your question, Senator. Earlier we 
did have a discussion of women's issues, especially in Darfur. 
And you're absolutely right, if there were good, effective, 
fuel-efficient stoves, it would reduce the exposure of women 
outside of the camps.
    What we have found, though, is some of the early models 
that we have of fuel-efficient stoves, they haven't been living 
up to their promises. They've oversold them. They're not as 
efficient as they led us to believe. So, we are now working on 
a study to help identify ways of improving them so that we come 
up with a better design and a stove that truly is fuel 
efficient and energy efficient.
    Senator Menendez. And what's your timeframe for that?
    Mr. Gast. It's in progress now. And I can't give you, with 
any definition, when it will be concluded, but we will 
certainly work with you and your staff on that.
    Senator Menendez. We'd like to know your progress on that.
    Mr. Gast. Absolutely.
    Senator Menendez. Thank you very much.
    The Chairman. Thank you, Senator.
    We're going to move, in a moment, to the next panel.
    Let me just share with you, Senator Wicker--I think there's 
a debate that is important, obviously, with respect to our 
policy and the choices that we have available to us. It's also 
a debate that is fraught with some difficulties, at this point 
in time, which is why intelligent and committed people can have 
differences of opinion.
    According to Article 2 of the Genocide convention, genocide 
means any of the following five acts committed with intent to 
destroy, in whole or in part, a national, ethnic, racial, or 
religious group: One, killing members of the group; two, 
causing serious bodily or mental harm to members of the group; 
three, deliberately inflicting on the group conditions of life 
calculated to bring about its physical destruction, in whole or 
in part--obviously, there could be significant debate about the 
camps and people's ability to move back to where they ought to 
be, and the lack of provision by the government of adequate 
protection, and so forth--imposing measures intended to prevent 
births within the group; and forcibly transferring the children 
of the group to another group.
    Now, international law includes, within genocide, this 
issue of the creation of physical conditions that lead to the 
destruction of the group, and so forth. There's a lot of room 
for argument, here, right now. I think what General Gration is 
saying to us in this debate is that there are ongoing impacts. 
We're living with it. Darfur is living day-to-day hell in terms 
of the impact of what happened in 2004 and 2005. But, obviously 
the kinds of activities of 2004 and 2005 that led to how many 
people is the accurate figure were killed?
    I mean what's the best judgment about that?
    General Gration. The numbers fluctuate between 175 and 
300,000.
    The Chairman. Correct. And today, we have largely criminal 
activity as a result of the conditions people are living in, 
which takes some additional lives, but serious questions about, 
sort of, whether it's the remnants of that orchestrated 
violence or independent acting, or otherwise, versus a 
government-driven effort, in the way that it was in 2004 and 
2005.
    So, these are things we can argue about. The critical thing 
is, folks, if we sit around and just do that all the time, 
we're not going to get those camps taken care of.
    And, Mr. Gast, in his testimony, talked about the 
unsustainability of the current situation. And I want you to 
just sort of paint that picture for a minute. What do you mean 
by ``unsustainability,'' in the context of the post-March 4 
events?
    Mr. Gast. When we refer to ``unsustainability,'' what we've 
done is, we've had to ask actors to take on roles that they're 
not used to doing. And so, it means that they're not 
implementing programs that meet acceptable international 
standards.
    I mentioned, for example, the delivery of food aid. We have 
a monitoring element--monitoring element--built in all along 
the way. We can't do that now. We don't have the resources.
    The Chairman. Let me ask you bluntly. Can the Government of 
Khartoum facilitate our ability to do that better?
    Mr. Gast. The Government of Khartoum can facilitate that 
ability to do it better by doing what it is doing now, and that 
is----
    The Chairman. So, you feel that now there's been----
    Mr. Gast [continuing]. Technical agreements----
    The Chairman [continuing]. A turn, since General Gration's 
visit, my visit, other visits--there's a sense that they're 
more engaged in----
    Mr. Gast. Absolutely. And now----
    The Chairman. And do you feel----
    Mr. Gast [continuing]. The problem is--excuse me, Senator--
--
    The Chairman. Sorry.
    Mr. Gast. The problem is--of course, is rebuilding that 
capacity. There is--we talked about all the progress that the 
government has made, and that is in issuing technical 
agreements, in issuing visas, not requiring travel permits. The 
one area that they have not fully implemented is the return of 
assets. And so, assets that were seized, post-March 4, they 
have not been returned, for the most part.
    We are rebuilding capacity, and we're rebuilding capacity 
to a point where we'll have full sustainability and greater 
coverage than we did prior to March 4. And we're doing that by 
expanding the presence of existing NGOs. Eight NGOs were 
currently expanding their programs. They will be able to bring 
in more international staff, hire more local staff. And then 
the General also mentioned four NGOs that are coming back to 
Sudan, three of which will work in Darfur.
    The Chairman. Well, Mr. Gast and General, there's more to 
be covered, but we don't have time. We need to get to the next 
panel.
    Senator Wicker. Mr. Chairman.
    The Chairman. Yes, sir?
    Senator Wicker. I wonder if I might have another moment or 
two?
    The Chairman. Senator Wicker.
    Senator Wicker. Clearly, the chairman's comments are well 
taken. However, if Ambassador Rice is correct, and if there is 
an ongoing genocide, then clearly the Congress's--and the 
United States--approach to dealing with the government should 
be different.
    I wanted to ask one question about the secession vote. I 
would be surprised, General, if the South did not vote to 
secede, under any circumstances. Do you expect the Khartoum 
Government to honor this vote? And what are the implications of 
that?
    General Gration. Yes, I believe that they will honor the 
vote, and I believe that--the agreements that we've made right 
now, the North and the South have agreed to delink 
legislations, such that the vote will take place with or 
without the required legislation.
    So, I believe that the vote will happen. And what we 
understand, that if the vote happened today, they would 
probably vote to secede, but we'll see what happens in 2011. 
But, I think that they will allow it to happen.
    Senator Wicker. And Khartoum will allow the seceding South 
to go quietly and peacefully and orderly.
    General Gration. That's what we're working for. We're 
working for full implementation of the CPA that will allow, at 
the vote, for there to be unity or a peaceful coexistence. 
That's what we're striving for with our negotiations and the 
work that we're doing.
    Senator Wicker. Thank you, sir. And thank you, Mr. 
Chairman.
    The Chairman. Let me just say, Senator Wicker--that was a 
very important line of inquiry. I want to be declarative, here, 
because I think it's important.
    I believe that General Gration is on the right track. And I 
think his engagement has saved lives, and it has advanced our 
ability to be able to advance the peace process, both in Darfur 
and for the CPA, North and South. And I think the consequences 
of not doing both would be disastrous. So, we are presented 
with a difficult situation. I also believe that what was 
happening in the overt manner of 2004 and 2005 is not happening 
today.
    Now, I'm not going to get caught up in the argument of 
semantics, General Gration has appropriately said, ``You know, 
we can spend our time doing that.'' The key here is, Is the 
Government of Khartoum moving to address the critical 
humanitarian concerns and advance the peace process itself? If 
it is, and we have to rely on our experts, we have a very 
different situation confronting us. And I think that is the key 
thing we have to look for in our policy, that there are real 
asks, real measurements of what they're doing, and that we 
advance that process, and I think that's exactly what General 
Gration is doing. This timeframe is critical, and it's going to 
take heavy-lifting by heads of state and by special envoys and 
others to advance this.
    So, with that said, let me invite a seamless transition, 
hopefully, to the second panel. I need to meet with some folks 
from the NSC just for a minute. Senator Lugar is going to 
chair, in my absence, momentarily.
    So, General Gration and Administrator Gast, thank you for 
being here.
    We will leave the record open for a week. I know there will 
be additional questions that will need clarification. 
Particularly, Mr. Gast, I know you didn't--we just didn't have 
chance to get to some of the things we need to know about the 
USAID program, and we look forward to doing that.
    Thank you for being here.
    The Chairman. We invite the second panel to come right up 
and take their seats. And, Senator Lugar, if you'd chair, I'd 
appreciate it.
    [Pause.]
    Senator Lugar [presiding]. May we have order now so that we 
are able to progress with our distinguished panel.
    And I'll call upon you in this order: First of all, 
Professor Shinn, then Mohammed Eisa, and then Susan Page.
    Would you please proceed, Mr. Shinn?

   STATEMENT OF HON. DAVID SHINN, ADJUNCT PROFESSOR, ELLIOTT 
    SCHOOL OF INTERNATIONAL AFFAIRS, THE GEORGE WASHINGTON 
                   UNIVERSITY, WASHINGTON, DC

    Ambassador Shinn. Thank you very much, Senator Lugar.
    I want to emphasize that the situation existing in Sudan 
today very much involves the surrounding region. I would also 
suggest that most of Sudan's nine neighbors would prefer to see 
problems between Northern and Southern Sudan ultimately 
resolved, with Southern Sudan remaining united with the rest of 
Sudan, even though that is not the way it seems to be headed 
today; with Egypt perhaps most forcefully taking that position.
    I think it's clear that a geographically unified Sudan is 
clearly dependent on the willingness and the ability of 
Khartoum to make unity attractive to Southern Sudan, and 
Southern Sudan's willingness to leave the door open to that 
possibility. Some observers might argue that a breakup of 
Sudan--and I would suggest that a breakup might very well go 
beyond just a Northern Sudan and a Southern Sudan, but possibly 
the breaking off of parts in the North and in the South--some 
would argue that might be a good thing. I respectfully 
disagree, so long as Khartoum can make unity attractive to the 
South. And that is the big question. Should that fail, of 
course, it is incumbent upon Khartoum to allow the CPA to move 
forward and the referendum on independence to proceed.
    There is a lot to criticize in Sudan. But, I want to focus 
on a few things--a few areas where there has been progress.
    One has been talked about already today; whether Sudan 
should be left on the list of state supporters of terrorism. I 
would argue it should not; it should be removed from that list. 
It is often said that if you remove Sudan from that list, then 
you remove sanctions on Sudan. That is a misnomer. The web of 
sanctions against Sudan is so long and so entangled, it would 
take years to undo that jungle, even if you remove Sudan from 
the state sponsors of terrorism list.
    We've talked a lot today about the highly emotional charge 
of genocide. I happen to be in the camp that would argue that 
today what is happening in Darfur does not meet the definition 
of ``genocide'' as defined by the 1948 Convention. And I think 
it does not serve U.S. policy well to continue to call it that, 
because of the heavy emotional baggage this brings to the 
question.
    I've suggested a series of very specific policy 
suggestions, some of which have been alluded to earlier today. 
Just to mention a few of them, I would try to make one last-
gasp effort to make unity attractive in Sudan, perhaps by 
pulling together a small group of international experts that 
could sit down with both the SPLM and the National Congress 
Party and try to identify an agenda where that might still 
happen. The odds are not good, but nevertheless I think the 
effort is worth trying.
    I think that a much greater effort should be made in 
resolving the internal difficulties in Chad, working closely 
with both France and Libya, and that plays out very heavily 
upon what is happening inside Sudan itself.
    I think that United States policy would be well served if 
what is going on in Sudan involved, more directly, some of the 
international key actors. And General Gration indicated that 
may, in fact, be underway now. I think that is a positive move.
    I think it's also important that the international 
community press hard on both the SPLM and the Government in 
Khartoum to demarcate the border in Abyei that has just been 
adjudicated by the arbitral tribunal.
    And finally, I would suggest that there ought to be 
pressure on both the SPLM and the NCP to reduce the amount of 
money they're spending on the military. And I would urge both 
of them to rebuild their agricultural sectors.
    Just very briefly on one or two operational considerations, 
I would make the argument for upgrading United States 
representation in Khartoum to the ambassadorial level, from the 
charge level. More importantly, I would agree with General 
Gration that there must be more on-the-ground ability to 
monitor what is happening in Sudan, and I would try to make a 
case for the American Presence Program of assigning one person, 
one American officer, to cities scattered around various 
locations in Sudan, with maybe one or two local nationals. I 
think that would give a great advantage to understanding the 
situation.
    Thank you very much, Senator Lugar.
    [The prepared statement of Ambassador Shinn follows:]

Prepared Statement of David H. Shinn, Adjunct Professor, Elliott School 
 of International Affairs, George Washington University, Washington, DC

    I thank the chairman and members of the committee for inviting me 
to provide a strategic overview and perspective on U.S. policy toward 
Sudan.
                          sudan and the region
    The conflict in Darfur, the longstanding war between northern and 
southern Sudan, implementation of the Comprehensive Peace Agreement 
(CPA) and even the quiescent problems in eastern Sudan are related. The 
linkages may not always be thoroughly understood, but there is an 
effort to consider all these issues when formulating policy toward 
Sudan.
    The conflicts in Sudan also impact the wider region. Geographically 
the largest country in Africa, Sudan has a border with nine other 
countries. Darfur has had a dramatic effect on Chad-Sudan relations. It 
has also complicated the situation with Libya and the Central African 
Republic. Earlier unrest in eastern Sudan had an impact on relations 
with Eritrea and to a lesser extent Ethiopia. While all of these 
neighbors would prefer that these problems in Sudan did not exist, they 
have contributed at different times both positively and/or negatively 
toward their solution. When Khartoum believes the contribution has been 
negative as in the case of Chad, Sudan has responded in kind.
    Most of Sudan's nine neighbors would prefer to see the problems 
between northern and southern Sudan ultimately resolved with southern 
Sudan remaining united with the rest of Sudan. Egypt is the most 
committed to this position because it receives 95 percent of its fresh 
water from the Nile, all of which passes through northern Sudan and 
some of which transits southern Sudan. It does not want to negotiate 
with another state in southern Sudan on differences over allocation of 
Nile water. Ethiopia, Eritrea, and Libya have traditionally expressed a 
preference for a united Sudan. The Democratic Republic of the Congo and 
Central African Republic have been generally silent on the question. 
They probably do not want to see the precedent of redrawn boundaries in 
Sudan that may impact their own future. Uganda and Kenya seem to be 
ambivalent about an independent southern Sudan. They may have concluded 
that they could benefit economically from a new southern Sudan that 
looks south rather than north. Chad would normally support a united 
Sudan so as not to have a precedent that has negative implications for 
its own political future. The troubled relationship between N'Djamena 
and Khartoum in recent years concerning Darfur has complicated matters. 
Both countries have charged the other with supporting opposition groups 
across the border. These differences may cause Chad to prefer an 
independent southern Sudan even if it is not in its long-term interest 
and encourages a similar division in Chad.
    A geographically unified Sudan is dependent, of course, on the 
willingness and ability of Khartoum to make unity attractive to 
southern Sudan and southern Sudan's willingness to leave the door open 
to the possibility of unity. The record has not been good on this score 
so far and time is running out. Darfur and eastern Sudan have not, at 
least not yet, been pressing for independence. This could become an 
issue, however, if their grievances are not resolved and if southern 
Sudan opts for full autonomy in the 2011 (or later) referendum. 
Finally, should southern Sudan decide to vote for independence and 
Khartoum allows the separation to occur, there is no guarantee that 
southern Sudan would remain one geographical entity. There are 
significant regional differences today that if managed poorly could 
result in serious pressure for further divisions.
    What happens in Sudan in the coming months and years will have 
important implications for a large chunk of Africa. As a result, it 
will also impact the United States and the international community 
generally, especially the donor community. Although some observers may 
argue that a breakup of Sudan and even splits in an independent 
southern Sudan are a good thing, I respectfully disagree so long as 
Khartoum can make unity attractive to southern Sudan. A balkanized 
Sudan would increase the number of relatively poor, land-locked 
countries that have a highly questionable economic future. They would 
still lack truly meaningful boundaries because ethnic groups do not 
live in clearly demarcated areas and a pastoral lifestyle is common. 
The existence of oil, although providing badly needed revenue for some, 
would exacerbate tension among the new political entities. In the worst 
case scenario, this means more conflict, internally displaced persons, 
refugees and requirements for emergency assistance.
    All of the parties, but especially the government in Khartoum, to 
these existing conflicts has an enormous responsibility to make every 
conceivable effort to avoid the worst case scenario. The first step is 
working much harder to make unity attractive to southern Sudan. Should 
that fail, it is incumbent on Khartoum to implement the CPA, including 
the referendum on independence. While it is important to maintain 
efforts to resolve the conflict in Darfur and not to forget about the 
fragile situation in eastern Sudan, the priority should be making unity 
attractive to southern Sudan. Agreement by most southern Sudanese to 
remain part of Sudan, even with substantial local autonomy, would go a 
long way toward preventing the eventual unraveling of the country. 
Khartoum's past record for accommodating southern grievances going back 
to the 1972 Addis Ababa peace agreement does not encourage optimism. 
This is probably Sudan's last chance to avoid putting in motion events 
that could result in additional divisions.
            acknowledging and responding to change in sudan
    While there is still much to criticize in Sudan, it is important to 
acknowledge progress when it occurs. I have followed United States-
Sudan relations since I served at the U.S. Embassy in Khartoum from 
1983 to 1986. Sudan continues to make some decisions that almost seem 
designed to poke a finger in Washington's eye. At the same time, 
however, the United States has a propensity to move the goal posts when 
there is positive movement on the Sudanese side. This has not built 
confidence over the years.
    There is the issue of Sudan's continuing inclusion on the U.S. list 
of state sponsors of terrorism. The United States appropriately put 
Sudan on the list of state sponsors of terrorism in 1993. The situation 
has changed. Sudan began even before 9/11 to cooperate with the United 
States on counterterrorism. It significantly expanded that cooperation 
after 9/11. The State Department's Country Reports on Terrorism for 
2006 described the Sudanese Government as ``a strong partner in the War 
on Terror.'' The report for 2007 reaffirmed the cooperation and added, 
``While the United States-Sudanese counterterrorism relationship 
remained solid, hard-line Sudanese officials continued to express 
resentment and distrust over actions by the USG and questioned the 
benefits of continued cooperation. Their assessment reflected 
disappointment that Sudan's counterterrorism cooperation has not 
warranted rescission of its designation as a state sponsor of 
terrorism.''
    The most recent State Department report covering 2008 stated: 
``Sudan remained a cooperative partner in global counterterrorism 
efforts. During the past year, the Sudanese Government continued to 
pursue terrorist operations directly involving threats to U.S. 
interests and personnel in Sudan. Sudanese officials have indicated 
that they view their continued cooperation with the United States as 
important and recognize the benefits of U.S. training and information-
sharing.'' The 2008 report added: ``With the exception of HAMAS, whose 
members the Sudanese Government consider to be `freedom fighters' 
rather than terrorists, the government does not appear to openly 
support the presence of extremist elements.''
    There is no logical justification for leaving Sudan on the U.S. 
list of state sponsors of terrorism. In my discussions around 
Washington on this subject, I sometimes hear the response that removing 
Sudan from this list would end sanctions against Sudan, and until there 
is more improvement in Darfur, there is no willingness to end 
sanctions. This is an inaccurate analysis. The United States has a 
tangled web of sanctions against Sudan tied to the list of state 
sponsors of terrorism, debt owed the United States, military coup 
provisions, religious freedom sanctions, trafficking in persons 
sanctions and Arab League and boycott sanctions. Removing Sudan from 
the list of state sponsors of terrorism would end many impediments to 
providing assistance to Sudan, but other provisions would remain in 
effect that effectively bar U.S. assistance to Sudan. It would take 
years to untangle this legal jungle and in some cases require action by 
Congress. (For those interested in this topic, I commend to you the 
March 2004 report published by the Center for Strategic and 
International Studies by Bathsheba Crocker entitled ``Addressing U.S. 
Sanctions Against Sudan.'')
    There is also the highly emotional charge of continuing genocide in 
Darfur. Article II of the 1948 Convention on the Prevention and 
Punishment of Genocide identifies two elements that constitute the 
crime: (1) The mental element, meaning the ``intent to destroy, in 
whole or in part, a national, ethnical, racial or religious group, as 
such,'' and (2) the physical element which includes five different 
acts. A crime must include both elements to be called genocide. The 
five acts are: (1) Killing members of the group; (2) causing serious 
bodily or mental harm to members of the group; (3) deliberately 
inflicting on the group conditions of life calculated to bring about 
its physical destruction in whole or in part; (4) imposing measures 
intended to prevent births within the group; and (5) forcibly 
transferring children of the group to another group.
    Secretary of State Colin Powell declared in September 2004 before 
this committee that the actions of the Sudanese Government and its 
proxies amount to genocide against the people of Darfur. That was 
almost 5 years ago when the Sudan Government supported the Janjaweed, 
which killed tens of thousands of persons. The situation in Darfur has 
changed significantly. In all of 2008, UNAMID reported there were about 
1,550 violent deaths in Darfur. Less than 500 were civilians. More than 
400 were combatants of various rebel groups and about 640 died in 
intertribal fighting. The Sudan Government armed the militia involved 
in the intertribal fighting and is ultimately responsible for these 
deaths. This was and continues to be a deplorable situation, but it 
does not meet the definition of genocide. I have not seen the figures 
for 2009 but doubt that killings have increased. Nor is there any other 
new evidence to suggest the situation in Darfur continues to meet the 
definition of genocide in the 1948 Convention.
    When I made this assertion before groups in Washington this year, 
it was often met with derision. A few senior people in government even 
responded what difference does it make what you call it. In view of the 
emotional baggage that accompanies the charge of genocide and the 
implications that it has for taking remedial action, the distinction is 
very important. Those who continue to say there is ongoing genocide in 
Darfur should at a minimum make the case why they believe it merits 
being referred to as genocide. To the best of my knowledge, no other 
nation has identified what is happening in Darfur as genocide. The 
United Nations and most other countries have called it crimes against 
humanity. While the United States should do everything within its power 
to end the death and displacement in Darfur, it is time to drop the 
genocide label.
                    some specific policy suggestions
  <bullet> On the assumption that it is still possible to achieve an 
        outcome in the referendum on the future of southern Sudan that 
        results in a unified Sudan, the United States and the 
        international community should recommend to the Government of 
        Sudan and the Sudan People's Liberation Movement/Army (SPLM/A) 
        that they agree to work with a small international group of 
        experts who would try to design an agenda that makes unity 
        attractive to southern Sudan.
  <bullet> A lasting regional peace requires a strategy that takes into 
        account the internal governmental weaknesses and instability in 
        Chad. I endorse the suggestion by Project Enough in its July 
        2009 ``Chad's Domestic Crisis: The Achilles Heel for 
        Peacemaking in Darfur'' that the United States should become 
        more actively engaged in efforts to obtain genuine political 
        reform in Chad. This can only be accomplished in close 
        collaboration with France and Libya and perhaps several others. 
        The Obama administration is in a strong position to forge these 
        partnerships and to work toward progress on Chad's internal 
        weaknesses.
  <bullet> The talks on Sudan that took place in Washington in June 
        2009 were largely tripartite in nature involving the United 
        States, the Government of Sudan and the SPLM. There were 
        observers from key countries such as Kenya, Ethiopia, China, 
        and Norway. Moving forward, U.S. policy would be well served if 
        the process had more direct involvement by other key actors in 
        the international community.
  <bullet> The Government of Sudan and the SPLM/A said they will accept 
        the binding arbitration decision on Abyei announced in July 
        2009 by the Arbitral Tribunal. In discussions with both 
        parties, the United States and the international community 
        should impress upon them the importance of implementing this 
        decision. In this regard, the international community should 
        work with both sides to help establish a joint survey team that 
        begins demarcation of the border.
  <bullet> The sharp drop in the price of crude has significantly 
        reduced revenue in both northern and southern Sudan. The 
        Government of Sudan recently sent a letter of intent to the 
        International Monetary Fund (IMF) requesting help in monitoring 
        Sudan's economic performance and policies. Sudan also asked the 
        international community to help with debt relief, which is 
        estimated at $30 billion. The United States and the 
        international community should support Sudan's request to the 
        IMF for assistance in monitoring its economic performance. The 
        international community should also begin the process of 
        looking at Sudan's debt, especially if Khartoum makes progress 
        in ending the Darfur conflict. The United States will not be 
        able to take any action until the broader question of sanctions 
        is resolved.
  <bullet> Northern and southern Sudan are currently spending the 
        single largest percent of their budgets on the military and 
        security. The United States and the international community 
        should engage both sides in a dialogue that encourages them to 
        reduce the percentage of their budgets devoted to military 
        expenditures.
  <bullet> In concert with the international community, the United 
        States should urge the governments of northern and southern 
        Sudan to rebuild their agricultural sectors. Civil war in 
        southern Sudan caused significant deterioration of agriculture. 
        The reliance on oil revenue led to a ``Dutch disease'' syndrome 
        in northern Sudan that has severely set back agricultural 
        production. Oil revenue has the potential to do the same thing 
        in southern Sudan. The international community should also be 
        prepared to help revive the agricultural sector.
                       operational considerations
    The official U.S. presence in Sudan is inadequately staffed and 
organized to cope with the plethora of issues confronting it, 
particularly if the United States retains a lead position in helping to 
resolve these problems. The United States should upgrade its 
representation to ambassador from charge d'affaires. It may not seem 
like an important change, but it is. Representation by a charge limits 
the ability to accomplish as much as it otherwise could with an 
ambassador. The United States should also reciprocate by allowing Sudan 
to upgrade its representation in Washington to the level of ambassador.
    Equally important is the need to provide sufficient numbers of 
reporting staff so that the embassy can provide up-to-date and accurate 
information on political and economic developments throughout the 
country. As the embassy staff moves from the dilapidated building in 
downtown Khartoum to its new fortress structure in the suburbs, 
American personnel will become even more isolated. A new embassy is 
fully justified because of the inadequacy of the current one, but the 
new structure will change the American presence in Khartoum from 
overexposure to underexposure. These fortress embassies are so 
inhospitable and difficult to enter that they virtually cut off contact 
with host country nationals inside the embassy. The burden is then on 
embassy staff to move around the capital and the country. To its 
credit, the United States was one of the first countries to open a 
consulate in Juba in southern Sudan. Embassy officers also make regular 
visits to Darfur.
    In view of the complexity of the problems looming in Sudan, 
however, there is no substitute for an on-the-ground American presence 
that provides continuity and the ability for an officer to travel 
regularly throughout all parts of the country. Sudan is an ideal 
candidate for several ``American presence'' posts. They would consist 
of only one American officer and perhaps one or two local nationals 
hired on a contract basis. Armed with appropriate language skills, a 
healthy travel budget and the latest in mobile communications gear, 
this is the only way I know under the current fortress embassy concept 
to ensure a good understanding of developments in a country as large 
and complex as Sudan.
    Launched by former Secretary of State Rice, the ``American 
presence'' concept has not taken hold in Africa, apparently due to lack 
of assigned positions and concerns by State Department security. This 
should change. Three or four ``American presence'' positions in some 
combination of the following locations make eminent sense: Nyala and El 
Fasher in the west, El Obeid and Kadugli in the center, Wau and Malakal 
in the south and Kassala and Port Sudan in the east. The ``American 
presence'' post has one significant bureaucratic advantage. It involves 
so few people and administrative support that it can, if requirements 
demand, be shut down or moved to another location without much 
difficulty.
    Creating ``American presence'' positions in Sudan or many other 
parts of the world raises staffing and funding issues and the concerns 
of State Department security. There are, however, certain risks that 
come with a Foreign Service career and the time has passed since it 
should assume a few more risks in countries that are not part of a war 
zone. All ``American presence'' positions in difficult environments 
should be filled by volunteers. I think you will be pleasantly 
surprised at how many junior Foreign Service officers would like to 
show what they can do on their own initiative.

    Senator Lugar. Thank you very much, sir.
    Mr. Eisa.

STATEMENT OF MOHAMMED AHMED EISA, M.D., SUDAN ORGANIZATION FOR 
            RIGHTS AND PEACEBUILDING, WASHINGTON, DC

    Dr. Eisa. Honorable members of the United States Senate 
Foreign Relations Committee, my name is Mohammed Ahmed and I am 
a native of Darfur, Sudan.
    First, let me thank you for the invitation to address you 
today. I also want to publicly thank the Robert Kennedy Center 
for Justice and Human Rights for their support.
    I am honored to testify today before you on an issue so 
dear to my heart, yet I am saddened by the events which have 
brought me here today. I am of the Fur tribe, and a leader in 
my community. In preparing for this testimony, I consulted with 
a number of Darfur leaders in the ground and in the diaspora, 
and I stand here today representing many of their views.
    I am a medical doctor and have worked in Darfur since 1989. 
Since the genocide started in 2003, I have personally provided 
medical treatment to hundreds of civilians injured as a result 
of the conflict. The injuries have come in various forms: 
gunshot wounds, rape, torture, beating, and other forms of 
violence. We are particularly concerned about the deplorable 
humanitarian situation in the displaced camps which have been 
aggravated by the expulsion of the 13 international and 3 
national organizations by the Sudanese Government--there is a 
shortage of food and clean water, deterioration in sanitation, 
and continuation of violence, such as rapes and killing.
    The few aid organizations which have been allowed to return 
to Sudan have not been able to start operating on the ground, 
because of the lengthy bureaucratic redtape. Further, local 
activists, such as myself, are being targeted by the 
government, making it impossible for us to provide much-needed 
service to our people back at home.
    Many of us live outside of Sudan and fear for our lives if 
we were to return to Sudan. For more than 6 years, we have been 
crying for peace in Darfur. Peace is urgently needed in Darfur. 
The Comprehensive Peace Agreement, signed in 2005 between the 
Sudanese People's Liberation Movement and the Government of 
Sudan, sets a good precedent for the type of negotiable peace 
agreement needed in Darfur. The CPA paves the way for 
democratic transformation, provides for equitable wealth and 
power-sharing, freedom of religion, and the right to one's own 
cultural identity. These are the same issues we are fighting 
for in Darfur. A similar peace accord is needed in Darfur. 
Further, any peace agreement for Darfur must address the issue 
of accountability for crimes committed by all parties to the 
conflict.
    But, a conducive environment for peace in Darfur must first 
be created. Land owned by people in the displaced camps have 
been occupied by settlers coming in from Mali and Chad. These 
lands must be returned to their rightful owners in order for 
this to happen. The Janjaweed Arab militia must be disarmed, 
and the UNAMID force must be strengthened. This will create a 
safe environment for the people in the displaced camps to 
return to their homes.
    For sustainable peace in Sudan, we recommend the following:
    The United States should urge the Government of Sudan to 
allow the return and functioning of the humanitarian 
organizations expelled in March 2009 and remove the 
bureaucratic redtape which is preventing few aid organizations 
in Darfur from commencing operations.
    The United States should ensure the inclusion of civil 
society groups, including representatives from the leadership 
of the displaced and refugees and women organizations in any 
peace process.
    As a key player in the peace process, the United States 
should call for the timely implementation of provisions in the 
CPA. We appreciate the priority which the United States has 
given to Sudan. We hope to continue working with the United 
States, and we are counting on the United States, as a world 
leader, to play a key role to bring about peace in Darfur and 
in Sudan.
    Thank you.
    [The prepared statement of Dr. Eisa follows:]

Prepared Statement of Mohammed Ahmed Eisa, M.D., 2007 Robert F. Kennedy 
 Human Rights Award Laureate, Sudan Organization for Rights and Peace-
                        Building, Washington, DC

    I would like to thank the committee and particularly Senator Kerry 
and Senator Lugar for the opportunity to appear here today and to speak 
about the conditions in Darfur and my hope for peace.
                               background
    I was born and raised in Darfur and have lived in Darfur for most 
of my life. I am a medical doctor and also serve as a professor of 
medicine at Al-Fashir University in Darfur in Sudan. I received my 
medical degree from the University of Khartoum Medical School in Sudan 
in 1976 and I am a specialist in internal medicine.
    I am of the Fur tribe, the largest of the African tribes of Darfur 
and I am also a community leader in Darfur. In this capacity, I have 
addressed major community problems in Darfur and have engaged in peace 
negotiations on behalf of people in Darfur for the past 20 years, since 
1989.
    In preparing for this hearing, I spoke and consulted with many 
Darfuris on the ground and in the diaspora as well as leaders of 
Sudanese civil society groups. Many of their views are represented in 
this statement.
    In the interest of time, I will only focus on a few key issues 
facing Darfur. However, I welcome questions on other areas not covered 
in my testimony. Today, my testimony will focus on the humanitarian 
situation on the ground, particularly in the Internally Displaced (IDP) 
camps, the targeting of local civil society leaders, and the 2005 
Comprehensive Peace Agreement signed between North and South Darfur. 
Finally, I will share my recommendations for the United States 
Government.
                        situation on the ground
Humanitarian Conditions and Situation in the Camps
    When the genocide in Darfur erupted in 2003, I was living in Darfur 
and have lived there ever since. I personally have provided medical 
treatment to hundreds of civilians injured as a result of the conflict. 
The injuries have been in various forms: gun-shot wounds, rape, 
torture, beatings and other forms of violence.
    From 2004-2007, I worked as the Director of Medical Treatment at 
the Amel Center for the Treatment and Rehabilitation of Victims of 
Torture (the Amel Center) in Darfur. The Amel Center provided medical 
and psychosocial services to victims of rape and torture and also 
documented human rights abuses taking place in Darfur. Most of the 
cases referred to the Amel Center were from the camps. I regularly 
treated several victims of rape, torture, and other forms of violence 
on a daily basis. The victims comprised men, women, and children and 
they ranged in age from a boy of 3 years old to an elderly man who was 
80 years old. The Amel Center was the only organization on the ground 
providing medical treatment and psychosocial services to victims of 
rape and torture.
    Many of the civilians who fled their homes as a result of the 
conflict live in camps in Darfur and Chad. I visited several of the 
camps in the Darfur area, and worked mainly in three of them: Kalma, 
Dreij, and Otash in Southern Darfur, providing health care services to 
the men, women, and children living there.
    There are more women than men living in these camps. A typical camp 
is composed of about 65 percent females; 25 percent children; and 10 
percent men, mostly elderly. Thirty percent of children under the age 
of 5 in these camps are malnourished. Since the escalation of the 
conflict in 2003, several of the women and girls living in these camps 
have been raped and subjected to other forms of sexual harassment. 
Reports of threats of violence and rape in these camps persist today. 
In June this year, two girls from Hamdya Camp in West Darfur were 
attacked, raped, and beaten by six Janjaweed militia. On the same day, 
another girl from Abusorroge Camp in West Darfur was kidnapped by armed 
men in military uniforms. In July this year there have been four cases 
of rapes in Nyretti Camp in West Darfur. Also in July, an elderly man 
was killed, and four children were slaughtered in Tawila Camp in North 
Darfur, by the Janjaweed militia. Four young men from Abokaro Camp were 
also killed by the Janjaweed militia when they left the camp to collect 
firewood and straw.
    The expulsion on 9 March 2009 of 16 aid organizations (13 
international and 3 national) by the government following the issuance 
of the arrest warrant for President al-Bashir by the International 
Criminal Court (ICC) has worsened the deplorable humanitarian 
conditions in camps in Darfur. Reports from my fellow community leaders 
on the ground indicate that as of June 2009, no one was providing 
health care services in Kalma and only two organizations were supplying 
food there. Kalma is one of the largest camps in Darfur with a 
population of about 100,000 people. Shadad Camp in Northern Darfur, 
which previously received food and water supply from the expelled 
organizations, is also experiencing a severe shortage of food and water 
supply.
    The rainy season in Darfur which normally lasts from June to 
September poses serious challenges for humanitarian workers providing 
aid to the Darfuri people in the camps. Even with a full complement of 
aid organizations providing health services, health problems generally 
increase during the rainy season. As pit latrines become flooded during 
this period, there is an increased incidence of diseases, such as 
diarrhea and cholera. During this month of July, there have already 
been three reported cases of cholera in displaced camps in Nyala in 
Southern Darfur. There are no good roads leading to the camps; there 
are only feeder or dirt roads. During the rainy season these roads 
become flooded, making it difficult to access the camps. Conditions 
such as these will place heavy constraints on the remaining aid 
organizations on the ground or on any new agency at this stage given 
that the rains have already started.
    As we know, in March 2009, the Sudanese Government expelled 16 
humanitarian organizations, including my former organization, the Amel 
Center. The shutdown of the Amel Center in essence means there is no 
organization on the ground providing both medical treatment and 
psychosocial support to women and girls who are victims of rape or to 
victims of torture.
    Although the government has allowed a few aid organizations to 
return to Darfur, reports from my colleagues on the ground indicate 
that the organizations have not yet started operations in the camps as 
a result of lengthy bureaucratic processes locally. Thus the sufferings 
in the camps continue.
    In addition to the problems within the camps, there are long-term 
problems in West Darfur which need to be addressed today. Supported by 
the Sudanese Government, newcomers, from Chad and Mali, are settling on 
land belonging to the displaced African groups who now live in the 
camps. Even if conditions finally improve in Darfur and people are able 
to return home to their villages, they will have nothing to return to 
and nowhere to go. Any solution for peace must seriously address these 
issues.
    Finally, the continued and prolonged existence of Darfuris in the 
camps contributes to a serious deprivation of the educational rights of 
Darfuris. Educational facilities are lacking in the camps. Even before 
the conflict, the education level of Darfuris lagged far behind that of 
other groups in Sudan, due to the limited number of schools in Darfur, 
compared to the rest of the country. The enrollment of Darfur children 
in elementary school, for instance, was only 40 percent, compared to 90 
percent in North Sudan state. The limited education in the camps will 
stunt the educational development of Darfuris, denying them access to 
positions in key sectors in the country.
Targeting of Civil Society and Local Activists and Organizations
    Those of us who try to address the deplorable conditions in Darfur 
that I just outlined, face constant intimidation by authorities of the 
Sudanese Government.
    In late 2008, we became aware that our operations at the Amel 
Center were no longer secure as information was being leaked to the 
Government, thus endangering the lives of the survivors of the 
Government-sponsored violence. Six of us from the Amel Center therefore 
started the Sudanese Organization for Rights and Peace Building 
(Sudanese Organization). The Sudanese Organization provided legal 
support for those whose rights had been violated, such as victims of 
illegal arrest and detention and police brutality, and also provided 
support to victims of rape and torture. In late November 2008, three of 
my colleagues were illegally arrested and detained for days. They were 
severely beaten, tortured and denied access to lawyers and visits, even 
from family members. The incident forced my colleagues and I to keep a 
low profile.
    On March 9, 2009, during my absence from Darfur, national security 
officers went to the hospital where I worked and to my house looking 
for me. They inquired about my whereabouts and conducted a search of my 
home. Fortunately, they took nothing from my house and no one in my 
household was harmed. On that same day, the national security forces 
also went looking for Massad Mohamed, Director General of the Sudanese 
Organization. They went to his home, but did not find him; when they 
left Massad's home, they left with his brand new car. Personally, I 
fear that if I return home I will be arrested. The five of my other 
colleagues who ran the Sudanese Organization with me have also left 
Darfur and fear for their lives should they return. In effect, this 
means that the Sudanese Organization is no longer functional and 
victims of crimes and Government abuse are left without much-needed 
support services.
    The Government of Sudan has also prevented civil society groups 
from traveling outside of Sudan to participate in peace-building 
efforts. In May 2009, about 300 people representing different groups of 
civil society members in Darfur were to travel to Addis Ababa in 
Ethiopia to meet with other civil society groups in the diaspora to 
formulate a unified vision for peace. The Government denied exit visas 
for these members of civil society. As a result, the meeting in Addis 
Ababa never took place.
United Nations/African Union Mission in Darfur (UNAMID)
    The presence of UNAMID forces has not stemmed the violence in 
Darfur due to lack of adequate manpower and equipment. From the 
inception, UNAMID has lacked sufficient number of troops, logistical 
supplies, including critical aviation capabilities and communication 
equipment, rendering it feeble to stem violence in the region of 
Darfur. The Security Council Resolution authorized 26,000 troops, but 
only about 17,000 have been deployed. The required number of 
helicopters has also not been provided, and with Ethiopia's pledge to 
deliver five in October, a shortage of 19 still remains. An empowered 
UNAMID will result in effective partnerships with local village police 
who can be trained to help provide additional security. It will also 
increase the effectiveness of UNAMID troops in protecting the camps and 
enable them to assist with the voluntary return of the civilians in the 
camps back to their homes when conditions in Darfur improve. However, 
as long as the Janjaweed militia remains armed and UNAMID is 
inadequately manned and equipped, the prospect of people returning home 
from the camps remains unrealistic.
    The people of Darfur continue to suffer and there seems to be no 
end in sight. There is an urgent need for peace in Darfur. We are 
counting on the United States, as a world leader, to play a key role to 
bring about peace in Darfur and in Sudan.
                     comprehensive peace agreement
    The United States and the international community has focused a 
great deal of attention on the Comprehensive Peace Agreement (CPA) 
signed in 2005. I welcome the CPA and the international attention on 
the agreement, as do many people in Darfur. It provides a framework to 
bring about the necessary changes that must occur to effectively 
address the root causes of the problems in Sudan as a whole and has 
relevant application to the conflict in Darfur as well. Although the 
CPA does not address the issue of accountability and issues unique to 
the Darfur conflict, such as land resettlement, it nevertheless 
encompasses many of the principles that we in Darfur want: freedom of 
religion; equality of all Sudanese citizens; the right to one's own 
cultural identity, etc.
    However, a number of provisions called for in the CPA, such as the 
review and amendments of national laws to make them compatible with the 
CPA agreement and the 2005 interim constitution of Sudan, have to date 
not been implemented. Further, the result of the 2008 census conducted 
pursuant to the CPA has been rejected by stakeholders in Southern Sudan 
and Darfur. We in Darfur and South Sudan are of the view that the 
census does not reflect the true population of the people of Southern 
Sudan and is less than the actual number of Southern Sudanese people. 
These issues must all be resolved within the shortest delay. Failure to 
do so would have disastrous consequences for the elections scheduled 
for 2010 and ultimately for the 2011 referendum. The people of Darfur 
are closely watching the implementation process of the CPA and with 
keen interest. If the CPA is successfully implemented, it will be a 
major sign of hope for peace settlement in Darfur. However, if it 
fails, it will threaten the prospects of peace in Darfur.
    It must be emphasized that the situation in Darfur presents 
pressing needs which must first be addressed before some of the 
provisions of the CPA, elections, for instance, can be effectively 
implemented. There must be peace first, before elections are conducted. 
Further, a sizeable number of the Darfur population lives outside of 
Darfur as refugees. Without peace, their participation in an election 
is severely restricted, if not completely impossible.
    Solutions to the conflict in Sudan must take into account all of 
the above factors which threaten to weaken peace. I would like to 
outline some recommendations to the United States for sustainable peace 
in Darfur.
                            recommendations
    (1) The United States should urge the Government of Sudan to allow 
the return and functioning of the 16 humanitarian organizations 
expelled in March 2009 and remove the bureaucratic redtape which is 
preventing the few aid organizations in Darfur from commencing 
operations.
    (2) The United States should ensure the inclusion of civil society 
groups, including representatives from the leadership of the displaced 
and refugees and women organizations in any peace process. The 
Government of Sudan should provide requisite documents for 
international travel and permit civil society organizations to 
participate in peace-building activities.
    (3) As a key player in the peace process, the United States should 
call for the timely implementation of provisions called for in the CPA 
such as the review and amendments of national laws, in particular 
national security laws and laws guaranteeing freedom of press, in 
accordance with the CPA agreement and the 2005 interim constitution of 
Sudan.
    (4) The United States, through the Security Council, should take 
measures to strengthen the joint United Nations/African Union 
peacekeeping force, UNAMID.
    (5) The United States, working with the Security Council, should 
demand that the Government of Sudan fulfill its commitment to disarm 
the Janjaweed militias, pursuant to Security Council Resolution 1556 
adopted on 30 July 2004.

    Senator Lugar. Thank you very much, sir.
    Now I'd like to call upon Ms. Page.

  STATEMENT OF SUSAN D. PAGE, REGIONAL DIRECTOR, SOUTHERN AND 
   EAST AFRICA, NATIONAL DEMOCRATIC INSTITUTE, WASHINGTON, DC

    Ms. Page. Thank you very much, Senator Richard Lugar, 
ranking member, and honorable members of the committee. Thank 
you for this opportunity to testify.
    As you know, 4 years after the signing of the Comprehensive 
Peace Agreement the agreement is holding but remains very 
fragile and full-scale war between the North and South is 
always at risk of erupting.
    Interethnic violence in South Sudan has increased. In 
Darfur, violence continues, and in Eastern Sudan a shaky peace 
deal holds.
    On June 28, the National Elections Commission postponed 
elections, for a second time, from February 2010 to April 2010. 
Political tensions rose in the South when former SPLM Foreign 
Affairs Minister Lam Akol created a new political party called 
the SPLM for Democratic Change. Despite these challenges, 
important progress was made. The Government of National Unity 
agreed to allow four international nongovernmental 
organizations into the country to replace the NGOs that had 
been expelled after the ICC indictment of President Bashir.
    Significant advancement toward peace was made in Abyei, as 
has already been alluded to. Following last week's ruling by 
the Permanent Court of Arbitration, respect for the tribunal's 
decision and the newly drawn map has been agreed to, and, I 
think, in part is a testament to the presence in Abyei of 
General Gration and to the senior leadership of the two parties 
when the ruling was announced.
    NDI has worked in Sudan since 2004. Our focus-group 
research represents the most extensive qualitative information 
on the opinions of the Sudanese people. NDI has completed 10 
focus-group studies, including 6 in Southern Sudan, 2 in the 
Three Areas of Abyei--Blue Nile, and Southern Kordofan--and 2 
in Northern Sudan. As part of these studies, focus-group 
discussions have been held in 71 locations across the country.
    NDI is assisting and developing the capacity of over 75 
Southern nonpartisan civil-society and faith-based 
organizations to serve as domestic election observers through a 
network called SuNDE, the Sudanese Network for Domestic 
Elections. The organizations have stressed the importance of 
working together across regions and to coordinate efforts with 
the North with those of the established network in the South. 
Amidst the numerous challenges in Sudan, such expressions 
exemplify a desire for collaboration, regardless of the 
outcomes of the elections and the referenda, to build a just 
and accountable government at all levels.
    Our focus-group research in the North, South, and the Three 
Areas show that the Sudanese strongly support elections as the 
best way to choose their leaders. They are strongly committed 
to participating in elections--and expressed a deep desire to 
hold their elected officials accountable, something they cannot 
currently do with appointed officials.
    Interestingly, while many people expect cheating to take 
place, a number of participants stated that they would, 
``accept the bribe, yet still vote for the candidate of their 
choice.''
    Nonetheless, misinformation is widespread, including the 
number of positions for which people will be voting. And in 
Southern Kordofan and Blue Nile, a number of people erroneously 
believe that they will also participate in a referendum.
    NDI's research raises important points and demonstrates 
Sudanese citizens' frustration with the incomplete 
implementation of the CPA. Increased technical assistance and 
governance capacity-building toward electoral implementation, 
including the two referendums, are crucial ways to support the 
Government of National Unity, the Government of Southern Sudan, 
and the 25 states of Sudan in implementing the next critical 
phase of the CPA.
    Additional support for civic and voter education programs 
is crucial. In order for elections and the referendums to be 
viewed as credible, the electoral framework must be understood 
and regulations put in place as soon as possible. Donors should 
continue to support the National Elections Commission to ensure 
that it remains an independent and viable body. Political 
parties must be able to compete and campaign freely, and media 
must be permitted to provide equal access to all competing 
interests. Additionally, domestic observation of the process--
of the electoral process provides Sudanese citizens the 
opportunity to participate in the democratic life of their 
country, and to make informed decisions about their future.
    Collectively, an independent electoral commission, adequate 
citizen education, responsible media coverage, political 
tolerance for campaigning, and the freedom for domestic 
Sudanese organizations to observe the electoral process will 
contribute to minimizing the risk of pre- and post-election and 
referenda violence, as well as help to ensure respect for the 
will of the Sudanese people as expressed through the ballot.
    Thank you very much.
    [The prepared statement of Ms. Page follows:]

Prepared Statement of Susan D. Page, NDI Regional Director for Southern 
             and East Africa, National Democratic Institute

    Senator John Kerry, committee chairman, Senator Richard Lugar, 
ranking member, and honorable members of the committee, thank you for 
this opportunity to testify.
                               background
    As you are all aware, the Comprehensive Peace Agreement ended 
Sudan's civil war on January 9, 2005. Today, the agreement is holding 
but remains very fragile. New conflicts emerged, and existing ones 
changed. Full-scale war between the North and South is always at risk 
of erupting.
    Interethnic violence in South Sudan has increased. In one case, 
armed Jikany Nuer men attacked an aid caravan going to a Lou Nuer area, 
cutting off food supplies for nearly 20,000 displaced people. In June, 
the U.N. noted that ``the death rate in Southern Sudan from violent 
conflict has been higher than in Darfur.'' In Darfur, violence 
continues and two aid workers were recently kidnapped. In eastern 
Sudan, a shaky peace deal holds.
    On June 28, the National Elections Commission (NEC) postponed 
elections for a second time from February 2010 to April 2010. In 
response to the Government not holding elections by July 9, 2009, as 
called for in the CPA, the Darfuri rebel group Justice and Equality 
Movement (JEM) allied with some Northern opposition groups and called 
for a new democratic, transitional government to be formed. Political 
tensions rose in the South when former (SPLM) Foreign Affairs Minister 
Lam Akol created a new political party called ``the SPLM for Democratic 
Change.''
    Despite these challenges, important progress was made. The 
Government of National Unity (GoNU) agreed to allow four international 
nongovernmental organizations (NGOs) into the country to replace the 
NGOs that had been expelled after the International Criminal Court's 
(ICC) indictment of President Omar al-Bashir on March 4, 2009.
    Other important progress was made in Abyei. The National Congress 
Party (NCP) and SPLM publicly reiterated their agreement to be bound by 
The Hague's July 22nd ruling on Abyei's boundaries. Following last 
week's ruling, the parties released a joint statement and both hailed 
the agreement. To date, no violence has erupted in the area, which is a 
major achievement. However, recently, both sides have begun to trade 
accusations over the status of the oil fields based on the ruling by 
the Permanent Court of Arbitration.
                                 abyei
    While violence has not erupted, it is important to note that the 
reaction may simply be delayed because all the details of the ruling 
are not fully understood on the ground and the Misseriya have not yet 
returned to Abyei for grazing because of the rains. Furthermore, the 
location of the oil wells and final revenue-sharing during the course 
of the life of the CPA are likely to be drawn into the broader North/
South border demarcation process currently underway by the Ad Hoc 
Border Commission. Respect for the Tribunal's decision and newly drawn 
map is, in part, a testament to the presence in Abyei of General 
Gration and the senior leadership of the two parties when the ruling 
was released.
                         views from the ground
    NDI has worked in Sudan since 2004, before the Comprehensive Peace 
Agreement was signed. Our focus group research represents the most 
extensive information on the opinions of the Sudanese people since 
then.
    NDI has completed 10 focus group studies, including 6 in Southern 
Sudan, 2 in the Three Areas of Abyei, Blue Nile, and Southern Kordofan, 
and 2 in Northern Sudan. As part of these studies, focus group 
discussions have been held in 71 locations across the country. Research 
consistently found that people do not feel the CPA has yielded a 
significant peace dividend. One southerner explained this common 
sentiment by noting, ``Peace is just like a slogan. Most of the things 
in the CPA are not being implemented.'' Another woman from the Three 
Areas said, ``We have seen very little [improvement in development 
post-CPA] . . . they should have done many schools and hospitals, that 
would have been enough for us.'' In the North, one man told 
researchers, ``Before the peace agreement, the war was sucking our 
blood because a high percentage of the budget went to the war for 
weapons and [a] very little of the budget went toward serving social 
needs.''
    Many people who participated in our study in the South and Three 
Areas feel their lives have not significantly improved since the CPA 
was signed; they link this to an expectation that war will return. A 
man from the Three Areas explained, ``We will return to conflict 
because now there is no development.'' Northerners also expressed 
uncertainty about the current stability, although there was a sense 
that development has increased somewhat. ``We cannot say everything is 
at the right direction, despite the fact that there is a positive side 
like development projects, roads construction,'' a northern woman said.
    NDI is assisting and developing the capacity of over 75 southern, 
nonpartisan civil society organizations to serve as domestic election 
observers through a network called SuNDE. The organizations have 
stressed the importance of working together across regions and to 
coordinate efforts with the North with those of the established network 
in the South. Amidst the numerous challenges in Sudan, such expressions 
exemplify a desire for collaboration regardless of the outcome of the 
elections to build a just and accountable government.
    Focus group research in the North found some variation in opinions 
about democracy, but those who participated in the study strongly 
supported elections as the best way to choose their leaders. Similarly, 
Southerners are strongly committed to elections, and expressed a deep 
desire to hold their elected officials accountable, something they 
cannot do with appointed officials. Interestingly, while many people 
expect cheating to take place, a number of participants stated that 
they would ``accept the bribe yet still vote for the candidate of their 
choice.'' Misinformation is widespread, including the number of 
positions for which people will be voting; in Southern Kordofan and 
Blue Nile, a number of people believe erroneously that they will also 
vote in a referendum. Without this option, a number of participants 
claimed they would ``join the South, declare independence, or go back 
to war.''
    NDI's research on the 2011 referendum for South Sudan consistently 
found that southerners plan to vote for independence. Within the first 
year after the CPA was signed, and despite Dr. John Garang's call for 
unity based on a new model for Sudan, southerners responded, ``We will 
vote for separation and John Garang will have to get a passport to 
visit us.'' Another noted, ``We will be divided, even children know 
that.''
                    toward a comprehensive strategy
    NDI's research raises important points and demonstrates Sudanese 
citizens' frustrations with the incomplete implementation of the CPA. 
Increased technical assistance and governance capacity-building toward 
electoral implementation (including the two referenda) are crucial ways 
to support the GONU and GOSS in implementing the next critical phase of 
the CPA. Additional support for civic and voter education programs is 
crucial.
    In order for elections and the referenda to be viewed as credible, 
the electoral framework must be understood and regulations put in place 
as soon as possible. Donors should continue to support the National 
Elections Commission to ensure that it remains an independent and 
viable body. Political parties must be able to compete and campaign 
freely and the media must be permitted to provide equal access to all 
competing interests. The media can also be an important source of 
information for Sudanese citizens in this process. Additionally, 
domestic observation of the process provides Sudanese citizens the 
opportunity to participate in the democratic life of their country and 
make informed decisions about their future.
    Collectively, an independent electoral commission, adequate citizen 
education, responsible media coverage, political tolerance for 
campaigning, and the freedom for domestic, Sudanese organizations to 
observe the electoral process will contribute to minimizing the risk of 
pre- and post-election and referenda violence as well as help to ensure 
respect for the will of the Sudanese people as expressed through the 
ballot.

    Senator Lugar. Well, thank you very much, Ms. Page.
    Let me just commence the questioning by following up on 
your suggestions.
    Clearly, the information that could come from the focus 
groups--perhaps already has--as well as the findings, as you 
will publish them and discuss them, are critical for these 
referendums. As you suggest, this information should help to 
bring about decisions in which citizens have confidence, or 
even more importantly, that informs them so that they do not 
engage in violence because of what they perceive to be either 
incompetence in administration or fraud and abuse.
    The National Democratic Institute and the Republican 
Institute have cooperated for many years in Latin American in 
the elections, and I can recall vividly the attempts made, 
really just to help print ballots that were clear, or signals 
of signs to persons who were illiterate as to what the choice 
might be, in terms of movements or political parties, quite 
apart from the counting suggestions of people sitting around a 
table with each ballot being raised and everybody examining it, 
procedures that we would find, in the United States now, to be 
very tedious and beyond the point. But, in the case of first 
elections in many Latin American countries, this was critical 
in terms of the credibility, because all of us are looking 
toward those elections as indicators. Clearly the amount of 
education about the numbers of positions to be filled, and who, 
in fact, is going to be up for election--and so, I ask you, 
what sort of resources do you or other groups have to make that 
kind of information available in the 25 states of Sudan? Even 
that is a daunting figure as one considers all the 
differentiations.
    Ms. Page. Thank you very much, Senator.
    NDI has received a lot of funding, actually, from USAID, 
who has made civic education, and now voter education, really 
quite a priority. So, we do have quite a lot of resources. Our 
research from the focus groups are consistently published. We 
publish them, we do briefings in the field, not just for the 
political leaders, both North and South, and at the state 
level, but also for citizens, so that they understand where--
what people are saying, in terms of the elections.
    I don't think that--in a country the size of Sudan, that, 
frankly, the resources are ever enough, but in order to get to 
some of those actions, we need clear regulations passed by the 
electoral commission. They need--people need to be educated, 
but we can't do all of the educating until we know exactly what 
we need to tell people. So, that, I think, is a--first and 
foremost, is that the National Elections Commission is also 
understaffed and has been slow to publish the regulations to 
implement the electoral act.
    Senator Lugar. Well, I think this is an important part of 
this hearing, to illuminate that process, because these are 
action steps, finally, and decisions to be made by citizens. 
And the information they have, opportunities they have for 
choices, integrity of the process, is just tremendously 
important.
    Mr. Ahmed, let me ask you--as so many Americans appreciate 
your own contribution and humane services to people as a 
physician, likewise your observations about Darfur, what are 
the prospects for the many groups within Darfur? Many of them 
have been involved in contests of their own for authority, or 
at least for turf, as the case may be. Leaving aside the rest 
of Sudan, within Darfur, what are the prospects for unity and 
for at least a healthy Darfur, even if the rest of the world 
would leave it alone at this point?
    Would you respond?
    Dr. Eisa. Yes. To me--I have been working as a medical 
doctor and as activist, and we--as a group of Darfurians, we 
are working with different affiliations and different groups 
and private groups to come together. And we have formulated 
what's known as Civil--Darfur in Civil Society, which, almost 
even the Janjaweed groups find they are incorporated within 
this civil society, because we think that we are living in the 
same atmosphere, and we'll continue living in that--in the same 
Darfur. So, that's our vision, to face the problem of Darfur 
together, and then, to go further, to find a solution of peace 
in Darfur as a group, as a civil society, and not just as a 
question of tribal parties or political parties. So, that's the 
civil society we are now building in.
    But, we are finding difficulties from the government. Our 
meetings are prohibited, our movements are restricted, and 
that's one of the problems. We are looking for the peace, and 
we are trying to persuade everybody that peace is the only 
solution for Darfur and Sudan.
    Senator Lugar. But--that's encouraging, the progress among 
groups in Darfur to look for unity, but you're suggesting, on 
occasion, this is obstructed by the government----
    Dr. Eisa. Yes.
    Senator Lugar [continuing]. And these meetings and these 
reconciliation attempts are frustrated.
    Dr. Eisa. That's what we are trying to do----
    Senator Lugar. Yes.
    Dr. Eisa [continuing]. Because even the people in the 
displaced camps and the refugee, they have their leaders, and 
we always negotiate together to pave the way for peace process, 
because that's the ultimate result. And that's our ultimate 
goal for the people in Darfur. And we are really crying for 
peace.
    Senator Lugar. Professor Shinn, I was intrigued with your 
thought that neighbors of Sudan, even recognizing the 
referendums that are about to occur, as well as other 
phenomenon, all things considered, would like to see one Sudan, 
one united Sudan, as opposed to a Southern faction or some 
other split-up. And you even suggested, in the worst-case 
analysis, I suppose, that there might be more than two Sudans, 
there could be a fractionated country.
    First of all, I'm just curious, why would other countries 
worry about that? Why does this affect their foreign policy, 
one way or another? And furthermore, is this a unified feeling 
of the neighbors, or do other countries have various agendas, 
perhaps, that work better with a fractionated Sudan? Can you 
illuminate that situation a bit more?
    Ambassador Shinn. Yes. Of the nine countries that border 
Sudan, I think I could make a strong case that at least six of 
them would prefer a unified Sudan, when all of this is over 
with. I would have some question marks on Kenya and Uganda, who 
may see some economic advantages in having a Southern Sudan 
that looks South. The situation in Chad is so confusing now 
that it's hard to decipher what they might want. Normally they 
would want a unified Sudan, because you have the same problems 
of bifurcation in Chad, potentially, that you have in Sudan, 
and that's not a good precedent for them. But the bad relations 
between Khartoum and N'Djamena complicate that position.
    In some cases, it's a very practical consideration. With 
Egypt, it's Nile-water related. They simply don't want to deal 
with one or more additional countries that they have to 
negotiate quotas for use of Nile water. They'd rather just deal 
with Khartoum and be done with it.
    In the case of a country like Ethiopia, they just find it 
easier to deal with one neighboring capital, not two or three 
or more. I've had these conversations a number of times with 
Prime Minister Meles, and he has made very, very clear that the 
preference is for a unified Sudan. They will obviously accept 
independence if that comes.
    The more interesting part of the question that you raised 
is perhaps: are some countries interested in having a division 
in Sudan in order to make Sudan weaker, which might work to 
their advantage? That is a possibility, and that's why I leave 
Chad, particularly, in a separate category. I would argue that 
Chad is the one country that might fall into this situation.
    I'm not sure that would be the case anywhere else, even 
with the Democratic Republic of the Congo or Central African 
Republic. I think the precedent of division along ethnic lines 
is more overriding than wanting to take advantage of smaller 
entities. And in terms of U.S. interests, I think the last 
thing we would want to see is a series of countries that are 
landlocked and poor and dependent upon outside aid, even those 
that may have oil.
    Senator Lugar. Thank you very much, sir.
    The Chairman [presiding]. Thank you, Senator Lugar.
    Thank you all for being here. Appreciate it very, very 
much.
    Dr. Mohammed, what--how would you describe--we were--we had 
that little discussion here about, sort of, what's going on in 
Darfur today, and what the situation is on the ground. You may 
have already addressed this, and I apologize if so. But, I'd 
like to hear your description of that. How would you describe 
what is happening on the ground today in Darfur?
    Dr. Eisa. Thank you. I think what's happening in Darfur--
and I have been living there from--for more than 20 years, in 
Darfur--it is a question of oppression of one culture, African 
cultures are denied. Second, the Darfurians are not--don't have 
equality in sharing in power or wealth. And they are really 
marginalized. And with all indicators which show the situation, 
I think it's a very dire situation.
    Now, what's happening after the war, I think the people are 
now crammed in more than 100 displaced camps, and you have 
seen--you have seen what's happening in the--that's not a camp, 
for me that's not a camp. Anyhow, they are living in that very 
dire situation. But, the question is that--everybody in Darfur 
wants to go home. That's a very vital--even if no compensation 
are given. But, there are preconditions which should be 
fulfilled. The question of the land which is occupied by the 
other settlers--the government brought other settlers and they 
now occupy the land of the displaced people. Even if they try 
to go home, they can't go there, because they are armed and 
they are--they have settled in----
    The Chairman. The government----
    Dr. Eisa. Yes, the Government of Sudan.
    The second problem is that we need UNAMID to be empowered 
and to take--to implement its mandate in the Sudan and the 
Janjaweed militia should be disarmed and demobilized so that it 
will produce a conducive environment for people to go home and 
start their normal life in their home. I know they are coming 
from very fertile land in very good areas, and nobody's liking 
to live in that difficult situation.
    The Chairman. Right.
    Dr. Eisa. So, to me, I think it is very difficult to see. 
And I have seen catastrophes. But, let me say that, within 
today, the rape is continuously going on, killing is 
continuously going on. And you can't get out from the camps, go 
to anywhere. And the problem with that, the--we want the 
international community to understand that in Darfur we don't 
have infrastructures. And the mechanism of----
    The Chairman. You don't have what, sorry?
    Dr. Eisa. Infrastructures.
    The Chairman. Yes.
    Dr. Eisa. So, we need that. That's very basically needed. 
And we think that the question of helicopters or----
    The Chairman. Right.
    Dr. Eisa [continuing]. Other mechanism should be more--
should have the upper hand to control the situation than just 
by normal----
    The Chairman. In terms of the current dynamic of the 
principal rebel groups, they're certainly not engaged the way 
they were in the kind of confrontation that was going on. But, 
the question I'd ask you is--I think one Senator, Senator 
Menendez, mentioned we've had three or four envoys; we've gone 
through a number of ``getting close to agreements''; we've gone 
through a number of agreements; and within hours, or days even, 
of the agreement, people have walked away, and it's fallen 
apart, and so forth. Is there something that is alive today, in 
this moment, that you think is different, that we can 
capitalize on? Or, are we stuck in the same sort of dynamic 
where we go around, we'll get--you know, we'll go through this, 
sort of, meaningless agreement process?
    Dr. Eisa. I think it's a question--it's not a matter of how 
much agreements people are--do. It's a question of, Is there a 
political will to implement and to make things easy?
    The Chairman. And the political will has to be by all the 
parties.
    Dr. Eisa. The Sudan Government. Because--the rebel 
factions--if this--and this is what I stated, because the 
implementation of CPA is very mandatory, so that it gives us 
the trust and the confidence----
    The Chairman. Right.
    Dr. Eisa [continuing]. That the coming peace will be 
implemented.
    Now, the rebel factions----
    The Chairman. What's your judgment about that will? Is the 
will there now, in your judgment?
    Dr. Eisa. To me, I know what's happening in the Sudan 
Government is still--the Sudan Government had never made--
determined to make a political will for--to solve the problem 
of Darfur, and a political mechanism, but it wants to continue 
the military-option phase than any other option.
    The Chairman. Ambassador Shinn, what do you say about that?
    Ambassador Shinn. It's very hard to read, obviously, the 
minds of the people who are running the Government in Khartoum. 
I do see, however, a willingness to reach out to governments, 
like the American Government, for perhaps the first time in a 
long time, and I think that ought to be pursued rather than 
rejected.
    It may not lead anywhere, and it will be unfortunate if it 
doesn't, but I think that General Gration is essentially on the 
right track by reaching out, seeing what is there, and seeing 
if there can't be further moves by the Government in Khartoum 
to do what has to be done to resolve, not just the problem in 
Darfur, but implementing the CPA.
    I am a little bit optimistic on this, not real optimistic, 
but a little bit.
    The Chairman. So am I, actually. I think it is possible to 
put the dynamics together. Very, very tough, big issues.
    Ms. Page, maybe you want to comment on the--how you see the 
North-South process within CPA, and the biggies of citizenship, 
borders, and wealth-sharing.
    Ms. Page. Thank you, Senator Kerry.
    I believe, actually, that some of the suggestions outlined 
by Ambassador Shinn are quite right. I think the region really 
has to be considered. Africa does not have a long track record 
of appreciating other independent states on its borders, and 
especially the fact that Sudan--if the South votes to secede, 
we need to have a process of how we're going to help both the 
Government of National Unity, which, of course, is an 
integrated government, but to help the North and the South put 
in place the mechanisms that would make that happen.
    So, what General Gration talks about, whether it's unity or 
a peaceful coexistence, a peaceful separation, how do we do 
that? And I think that we have to help--it's partly through 
elections and the other political processes. But we have to 
make it less of a zero-sum game, so that it's not only a winner 
and a loser. And that's what they saw with the Abyei ruling, 
that both sides saw that they won something. And that's part of 
why it has been accepted without any violence, so far.
    The Chairman. But how do you explain the rise in violence 
in the South? I mean, there is increased violence there in 
certain areas. Do you view that as localized tribal 
confrontation, or is it North-South?
    Ms. Page. I would say it's a little bit of both. But, 
ethnic tensions are very much on the rise. I mean, one quote 
states that they were--there was--there were more deaths in 
Southern Sudan from ethnic violence than there was in Darfur.
    The Chairman. Right.
    Ms. Page. That's a scary statistic. I don't think that--I 
think if we--if the international community doesn't, sort of, 
rally around to try to take out some of the--again, that zero-
sum game, the--making it an all-win-or-lose, or, you know, all-
or-nothing situation, then we don't take away the incentives 
for the government to put spoilers in the mix. That's how 
governments around the world--it's nothing unique to the 
Government of Sudan. But, if we don't take away some of those 
possibilities by giving them some real thoughts of how they can 
work through some of these processes so that the outcome of the 
elections will be respected, the outcome of the referendums, 
the two, for Southern Sudan, as well as for Abyei--will be 
respected, and respected without violence.
    So, I think if we could get international supporters 
together, people with different experience, as Ambassador Shinn 
has suggested, I think that that--it's worth a try to, again--
you know, what do you do, the pipeline is not in Southern 
Sudan? The oil is there, but the pipeline isn't. So, there has 
to be some sort of mechanism. What are they going to do with 
the revenue, post-2011?
    The Chairman. Unfortunately, we are running up against the 
clock, here, folks, which I regret enormously, because we could 
obviously go on publicly here for some time. We're going to 
need to, again, leave the record open so we can follow up with 
you.
    But, let me just try to close out a couple of quick 
questions, if I can.
    Dr. Mohammed, the Darfur Peace Agreement, as well as the 
CPA, many people felt, lacked a sufficient civil-process input. 
Could you just share with me, very quickly, what--how can we 
make sure that the civil society is properly heard in the 
process of this initiative, or effort, with respect to Darfur?
    Dr. Eisa. I think the----
    The Chairman. Ambassador Shinn, I'd like you to also----
    Dr. Eisa. Yes. I think the Darfur Peace Agreement failed 
because the civil society was not incorporated, and other 
things. But, we think now the civil society is almost ready, 
and--apart from the obstruction made by the Government of 
Sudan. But, we think that the situation is more there now, and 
everybody is longing for peace. That is a good momentum; we 
have to make use of it.
    The other things are--even the rebel factions, I think they 
are just waiting to see a suitable momentum, where they can 
just push in and continue the negotiation. And Doha may be a 
good momentum, but we need that--there must be a--the feel that 
the Government of Sudan is really determined to find a solution 
for the problem of Darfur. Let them give their hope that--let 
the international organizations go back to help the IDPs. Let 
the civil society move together, so that--to find a solution 
for, and to make their position for, the peace and--come 
together to peace. Let the rebels--if the civil society is 
ready, and those in the displaced are ready, then they have no 
choice, except to accept that thing.
    And I think the--we and the United States, as a trusted 
country, with the aid, with the international community, for 
sure will reach a peace very soon.
    The Chairman. Mr. Ambassador.
    Ambassador Shinn. Mr. Chairman, I don't mean to sound too 
Pollyannaish on this, but the key clearly is the Government in 
Khartoum, and particularly the National Congress Party, in 
having a change of approach to what it does, or how it receives 
Darfurian civil society, in terms of bringing them into the 
process. They have to be convinced that this is in the interest 
of Sudan and in the interest of Darfur, generally.
    I think that it is incumbent upon the international 
community--certainly including the United States, but not just 
the United States--to use this opening that the United States 
and the international community seem to have, to press this 
point and to make it clear to Khartoum and the NCP that this is 
the occasion to turn a new leaf, to bring more Darfurian civil 
society into this. I agree with you wholly, it's critical to do 
that.
    I don't think the other groups would disagree with this, 
and the SPLM component of the Government of National Unity 
would probably be supportive of this. So, I think there's an 
opening to do something here.
    The Chairman. Well, I think that's a good note, both of 
you, in your comments--unless, Ms. Page, you wanted to add to 
that--but I think that's a good note to pull this together on. 
A little optimism, and a sense of what is possible. I 
personally believe that.
    I think some of those rebel groups, frankly--it was my 
perception over there--are taking advantage of their Toyota 
Land Cruisers and their guns and some money that flows their 
way, and there's not a lot of liberation theology driving many 
of them these days. [Laughter.]
    So, I think we need to really call things as we see them, 
and press the opportunities here to bring people together to 
try to resolve this.
    And we are greatly admiring, Dr. Mohammed, as you know, of 
your efforts over all these years. Thank you so much for your 
courage and your leadership.
    And thank you, all of you. The National Democratic 
Institute, Susan, we greatly appreciate what you're doing.
    As I said, we will leave the record open. I know there will 
be some questions submitted, and if you could help us complete 
the record, that would be terrific.
    So, thank you. It's been very helpful to everybody.
    Senator Lugar, do you have any other----
    We thank you, and we stand adjourned.
    [Whereupon, at 12:29 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Prepared Statement of Hon. Christopher J. Dodd,
                     U.S. Senator From Connecticut

    Mr. Chairman, thank you for holding this important hearing on U.S. 
policy toward Sudan. This past month U.S. diplomats hosted a forum in 
Washington to bring together representatives from dozens of countries, 
NGOs and other Sudan experts to discuss the Comprehensive Peace 
Agreement and develop an effective multilateral way to proceed on 
Sudan. Positive signals emerged from this meeting, but North-South 
relations still remain tense, and the ongoing violence in the Darfur 
region continues unabated. The policies of Sudanese President Omar 
Bashir in Darfur have led to the murder of hundreds of thousands of 
innocent people, which is why I hope that the President will continue 
to apply forceful pressure on the Sudanese Government to end the 
violence in Darfur and hold those accountable for the atrocities 
committed there.
    I want to take just a moment to discuss the Sudan Accountability 
and Divestment Act of 2007, which I authored along with my colleague 
Dick Shelby in the Banking Committee. This bill empowered our country's 
State and local governments to divest from companies with business 
operations in Sudan. The international community has condemned 
President Omar Bashir for his role in authorizing this genocide, and he 
has been indicted by the International Criminal Court for these crimes. 
Given the worsening situation in Sudan, we thought it was imperative 
that we help strengthen the growing movement in the United States of 
those interested in divesting from Sudanese businesses whose presence 
serves to bolster and support Sudan's Government, enabling its security 
forces, and those militias responsible to them, to continue to commit 
these atrocities.
    To that, we were deliberate in targeting four specific economic 
sectors widely recognized as key sources of revenue for the Sudanese 
Government: oil, power production, minerals, and military equipment. 
According to one former Sudanese Finance Minister, 70 percent of the 
Khartoum Government's share of oil profits was spent on military 
equipment used to bolster militias like the Janjaweed.
    This legislation represents part of the wide-ranging effort being 
made to maintain pressure on the Sudanese Government and to effect 
positive change. But, Major General Gration, as you know, much work 
remains to be done. A more forceful international diplomatic effort 
must be made to ensure that violence stops in Darfur, that humanitarian 
aid begins flowing again and that NGOs expelled from the country after 
the ICC indictments were issued, be allowed to reenter. I want to thank 
Major General Gration for his hard work so far in striving to ensure 
that the implementation of the CPA continues to in peaceful and stable 
ways and for his close work with regional and international allies in 
achieving a positive outcome in Sudan. That is no small task, indeed it 
might be one of the toughest challenges we face, but it is absolutely 
critical that we and the international community bring relief to the 
people of Darfur and a stable and lasting peace to Sudan.
                                 ______
                                 

  Responses of Special Envoy Scott Gration to Questions Submitted by 
                      Senator Russell D. Feingold

    Question. In your written testimony, you said that engagement means 
frank dialogue about ``how the bilateral relationship could improve if 
conditions on the ground transform.'' What specific steps would we take 
to improve our bilateral relationship with Sudan and under what 
conditions would you recommend we take these steps?

    Answer. We believe that steps to improve our bilateral relationship 
should be linked to specific actions by the Sudanese, such as meeting 
Comprehensive Peace Agreement (CPA) implementation goals, implementing 
a sustainable solution for the Darfur crisis, refraining from further 
regional destabilization, and improving and sustaining counterterrorism 
cooperation. We are currently taking several steps to open dialogue 
with actors in the Sudanese Government and in the wider region to help 
facilitate these outcomes. Commencing a constructive dialogue is the 
first cautious step toward improved bilateral relations. Real 
improvement and actions on the part of the USG to acknowledge this 
improved Sudanese behavior should only occur after we have seen a 
tangible, irreversable improvement of conditions on the ground in 
Darfur, serious engagement in a Darfur peace process, and important CPA 
benchmarks being met. The nature of the steps we could take will depend 
entirely on Sudanese actions and would need to be coordinated on the 
U.S. side through the interagency process and in close consultation 
with Congress.

    Question. Can you comment on the cohesiveness of the National 
Congress Party right now, particularly given press reports that Vice 
President Taha has been out of the country for a month amid rumors that 
he's had a falling out with President Bashir? Are there signs of cracks 
within the regime, or major differences on policy approach to Darfur or 
CPA implementation that have led you to believe a strategy of bilateral 
engagement will bear fruit?

    Answer. We are not in a position to speculate with any confidence 
about internal relationships within the Bashir government. It does 
appear, however, that National Congress Party (NCP) actors have begun 
behaving more consistently with regard to Darfur and Comprehensive 
Peace Agreement (CPA) implementation since the ICC indictment of 
President Bashir; perhaps the indictment prompted Bashir to tighten his 
inner circle of confidantes. We are anxious to see if the increased 
consistency might help achieve a lasting resolution of the Darfur 
conflict and full implementation of the CPA. In any event, we will 
continue to strive to extract commitments from Khartoum that can be 
verified by tangible, positive action on the ground.

    Question. As you know, more than 2 million people have been 
internally displaced in Darfur by the fighting and instability there. 
What do you see as the conditions for the sustainable return of these 
IDPs to their villages and do you think we are at that point?

    Answer. In order for voluntary returns to take place, increased 
security must be a fundamental precondition. I have taken several trips 
to Darfur since I began as the Special Envoy to Sudan, and I have seen 
that security conditions on the ground appear to be improving.
    While IDPs continue to cite insecurity as the primary obstacle for 
return, additional deterrents include uncertainty of compensation if 
they leave the IDP camps, unavailability of former homes and farms 
(some have been occupied), lack of livelihood opportunities, the desire 
by some to continue the ``urban'' lifestyle, and some dependency on 
humanitarian assistance in the camps. The majority of ``returns'' to 
date have been seasonal in nature and linked to agricultural 
production. A tremendous amount of work still needs to be done in order 
for people to be able to appropriately, voluntarily, and sustainably 
return to their villages with their dignity and human rights intact.
    I would like to stress that any return needs to be voluntary, 
appropriate, and in accordance with international norms and standards. 
The Government of Sudan holds the primary responsibility for 
establishing and ensuring adequate, appropriate, and sustainable 
conditions for IDP return and settlement. The international community 
stands ready to support Darfuris willingly returning to their villages 
when an independent body has verified that they are indeed returning 
willingly, and confirmed appropriate conditions in areas of return. 
Specific care should be taken to avoid the creation of inappropriate 
pressures to return, or a false sense of safety, and to uphold the 
principles of impartiality and neutrality.
    I also believe that despite ongoing instability and other issues, 
we must start to plan for the day when significant numbers of voluntary 
returns can occur. USAID already programs significant funding for 
assistance outside of IDP camps to address the key vulnerabilities 
caused by the conflict, including reduced access to health facilities, 
limited availability of agricultural inputs, disruption of agricultural 
and market systems, and strained resources among communities hosting 
displaced populations. During small scale and larger scale returns, 
USAID humanitarian assistance will continue to be based on assessed 
needs, not on population categories such as IDPs, pastoralists, or 
returnees.
    Conditions are slowly improving, and we continue to push resumption 
of the Doha peace process. We would be doing a disservice to the people 
of Darfur if we did not begin to think ahead to future needs, such as 
assistance for agriculture or development, when significant voluntary 
returns do take place.

    Question. I regularly hear from people across Wisconsin, many of 
them involved with Darfur Action Coalition Wisconsin, who want the 
United States to do more to end the crisis in Darfur and help build 
peace in Sudan. Because of the President's and Vice President's 
statements during the campaign, many of them expected that this would 
be a top priority for the administration. As you pursue your strategy, 
what are you doing to draw upon the widespread public interest in this 
issue and involve Wisconsinites and other Americans who care deeply 
about Sudan in your efforts?

    Answer. We are very interested in public outreach and are working 
on several levels to expand our communications and to engage with the 
large community of Americans who are deeply passionate about the issues 
facing Sudan. Recently, we developed a listserv that enables us to 
regularly send out updates, and to date nearly 8,000 people have 
registered through the link on the special envoy's Web page 
(www.state.gov/s/sudan) for these regular e-mail updates. We hope to 
build on this and explore more avenues that will facilitate getting the 
message out about our efforts in Sudan.
    Additionally, we are engaged in active and ongoing discussions with 
key organizations in the advocacy community. We consider it crucial to 
actively engage this very large constituency and to keep them informed 
about our activities and progress in Sudan and to help give them a 
voice in our discussions with the Government of Sudan. To this end, our 
office and the NSC recently convened a meeting at the White House with 
many of the leaders of the advocacy community to continue this dialogue 
and to discuss ways that the advocacy community and ourselves can 
collaborate and work together to further advance the goals of peace and 
stability in Sudan. We will continue this outreach and appreciate that 
many of your constituents are so actively supporting peace in Darfur.

    Question. I strongly believe that a lasting political solution in 
Darfur also requires attention to the instability and internal causes 
of conflict within Chad. Do you consider Chad part of your mandate and 
if so, how does it interlink with the Sudan policy under development 
and what steps are you taking to address the political and security 
situation there?

    Answer. Ending the ongoing proxy war between Chad and Sudan is 
essential to ensuring a lasting peace in Darfur and the region. While 
Chad is not officially part of my mandate, I am working closely with 
Assistant Secretary for African Affairs Johnnie Carson and the Office 
for Central African Affairs on issues related to Chad. I have visited 
Chad twice since being appointed Special Envoy to Sudan, and I continue 
to maintain close contact with President Deby as well as several other 
important Chadian leaders.
    Bringing peace to Sudan is very clearly part of my mandate, and in 
order to do this we must strive to end the cross-border conflict 
between Chad and Sudan. This requires an internal Chadian political 
reconciliation process, which is part of the broader Chad-specific 
strategy being implemented by the Bureau of African Affairs. Therefore, 
while I consider it within my mandate to work on issues related to the 
improvement of bilateral relations between Chad and Sudan, I do this in 
very close coordination with and in a supporting role to the Bureau of 
African Affairs.
                                 ______
                                 

  Responses of Special Envoy Scott Gration to Questions Submitted by 
                         Senator Barbara Boxer

    Question. During the last week's hearing, you said that the 
consequences of the U.S. designation of Sudan as a state sponsor of 
terrorism and the sanctions linked to it are hindering the United 
States ability to rebuild Sudan and contribute to its development as a 
viable nation.
    But I remain very concerned that simply lifting sanctions could 
reward Sudan without securing assurances that the Sudanese Government 
will take steps to end conflict in the Darfur region and in the South.
    Furthermore, as I understand, the United States is able to provide 
foreign aid to Sudan through nongovernmental organizations for 
humanitarian purposes and existing sanctions have been lessened in 
Southern Sudan.

  <bullet> If you believe that sanctions are impeding development in 
        Sudan, have you explored additional exemptions or the proper 
        administration of existing exemptions until the Government of 
        Sudan proves itself a good faith actor?

    Answer. The administration is not currently considering the removal 
of existing domestic sanctions against the Government of Sudan or any 
named individuals or entities. I would be strongly opposed to lifting 
sanctions against the Bashir regime or the sanctions that prohibit the 
procurement of military equipment by Sudan. Our goal is to keep 
pressure on the Khartoum government. However, I am very concerned about 
how the broad array of U.S. sanctions against Sudan may hamper 
development in conflict-ridden regions, specifically in the South and 
Darfur. Congress did ease certain financial sanctions on the South and 
Darfur, but many restrictions remain in place.
    We are undertaking a thorough review of all U.S. sanctions in place 
against Sudan in order to develop a comprehensive picture of all our 
options. We have not completed this assessment yet, but I would be 
pleased to share our findings when the assessment is completed to 
determine how we might work together to develop the tools we need to 
expedite humanitarian assistance and to facilitate needed development 
in Southern Sudan.

    Question. As you well know, Sudan's recent national census has been 
largely contested by officials in Southern Sudan and Darfur. The census 
is an important step leading up to the 2010 elections.
    On July 24, Alain Le Roy, the Under Secretary General for 
Peacekeeping Operations at the United Nations, said that, ``the 
contested census, large-scale displacement and volatility--particularly 
in the area bordering Chad--create enormous risks that the people of 
Darfur will not be in a position to participate in the electoral 
process.''

  <bullet> In view of the concerns surrounding the accuracy of the 
        census, and the possibility that Darfuris may not participate 
        in the upcoming elections, do you believe the elections will be 
        fair?
  <bullet> How will the outcome of the 2010 elections affect the Darfur 
        peace process and the representation of Darfuris in the 
        Government of Sudan?

    Answer. Sudan's national elections, scheduled for April 2010, are a 
key milestone in implementation of the Comprehensive Peace Agreement 
and, we hope, a positive step toward democratic transformation in 
Sudan. The United States continues to support and encourage credible, 
peaceful, nationwide elections in Sudan, including in Darfur. We are 
working with all parties to ensure that the peace process and elections 
in Darfur complement each other. We believe voting should take place in 
all parts of Sudan unless legitimate security concerns prevent voting 
in certain places at that time, and we believe it is far too early to 
make any such determination. The upcoming elections provide a rare, 
nonviolent opportunity for Darfuri civilians to make their voices heard 
about issues that affect their lives and we are encouraging Darfuris to 
get involved in electoral preparations and in the elections themselves. 
However, we recognize that the absence of a viable peace settlement 
that genuinely addresses Darfuris' underlying concerns magnifies the 
current challenges to electoral preparations and the process itself.
    With less than 9 months to go, these elections face many 
challenges. Political challenges, logistical hurdles, limited 
infrastructure and, security risks in southern Sudan, Darfur, and other 
areas continue to hamper preparations. We are pushing all parties to 
complete the necessary legal reforms and resolve the ongoing dispute 
over the use of census results to allow for an open campaign 
environment. The United States is providing a significant amount of 
technical expertise to assist Sudanese authorities to prepare for and 
undertake this landmark national process. We are working with Sudanese 
authorities to ensure that all Sudanese have access to, and are 
educated about, the electoral process and have the tools they need to 
make informed electoral decisions. We are also providing support to 
facilitate international and domestic monitoring, to build voter 
confidence and technical competence to help ensure credible elections.

    Question. Could you please share with me your detailed plan to 
ensure implementation of the Comprehensive Peace Agreement (CPA)? What 
specific benchmarks and deadlines have you laid out and what progress 
would you like to see within the next year?

    Answer. Efforts to support implementation of the Comprehensive 
Peace Agreement (CPA) will continue to be our focus. We are at a 
critical point in the implementation timeline as we enter the final 
stage of the Interim Period. It is with a renewed sense of urgency that 
we are pushing for the parties to fulfill their responsibilities under 
the CPA. We are working directly with the two parties to the 
agreement--the National Congress Party (NCP) and the Sudan People's 
Liberation Movement (SPLM)--to overcome roadblocks to implementation.
    We hosted the Forum for Supporters of the CPA in Washington--an 
event that brought together high-level representatives from more than 
34 countries and organizations to pledge their renewed support to 
ensuring full implementation of the CPA. We also used the opportunity 
to encourage the international community to deliver on commitments they 
have made on resources that will aid CPA implementation. Together, the 
forum participants agreed on coordinated action plans to ensure the 
international community stays on the same page over the next several 
months. We intend to hold another forum before Sudan's national 
elections in April 2010 to ensure the momentum continues.
    In the context of a trilateral dialogue, we are encouraging the two 
parties to work with each other directly. Through this process of 
dialogue, the NCP and SPLM have moved to resolve many of the disputes 
that have been hindering full implementation of the CPA. We have 
charted a path forward for 10 of 12 issues identified by the parties as 
potential obstacles, including acceptance and implementation of the 
Abyei arbitration decision, demarcation of the North-South border, 
improvement of security and wealth-sharing arrangements, and some 
arrangements related to elections. Only two issues remain outstanding; 
how to utilize the census results and the structure and process for the 
January 2011 referenda. The trilateral process is ongoing, and I will 
return to Sudan in mid-September to meet with the leadership of both 
parties to finalize the points of agreement.
    Already we have witnessed the peaceful rollout of the Abyei 
decision, acceptance of the decision by both parties, and moves to 
begin its implementation. And in the last few weeks, the North has 
returned funds owed to the South and allowed Southern inspectors to 
audit its oil-related records. With less than 18 months until the 
referenda on self-determination for Southern Sudan and Abyei, the 
parties must achieve significant milestones, including national 
elections in April 2010, popular consultations in Southern Kordofan and 
Blue Nile states, and preparations for the referenda and post-referenda 
era. While I expect significant progress in the coming months, I know 
there are many challenges ahead, and the U.S. Government, in 
cooperation and coordination with other members of the international 
community, will continue to work with the parties to address and 
resolve new issues as they emerge.
                                 ______
                                 

    Response of Special Envoy Scott Gration to Question Submitted by
                          Senator Roger Wicker

    Question. What is the official administration position with regard 
to whether a genocide has occurred in Sudan? If so, is the genocide 
currently underway? Who does the administration believe is guilty of 
genocide?

    Answer. The President has made it clear that Sudan is a priority 
for this administration. The President has referred to ``genocide 
that's taking place'' in Darfur. My focus is now on reversing the dire 
ongoing human consequences of genocide--ensuring that the militias are 
disarmed, displaced persons can return to their homes, and the people 
of Darfur who have suffered so much can live in peace and security.
    In light of ongoing court cases, it would be inappropriate for my 
office to speculate on the guilt or innocence of any party.
                                 ______
                                 

   Responses of Special Envoy Scott Gration to Questions Submitted by
                      Senator Robert P. Casey, Jr.

    Question. As we plan and conduct our foreign policy in Sudan, it is 
essential that we are clear about our goals and objectives. Equally as 
important is the ability to react to the ever-changing circumstances on 
the ground. We only acquire this ability by planning for a range of 
scenarios and outcomes in advance. The next 18 months in Sudan are 
critical. Within this time period, national elections are scheduled for 
2010 and a referendum on separation for 2011. These two dates are 
potential flashpoints for conflict.

  <bullet> General Gration, do you believe that Southern Sudan will 
        have the ability for self-sustaining rule by 2011?

    Answer. It is possible for Southern Sudan to achieve self rule by 
2011, but it should be noted that an underlying element of the 
Comprehensive Peace Agreement (CPA) is to make unity attractive. We 
will continue to do all we can to help prepare Southern Sudan for a 
possible vote for secession. However, in tandem with this effort we 
need to work with both the North and the South to help them resolve 
their differences and create a more peaceful and stable coexistence.
    While much has been accomplished since the signing of the 
Comprehensive Peace Agreement in 2005, Southern Sudan has much to do 
before the 2011 referendum if it is to self-govern. Most notably, 
Southern Sudan needs to continue to improve governance, professionalize 
its armed forces, and establish a sustainable and diversified economy 
which is not totally dependent on oil revenues. Southern Sudan remains 
challenged in attracting investment and developing economically, in 
part because of the array of sanctions placed on Sudan by the United 
States, which affect both North and South Sudan. Congress has provided 
authority to provide certain types of assistance to South Sudan but 
other sanctions (e.g., certain export restrictions) that impact the 
South remain in place.

    Question. General Gration, if Southern Sudan were to vote for 
secession, what type of assistance would be required from the United 
States and what type of assistance is the administration ready to 
provide?

    Answer. Should Southern Sudan vote for secession in 2011, USG and 
international assistance would be vital to ensure that it does not 
become a failed state. Our existing nonemergency programs are focused 
on building and strengthening the South's economic, governance, health, 
education, rule of law and security capacities, and these types of 
programs will likely remain critical beyond the 2011 referendum whether 
the outcome is unity or secession.
    In order to be prepared for any scenario, we are studying recent 
examples of newly independent states, such as Kosovo and East Timor, to 
better understand the process, as well as actors, of state-building in 
post-conflict settings. This will help inform the development of 
appropriate U.S. and international responses. These analyses, however, 
should be carefully balanced and reconciled with the outcomes of 
current negotiations being undertaken between the Government of Sudan 
and the SPLM to resolve post-2011 concerns not addressed in the CPA. 
This framework would provide a foundation upon which targeted 
assistance could be designed and planned.
    I would note, though, that while the United States is committed to 
supporting a peaceful and democratic implementation of referendum 
results, the Southern Sudanese must take the lead in ensuring a stable 
and prosperous future.
                                 ______
                                 

   Response of Acting Assistant Administrator Earl Gast to Question 
               Submitted by Senator Robert P. Casey, Jr.

    Question. As we plan and conduct our foreign policy in Sudan, it is 
essential that we are clear about our goals and objectives. Equally as 
important is the ability to react to the ever-changing circumstances on 
the ground. We only acquire this ability by planning for a range of 
scenarios and outcomes in advance. The next 18 months in Sudan are 
critical. Within this time period, national elections are scheduled for 
2010 and a referendum on separation for 2011. These two dates are 
potential flashpoints for conflict.

  <bullet> Mr. Gast, what programs is the United States currently 
        undertaking to strengthen Southern Sudanese governance 
        capabilities and democratic institutions?

    Answer. The U.S. Government's objective in governance is to promote 
transparency, accountability, and participation in government 
institutions. These elements are especially critical in post-conflict 
environments, such as Southern Sudan, where government must have the 
capacity to deliver public goods and peace dividends in order to 
maintain legitimacy, consolidate peace established under a negotiated 
peace agreement, and ultimately sustain democratic reform. The U.S. 
Agency for International Development (USAID) and the State Department 
coordinate closely to achieve these objectives through a variety of 
programs.
    Building the capacity of the Government of Southern Sudan (GOSS) is 
a cornerstone of U.S. Government strategy. Since 2004, prior to the 
formation of the GOSS, the U.S. Government, through USAID, has been 
providing assistance to build capacity, transparency, and 
accountability of governance structures in the South as a central tenet 
for successful implementation of the Comprehensive Peace Agreement 
(CPA). Our assistance initially aimed to enable the GOSS to perform the 
essential tasks of government at a basic level.
    Our strategic focus has been on establishing core public sector 
executive functions, through support to key GOSS Ministries, Cabinet 
Offices and independent Commissions. This includes developing sound 
financial management systems, sound budget formulation practices, 
stable executive decisionmaking structures and processes, policymaking 
processes, a professional civil service, human resource systems, and 
institutional management systems. As a result, these new institutions 
are now functioning at a basic level. Revenues are coming in, payments 
are being made, and a legal framework is being built. Nevertheless, 
development gains have been slow, and many fundamentals of governance 
continue to need improvement.
    USAID has also supported improvements in the technical capacities 
of GOSS institutions critical for implementation of specific CPA 
milestones. Technical assistance and commodities support to the nascent 
South Sudan Commission for Census, Statistics, and Evaluation enabled 
it to successfully conduct the recent census in Southern Sudan. USAID 
is also currently providing technical assistance to the National 
Election Commission and its constituent bodies, which include the South 
Sudan Election High Committee, to help them design and implement 
credible national and state-level elections in 2010.
    USAID has also expanded this type of targeted assistance to 
Southern state and local governments along the North-South border and 
in the Three Areas to support the CPA's decentralization agenda and 
promote stabilization in these areas at high risk of conflict. In the 
short term, USAID assistance will assist local government to deliver 
basic services and peace dividends, and in the long term will build 
local capacity to assume this role.
    USAID assistance has also flexibly responded to emerging needs of 
the GOSS. For example, in response to the recent financial difficulties 
faced by the GOSS, the USG played a critical role in developing a GOSS-
donor compact to strengthen fiscal sustainability within the GOSS in 
preparation for the referendum in 2011. In support of this initiative, 
USAID and other donors are designing a program that will provide 
support for the compact's three pillars: Enhanced Fiscal 
Responsibility, Strengthening Public Financial Management, and 
Accelerating Private Sector-Led Development.
    In rounding out the nongovernmental dimensions of good governance, 
USAID has provided support to develop and strengthen citizen 
participation in governance, including civil society organizations, 
political parties, and media, and access to information, civic 
education, and enhanced dialogue between government and citizen groups.
    Looking toward the future, USAID is now working with the GOSS and 
other international donor partners to assess the GOSS' current 
capabilities to provide for basic citizen needs and carry out key 
functions, and to prioritize the GOSS core functional capacities that 
are deemed essential to ensure that the GOSS functions effectively as 
it prepares for 2011 and beyond.
                                 ______
                                 

      Prepared Statement of Save Darfur Coalition, Washington, DC

    Mr. Chairman, Ranking Member Lugar, and distinguished members of 
the Senate Foreign Relations Committee, the Save Darfur Coalition 
appreciates the opportunity to comment on the critical issue of peace 
in Sudan.
    The Save Darfur Coalition represents over 180 faith-based, 
advocacy, and human rights organizations that all support an end to the 
genocide in Darfur and a comprehensive peace for Sudan.
    Sudan policy is at a critical juncture. With the Comprehensive 
Peace Agreement between Khartoum and the Sudanese People's Liberation 
Movement fraying, with the date for national elections in Sudan 
nearing, and with no demonstrable progress being made in Darfur on 
peace, protection, or justice, the United States must decide whether it 
is willing to invest the time and effort into developing and 
implementing a comprehensive strategy for Sudan that has a reasonable 
chance of success.
    Let us be clear on the facts. The humanitarian situation in Darfur 
remains dire. Over 2.7 million Darfuris reside in internally displaced 
persons camps and another 300,000 reside in refugee camps in Chad and 
the Central African Republic. Over 4 million people in Darfur are 
reliant on humanitarian assistance.
    While the security situation in Darfur has improved from the 
systematic destruction of villages in the 2003-2005 period, the people 
of Darfur remain extremely vulnerable in a lawless, dangerous 
environment, lacking the most basic human rights. On March 4, the 
Sudanese Government demonstrated its ability to cut off humanitarian 
aid at any moment from the 4.7 million Darfuris who depend on it. Rape 
continues to be a daily terror as the Sudanese Government refuses to 
take the most basic actions to end impunity for the perpetrators of 
gender-based crimes.
    The mass violence perpetrated by the Sudanese Government several 
years ago has been replaced with the harassment, detention, torture, 
and murder of Darfuri and Sudanese human rights and civil society 
leaders. This violence led a significant number of Sudanese human 
rights defenders to flee the country shortly after
March 4.
    The African Union-United Nations Peacekeeping Force (UNAMID) 
remains woefully underresourced and largely unable to fulfill its 
mission. Meanwhile, impunity reigns throughout Sudan despite the 
International Criminal Court's indictment of three Sudanese for war 
crimes, including President Omar al-Bashir.
    The situation in the South is no better. Political and economic 
pressures have led to increasing intertribal violence, and some 
humanitarian organizations have said the number of deaths directly 
caused by violence is actually higher in the South than in Darfur. The 
Government of South Sudan is increasingly seen by its constituents as 
ineffective and budgetary pressures have left it at times unable to pay 
its soldiers and civil servants.
    With national elections now scheduled for April 2010, all of these 
elements could quickly explode into a Sudan-wide conflagration.
    We are concerned that over 6 months after his inauguration, 
President Obama has yet to release the results of the administration's 
Sudan policy review. The appointment of Special Envoy Scott Gration was 
a welcome development, but without clarity on the policy he is supposed 
to implement, both he and the international community are at a 
disadvantage when negotiating with the Government of Sudan.
    Moreover, we have expressed concern at some apparent disconnects 
between various actors within the Obama administration on Sudan policy. 
While we understand that the interagency process is inherently messy 
and that there are many strong opinions about the best approach to 
take, President Obama must ensure that his administration speaks with 
one voice by enunciating its policy for Sudan at the earliest 
opportunity. Division within the administration, or even the perception 
of division, simply plays into the hands of the Government of Sudan and 
its defenders.
    We have seen no evidence to date that the Government of Sudan is 
any more willing to make the necessary concessions to achieve peace 
than it has been at any point since the conflict began. Allowing some 
humanitarian organizations to reenter Darfur wearing different hats 
after the Government expelled them on March 4 is not a sign of an 
increasing willingness on the part of the Sudanese Government to 
cooperate. It is an admission that they cannot sufficiently address the 
humanitarian situation on their own and did not want the situation to 
spiral out of control to point where the international community would 
be compelled to act. Such ``concessions'' on the part of the Sudanese 
Government are hollow.
    President Bashir's favorite tactic is to delay true reforms by 
creating crises that distract the international community, allowing him 
to never actually fulfill any of his promises. The March 4 expulsions 
are one such example. The international community rewards this tactic 
by focusing on the crisis of the moment rather than a comprehensive 
solution. This is partly why the national elections originally 
scheduled for 2009 have been twice delayed, and many speculate that 
credible elections may never take place. Bashir is using cooperation on 
the implementation of the CPA as leverage to resist international 
pressure on Darfur. And it is working.
    The United States and the international community have failed to 
develop policies suited for dealing with a regime that lacks a 
fundamental willingness to transform into the democratic state 
envisioned by the CPA. Special Envoy Gration correctly speaks of the 
need to create space for the Sudanese to resolve their own issues. But 
these issues will not be resolved satisfactorily between just the 
ruling National Congress Party (NCP) and SPLM or the NCP and the 
Darfuri rebels. All of Sudanese civil society must be empowered to 
participate in these processes.
    The United States must understand that Sudan's crises cannot be 
managed forever or resolved individually. Only when the international 
community demands serious judicial and democratic reforms which lessen 
the grip of the NCP over the entire country will there ever be a chance 
to resolve the crises in South Sudan and Darfur and move toward 
enduring peace.
    Policymakers have too often focused on the South to the detriment 
of Darfur, or Darfur to the detriment of the South. As we get closer to 
national elections, we are concerned that we are heading down that path 
once again. But Darfur and South Sudan are not separate problems; they 
are the result of a single problem: the undemocratic, centralized, and 
abusive nature of the ruling regime. Only when this problem is 
addressed will peace be forthcoming.
    There is an urgent need for a coherent and comprehensive strategy 
to guide Sudan to a more democratic and prosperous future. Sudanese 
must be empowered to transform Sudan. Such a strategy requires that 
important and difficult choices be presented to President Bashir and 
the NCP. The Sudanese Government must be forced to choose between 
cooperation or confrontation.
    If they cooperate by ending the violence in Darfur and 
democratizing the country through full implementation of the CPA, they 
may be allowed to reap the benefits of becoming a responsible member of 
the international community. If they continue to delay implementation 
of the CPA and continue to attempt to divert and distract the 
international community by using one conflict as leverage against the 
other, they must face real consequences.
    Violence against civilians in Darfur has been fostered in a climate 
of impunity; accountability will need to be addressed as part of a 
durable resolution. President Bashir and other charged Sudanese 
officials must appear before the International Criminal Court, and the 
ICC investigation should continue unless and until a final peace 
agreement is reached that includes alternative accountability 
mechanisms broadly acceptable to the victims of those crimes.
    While we here in Washington debate policy, the people of Sudan 
continue to suffer. This policy debate should not be complicated. The 
United States and its allies must force Sudan's hand and then commit to 
seeing this through. We have played Bashir's game too long to be fooled 
any longer.
                                 ______
                                 

              Save Darfur Citizen Letter to the President

                                                     July 29, 2009.
President Barack Obama,
The White House
Washington, DC.
    Dear President Obama: We need your continued and urgent leadership 
to address the immediate humanitarian crisis in Darfur and to achieve 
long-term peace through a political solution for all of Sudan.
    According to U.N. Secretary General Ban Ki-moon, the Sudanese 
regime's March 4 expulsion of 13 international aid organizations has 
put ``well over 1 million people at life-threatening risk.'' Even if 
this new humanitarian crisis can be averted, a simple return to the 
harrowing pre-March 4 conditions in Darfur is simply unacceptable. And 
the Comprehensive Peace Agreement (CPA) that ended the devastating 
conflict in Southern Sudan is fraying by the day. A return to war there 
would be catastrophic. Meanwhile, the Sudanese regime is succeeding in 
defying the international community. The United States must seize the 
initiative in setting the agenda for peace.
    Your administration must lead in constructing a multilateral 
strategy for peace in Darfur and all of Sudan by

  <bullet> Establishing an inclusive peace process for Darfur,
  <bullet> Revitalizing implementation of the CPA and the dangerously 
        neglected Eastern Sudan Peace Agreement, and
  <bullet> Ending Sudan's proxy war with Chad.

    To that end, your special envoy, General Scott Gration should focus 
on building a multilateral coalition of countries with significant 
leverage. It is vital that the administration work closely with other 
governments in dealing with Sudan; a reliance on bilateral diplomacy 
will provide Khartoum the opportunity to play one party off against the 
other, as it has historically done with great success.
    To do this, General Gration will need your personal and direct 
engagement.
    Ultimately, a strategy for peace means presenting the Sudanese 
regime with a choice:

  <bullet> Behind Door One: If the Government of Sudan permits 
        unrestricted humanitarian access, secures peace in Darfur, 
        fully implements the Comprehensive Peace Agreement for South 
        Sudan, ensures free and fair elections in Sudan, and removes 
        the indicted President, a clear process toward normalization of 
        relations with the U.S. will be mapped out.

Or

  <bullet> Behind Door Two: If President Bashir and his party renege on 
        recent humanitarian commitments and continue to undermine 
        efforts at peace, a series of escalating costs will ensue, 
        including diplomatic isolation, targeted multilateral economic 
        sanctions, an effective multilateral arms embargo, and if 
        necessary to stop massive loss of civilian life, targeted 
        military action.

    If the benefits of Door One and the consequences of Door Two are 
meaningful, the chance for peace in Sudan increases dramatically. The 
missing ingredients in efforts to date for Darfur and CPA 
implementation have been adequate leverage and lack of strategic vision 
for resolving comprehensively the country's conflicts.
    Mr. President, now is the time for bold agenda-setting leadership 
to help ensure that Sudan chooses the most mutually beneficial path, 
and to prepare real consequences if it does not.
    In either case, you and your administration should work diligently 
to effectively mobilize and coordinate the international community in 
order to present a united diplomatic front to Sudan.
    I know that these efforts will require real political capital, but 
the human costs of inaction are far too high to endure. Thank you for 
your efforts thus far. I look forward to seeing even more leadership as 
conditions in Darfur progress.
            Sincerely,
                                                113, 465 Americans.
                                 ______
                                 

 Testimony by John Prendergast, Cofounder, Enough Project, Before the 
 House Committee on Foreign Affairs Subcommittee on Africa and Global 
Health, ``Sudan: U.S. Policy and Implementation of the CPA,'' July 29, 
                                  2009

    Thank you Congressman Payne and members of this subcommittee for 
the opportunity to testify on a topic that will help determine the 
future of millions of people from Sudan and the surrounding region.
    At this subcommittee hearing, members will hear a very different 
message than that which will be communicated at tomorrow's Senate 
Foreign Relations Committee hearing. Today, this subcommittee's members 
will hear a bipartisan critique of the current direction of U.S. policy 
toward Sudan. Rich Williamson, Roger Winter, and I all have negotiated 
extensively with the regime in Sudan, have roughly a combined six 
decades in working on or in Sudan, and have a very clear idea of what 
is required for lasting peace to have a chance in that embattled 
country.
    This hearing comes at a moment in Sudan's history fraught with 
danger and potential. There is no effective peace process for Darfur, 
but one could be built with U.S. leadership. The CPA is on the brink, 
but could be salvaged if U.S. engagement deepens. Next year's elections 
are at risk, but could become an important opportunity to strengthen 
opposition parties and democratic structures crucial for the referendum 
and for Sudan's political future. The referendum itself is doubtful, 
but its prospects could be enhanced with a credible international 
roadmap.
    The major unknown variable that will help determine whether the 
dangers or the opportunities get maximized is the unresolved internal 
debate over the direction of U.S. policy toward Sudan. In the absence 
of any agreement on the policy, U.S. diplomatic engagement has been 
energetic, for which Special Envoy Gration should be credited. But the 
substance of this robust engagement has been fraught with missteps, 
lack of internal coordination, and an overall aversion to pressuring 
the ruling National Congress Party (NCP). Sustained pressure leveraged 
by meaningful and focused sticks is the principal tool that has moved 
the NCP to change its behavior during the 20 years of its authoritarian 
rule. This substantial track record of empirical evidence of the value 
of pressure makes the direction of U.S. diplomacy all the more 
questionable.
    There is also a broader inconsistency in U.S. foreign policy when 
it comes to Sudan. The Obama administration has resolutely worked to 
craft more formidable international coalitions to isolate North Korea 
and Iran for important U.S. policy objectives. However, the U.S. is not 
doing the same for Sudan, despite the existence of a regime there that 
is responsible directly or indirectly for the loss of 2\1/2\ million 
lives in the South and Darfur.
U.S. Goals in Sudan and How to Achieve Them
    In the context of its policy review, the U.S. should spell out 
clear goals:
          (1) U.S. leadership in constructing a more effective Darfur 
        peace process, using as a model the process that led to the CPA 
        involving a lead role for the U.S. and a multilateral support 
        structure that provided international leverage, expertise, and 
        support;
          (2) U.S. leadership in supporting the implementation of the 
        CPA, continuing the trend of deeper engagement over the last 
        few months but structuring clear penalties for 
        nonimplementation of any of the key provisions;
          (3) U.S. leadership in supporting the democratic 
        transformation of Sudan by supporting the electoral process, 
        providing institutional support to opposition parties and civil 
        society organizations, and building the capacity of the 
        Government of Southern Sudan;
          (4) U.S. leadership in preparations for the South's 
        referendum in 2011, which will be a make-or-break process for 
        the future of both North and South.
    The essential word that repeats throughout all these goals is 
``leadership.'' U.S. leadership--multilaterally and when necessary 
unilaterally--will be an enormously influential ingredient in a 
successful transition to peace and democracy in Sudan.
    But success will require greater leverage than that which presently 
exists. The debate internally within the U.S. Government in part rests 
on the degree to which incentives or pressures ought to be favored 
instruments for changing the behavior of the Sudanese regime, the 
Darfur rebels, and the GOSS. It is the view of this panel and the 
activist organizations that comprise the Darfur movement that the way 
forward should involve deeper diplomatic engagement that is rooted in 
multilateral pressures and the credible threat of significant 
consequences for policies or actions by Sudanese parties that undermine 
peace efforts and lead to worsening humanitarian conditions. In the 
absence of these pressures, and if incentives are all that are put 
forward, then failure is guaranteed.
    Success will also require the construction of credible and 
effective processes that allow for the achievement of U.S. policy 
goals. First and foremost, the glaring lack of an effective peace 
process for Darfur calls out for greater U.S. leadership in 
constructing from the existing elements a revitalized process that has 
the chance of ending Darfur's war. Secondly, the U.S. should intensify 
its early efforts to revive the CPA and back these efforts with the 
construction of clear multilateral consequences for violations or 
nonimplementation of key elements of the deal.
    U.S. policy must be shaped by the fact that these complex conflicts 
have a common core: flawed governance by a center that exploits and 
marginalizes an underdeveloped periphery. Not only does the CPA provide 
a roadmap for resolving the longest and bloodiest of these conflicts, 
but it also offers a framework for the kind of democratic, structural 
transformation necessary to alter the root cause of Sudan's many 
recurring conflicts. The successful model of the CPA could and should 
be replicated in a revitalized Darfur peace process. The U.S. cannot 
afford to allow the CPA to fail, nor can it allow the continuation of 
an ineffective Darfur process that obstructs any real possibility of 
peace.
Priorities for CPA Implementation
    The troubling reality is that Sudan's North-South peace remains 
precarious at best. Given the mounting tensions between the North and 
South and the spate of violence in the South in recent months, deeper 
international engagement is required. Renewed Sudanese civil war could 
bring wholesale violence on a terrible scale while further 
destabilizing the entire region. I will focus the remainder of my 
testimony on the key priorities for the U.S. Government in CPA 
implementation.
    I am encouraged by recent positive steps by the Obama 
administration to prioritize CPA implementation and to revitalize 
international efforts to urge the Sudanese parties to work on an array 
of outstanding provisions in the agreement in the remaining year and a 
half. These new efforts should be followed up with an approach that 
penalizes failure of one of both of the Sudanese parties to implement 
key provisions of the agreement. The hard work begins now. It is time 
for the administration to pursue specific priorities in order to meet 
the key benchmarks in the crucial final stages of CPA implementation.
    The U.S. must direct renewed energy and commitment toward the 
following strategic priorities:
    1. Protect the People: Due to a worrisome upsurge in intercommunal 
violence, the death toll in the South this year now exceeds the number 
of violent deaths in Darfur in the same period, and as elections draw 
closer, instability may well increase. Tribal clashes are occurring 
among a heavily armed civilian population that the poorly disciplined 
Southern army has proved incapable of securing. Some of the latest 
clashes highlight the flaws and dangers of the so-called the Joint 
Integrated Units, or JIUs, whose presence has often led greater 
violence, instability, and civilian casualties. The U.S. should take 
two specific measures to help improve security and decrease the risk of 
further violence in communities throughout the South:

  <bullet> Work with the U.N. Security Council to ensure that the 
        United Nations Mission in Sudan (UNMIS) has the necessary 
        capacity to fulfill its mandate and protect civilians. The 
        United States should lead efforts within the U.N. Security 
        Council to strengthen UNMIS' ability to support the CPA, but 
        this support must be matched with clearer strategic vision by 
        UNMIS on how it can best allocate its resources to 
        operationalize its mandate amidst ongoing security threats 
        throughout the South. Other guarantors of the CPA can support 
        UNMIS' efforts by contributing to coordinated programs such as 
        security sector reform within the SPLA.
  <bullet> Encourage the Government of Southern Sudan (GOSS) to take 
        leadership in promoting local peace-building initiatives to 
        defuse tensions between communities that have taken up arms 
        against each other.

    2. Build the ``peace dividend'': Since the signing of the CPA, 
progress has been slow in providing basic infrastructure and services 
to the peripheral areas of Sudan. Insecurity and underdevelopment 
remain a fact of life for most Sudanese. As long as that is the case, 
the Southern government will have difficulty consolidating the peace 
and holding together an ethnically divided South with competing 
political visions. The GOSS has also been hit hard by the financial 
crisis, and is in need of significant economic support, but this 
support should be aimed specifically at capacity-building efforts that 
can strengthen the fledgling government. Additional investments in 
agriculture and microcredit would make a difference on the ground for 
the people of Southern Sudan, more than 2 million of whom have returned 
home to very little after decades of war.
    3. Defuse North-South tensions: A number of contentious issues 
between the North and South must be resolved in next year and a half, 
all of which necessitate robust support from the international 
community in order to keep the negotiations and processes on track. The 
U.S. should direct renewed energy and commitment toward the following 
strategic priorities:

  <bullet> Urge meaningful reforms from the Sudanese parties before the 
        2010 elections. The United States and other key actors, 
        operating on a tight timeline, need to lower their expectations 
        for the election and develop a multilateral strategy to press 
        the Government of National Unity--the ruling National Congress 
        Party in particular--to enact meaningful reforms regardless of 
        who wins in 2010, revitalize CPA implementation, and establish 
        a framework for talks in Darfur that are consistent with the 
        power-sharing provisions of the CPA. There also has to be a 
        clear and unified international posture with regard to 
        addressing the issue of Darfur, given the near-impossibility of 
        holding a free and fair ballot there.
  <bullet> Keep the parties on track in the dual processes of 
        implementing the legal ruling on the boundaries of the Abyei 
        region and demarcating the North-South border. Two crucial 
        issues regarding contested borders between Sudan's North and 
        South need sustained attention from the international 
        community. The failure to establish clear international 
        penalties for a failure to implement these key CPA provisions 
        such as the demarcation of the disputed North-South border has 
        been a clear drag on the CPA. However, last week's legal 
        decision on the boundaries of Abyei--an oil-rich, contested 
        region along the disputed North-South border within Sudan--is a 
        crucial litmus test of the parties' will to implement the CPA 
        moving forward. Now that the ruling on Abyei has been accepted 
        by both parties, the U.S., the U.N., and the rest of 
        international community must follow through on its commitments 
        to help implement the ruling and monitor the status of the 
        demarcation of the Abyei boundaries.
  <bullet> Encourage negotiations between the NCP and SPLM on long-term 
        wealth-sharing arrangements before the 2011 referendum. Track-
        two diplomatic efforts can get both parties to consider various 
        scenarios for wealth-sharing after the referendum and mitigate 
        the likelihood that these discussions will short circuit into a 
        zero-sum game leading directly to conflict after the 
        referendum. Discussions of access to land for populations with 
        diverse needs and livelihoods and planning for mutually 
        beneficial development of oilfields in the contested border 
        region could ease current tensions over border demarcation and 
        generate momentum for further cooperation.
  <bullet> Urge passage of the referendum law before the elections. 
        Applying pressure on Sudan's Government of National Unity to 
        urge the National Assembly to review and pass the law on the 
        Southern referendum before the elections could reduce tensions 
        between the parties after the elections and enable preparations 
        for the referendum to begin now. Once the law is passed and the 
        Referendum Commission is created, potential disputes, such as 
        questions over whether or not certain populations--such as 
        southerners in Khartoum--are eligible to vote, can be addressed 
        before tensions escalate in the immediate run-up to the 
        referendum.

    4. Prevent a return to war: The likelihood of a return to war 
between the North and South, or of conflict breaking out within the 
South, is real. An arms race between the Northern and Southern 
government is just one warning sign of a tenuous situation that could 
explode into outright conflict. Several preventive measures can 
mitigate the risks of violence in the run-up to the 2010 general 
elections and the 2011 referendum:

  <bullet> Enhance efforts to professionalize and modernize the SPLA. 
        The SPLA has struggled to transition from a guerilla movement 
        to a formal army, a process complicated by attempts to 
        integrate Southern militias that opposed the SPLA during the 
        war. To ensure that the South is stabile and the GOSS can 
        deliver a peace dividend, the SPLA must continue to modernize 
        through a well-supported process of security sector 
        transformation that improves discipline, command and control, 
        capacity, and competency. Toward this end, the Obama 
        administration should explore the sale of an air defense system 
        to the GOSS. Although introducing new weapons systems into a 
        volatile military environment could be interpreted as contrary 
        to donors' responsibility to make unity attractive, it is in 
        the interests of lasting stability that the GOSS spend money on 
        defense wisely. Unlike the aforementioned refurbished tanks, an 
        air defense is nonoffensive and helps level the playing field 
        by neutralizing the north's major tactical advantage in the 
        event of renewed hostilities.
Comprehensive Peace: The Only Option in Sudan
    Ending genocide in Darfur and fulfilling the promise of the 
Comprehensive Peace Agreement requires a comprehensive approach to 
Sudan rather than reactive crisis management. The U.S. must lead the 
international community in working now to ensure that the CPA does not 
collapse and spark a devastating new round of conflict in Sudan. With a 
significant diplomatic reinvestment in the CPA that prioritizes 
protecting civilians, building peace in the South, and defusing 
tensions between the North and South, the U.S. can help prevent the 
catastrophic consequences of a potential collapse of the CPA.
                                 ______
                                 
  testimony of john norris, executive director of the enough project, 
before the tom lantos human rights commission, washington, dc, july 30, 
                                  2009
    Thank you, Cochairmen McGovern and Wolf and members of this 
esteemed commission, for the opportunity to testify today. I would like 
to congratulate both you and your fellow members for focusing a great 
deal of attention this week on Sudan. I think it is of great importance 
that the administration hears congressional concerns on this topic, and 
that a diversity of views are heard.
    The stakes involved right now in Sudan are enormous. President 
Bashir is a wanted war criminal. A 2011 referendum will determine 
whether Sudan splits into two countries. Millions of people in Darfur 
still cannot return to their homes because of fear and violence. The 
Obama administration's Sudan policy review is still pending, and, if 
anything, tensions will only continue to rise across all of Sudan with 
a national election slated for 2010 and the referendum scheduled for 
2011. U.S. leadership will be instrumental if the international 
community hopes to successfully navigate the treacherous days ahead 
without mounting bloodshed.
    The 2005 Comprehensive Peace Agreement was envisioned as a 
transformational peace deal. At the time, it was hoped that the hard 
fought agreement would pave the way for genuine powersharing that would 
not only allow for rapprochement between North and South Sudan, but 
also for the development of genuinely inclusive institutions that would 
make Sudan's population as a whole feel less alienated from Khartoum's 
exploitative governance. The agreement allowed for the independence 
referendum in the South, but those who brokered the peace deal hoped 
that eventuality would not need to come to pass as southerners began to 
feel that they were part of a more unified whole.
    At this juncture, it is clear that the CPA has been far less 
transformative in practice than on paper and may, in the long view of 
history, be seen simply as an awkward calm in the storm or an important 
way station on the path to eventual Southern independence and the 
creation of a new African state. The actions of this Congress and the 
Obama administration may well determine how violent and wrenching this 
historical arc is to become.
    Where did the CPA go wrong, and what lessons should we learn from 
that process? In many ways, it is amazing that so much hope was placed 
in the CPA to genuinely transform the institutions of the Sudanese 
state given the concurrent events in Darfur. It is hard to imagine that 
any government that would so wantonly kill, maim, terrorize and 
displace its own people in Darfur would willingly act in good faith to 
share power, resources, and the ballot box with average citizens.
    Equally clear, many in the international community failed to see 
that the CPA was a beginning rather than an end. All peace agreements 
are hard to reach and even harder to implement. In 2005, concerted 
international diplomacy and leverage drove both parties over 30 months 
of tough negotiations to an acceptable deal. International negotiators 
were not shy about using both incentives and pressures to get across 
the finish line. Yet this concerted, tough and coordinated 
international approach largely disappeared when it came to actually 
implementing the agreement. There were virtually no penalties for 
noncompliance with the agreement, for missed deadlines, for acting in 
bad faith, or for undermining the spirit of reconciliation.
    The results have been predictable. While some of the key structures 
detailed in the agreement have been achieved, such as the creation of 
the Government of Southern Sudan, many of the tough decisions have been 
put off until the eleventh hour. The people of southern Sudan widely 
believe that they do not have a place in Sudan and would be better off 
independent. The ruling National Congress Party, realizing it would not 
face penalties for undermining the CPA, pushed aside any steps that 
would have actually allowed for the right of self-expression or 
organization. Instead of a last ditch option, the independence 
referendum became the over-arching endgame, with both North and South 
arming themselves for a possible return to direct conflict.
    It goes without saying that a return to hot war between North and 
South would have devastating human costs and implications for regional 
security and would severely undermine faith in international diplomacy 
to defuse situations such as these.
    The Special Envoy for Sudan, Maj. Gen. Scott Gration, appeared on 
the Senate side of this august body earlier today. We certainly welcome 
the energy with which the special envoy has undertaken his work, and 
the administration's emphasis on finding a comprehensive solution for 
Sudan--understanding that the situation in Darfur can not be divorced 
from considerations of the CPA or powersharing across the country even 
more broadly. That said, this week's hearings have also made clear that 
there is considerable disquiet about the administration's approach to 
Sudan thus far.
    These concerns spring from a number of sources. The 
administration's policy review on Sudan has been slow to see the light 
of day, leading to suggestions that there are some important 
differences within the administration on the proper course for Sudan 
policy. It is my great hope that the end product of the review produces 
a policy that is consistent with President Obama's own very strong 
words on the importance of addressing genocide and war crimes, most 
recently in his speech in Ghana, and which builds on his consistent 
position on this issue as a Senator and Presidential candidate.
    As my colleague John Prendergast noted yesterday in testimony, the 
administration has been working assiduously to build international 
coalitions to isolate North Korea and Iran for their actions, yet this 
same approach has largely been missing from discussions on Sudan. Sudan 
has one of the worst human rights records in the world. As we have 
learned from years of hard, hard experience, if we simply offer 
incentives to Khartoum, the National Congress Party will carry on with 
business as usual and the people will suffer dramatically as a result. 
Do we need to engage with Khartoum? Absolutely. But this engagement 
must be tough-minded, and must be built around consistent, moral, and 
international pressure as much as any incentive.
    In looking at U.S. diplomacy toward Sudan, I think it is most 
helpful if we ask ourselves what success would look like, both for the 
CPA, and for the country as a whole.
    ``Day After'' Understandings. The independence referendum for 
Southern Sudan is a historical event of enormous importance. If handled 
poorly, tensions surrounding the referendum or its results could plunge 
Sudan back into a full blown civil war with fatalities even more 
numerous than we have seen in Darfur. With a large number of 
southerners supporting independence, it is likely that any fair ballot 
would see Sudan split in two, with considerable implications for 
regional relations and security. Given the already tense relations 
between North and South, international diplomats will have their hands 
full keeping the existing peace agreement between the two on track and 
in responding to the daily fires that will surely mark the period 
running up to the referendum. However, it is important not simply to 
make it to the referendum with the existing peace agreement intact and 
without the resumption of war, but also to have a series of agreements 
in place for the day after the referendum--on borders, on revenue-
sharing, on how to treat assets and debts which both North and South 
might claim, water rights and the many other factors that could 
precipitate a return to conflict. This will also require keeping the 
parties on track in the dual processes of implementing the legal ruling 
on the boundaries of the Abyei region and demarcating the North-South 
border. Discussions of access to land for populations with diverse 
needs and livelihoods and planning for mutually beneficial development 
of oilfields in the contested border region could ease current tensions 
over border demarcation and generate momentum for further cooperation.
    Returns. In Darfur, there is probably no better barometer for the 
relative success or failure of the international community than the 
millions of displaced persons and refugees who have been forced to flee 
from their homes by the government-backed Janjaweed militias. Refugees 
and the displaced vote with their feet: they are almost universally 
desperate to return to their former homes, but will only do so if 
security is sufficient. To date, the U.N. force on the ground in Darfur 
has been largely ineffective, there has been no credible effort to 
disarm the Janjaweed, and peace talks for Darfur have moved forward 
only fitfully. In many cases, the refugees and displaced know full well 
their lands and villages are still occupied by armed opponents widely 
responsible for a host of war crimes. Under such conditions it would be 
madness for these families who have already suffered so much to try to 
go home, and refugees and the displaced cannot be forced or coerced to 
return home to fit the hopes of any diplomat. The answer: a far more 
effective and robust peacekeeping force on the ground (with Khartoum's 
de facto veto power over U.N. operations taken away); practical steps 
to disarm the Janjaweed; and a solid peace agreement between the 
government and rebel forces brokered with international oversight and 
guarantees.
    Powersharing. Conflict recurs in Sudan because power remains held 
tightly by a narrow elite in Khartoum at the expense of the country's 
broader population. The international community will find that until 
they deal with this essential fact there will always be another Darfur 
to deal with. Any solution needs to address the problems of Sudan as a 
whole. National elections are scheduled for 2010, before the 2011 
referendum, but expectations for elections to produce more democratic 
governance are slim. In Darfur, it is virtually impossible to imagine 
how a free and fair ballot would take place with so many people still 
driven from their homes and living in acute insecurity. Any lasting 
peace plan for Sudan, regardless of the future of Southern Sudan, needs 
to incorporate practical steps forward that create a more inclusive 
Sudan--not in rhetoric, but in practice. The United States and other 
key actors, operating on a tight timeline, need to lower their 
expectations for the election and develop a multilateral strategy to 
press the Government of National Unity--both the North's National 
Congress Party and the South's Sudan People's Liberation Movement--to 
enact meaningful reforms regardless of who wins in 2010, revitalize CPA 
implementation, and establish a framework for talks in Darfur that are 
consistent with the powersharing provisions of the CPA.
    Accountability. As much as some would like to push accountability 
for war crimes and crimes against humanity in Sudan aside, to do so 
would neither be productive nor right. The International Criminal Court 
has found sufficient evidence against President Bashir of Sudan to 
accuse him of multiple counts of war crimes and crimes against 
humanity. He should have the soonest possible opportunity to face those 
charges in court. With hundreds of thousands dead and millions driven 
from their homes in Darfur, it is essential that the people of Sudan 
see justice done. If justice is not part of the solution in Sudan, it 
probably is not much of a solution at all.
    There is ample evidence that international pressure and attention 
can and does play a key role in keeping the Sudanese parties to their 
promises. This was affirmed in the aftermath of last week's decision by 
an independent tribunal in The Hague to redraw the borders of the oil-
rich and contested Abyei region, which also sits astride the equally 
disputed North-South border within Sudan. In the spring of 2008, 60,000 
people fled Abyei as the Khartoum government's forces burned the town 
to the ground. Many feared violence this year as well. Last week, 
however, the international community kept close watch on how the 
decision was received and reactions from both sides was promising. 
There was a strong United Nations presence on the ground and observers 
from the European and African Unions, as well as Special Envoy Gration 
were present. Both the National Congress Party and the Southern 
People's Liberation Movement promised to abide by the ruling--but it is 
important for the international community to keep up its focus and not 
simply think the crisis is resolved because the situation did not blow 
up on the day of the decision. Indeed, there are already signs that 
tensions over the decision are lingering.
    On balance, the 4\1/2\ years and counting of CPA implementation has 
been marked by a combination of deliberate intransigence and unintended 
mistakes and delays from both Sudanese parties, and, until very 
recently, half-hearted international support. In the few instances that 
a provision of the agreement has been fully implemented, this progress 
has come months, even years, after the deadlines set in the CPA. The 
poor precedents set by piecemeal and stalled implementation of the 
agreement will be hard to overcome in the last stages of the 
implementation period. However, the ability of the parties to address 
the remaining challenges and accomplish the benchmarks outlined by the 
CPA will ultimately determine whether or not Sudan stays on the path--
no matter how rocky--toward democratic transformation.
    Lastly, I would call on both Congress and the administration to 
ensure that the protection of civilians is a top priority. It will be a 
disaster for the people of Sudan and for the international community if 
peacekeepers on the ground, in both UNMIS and UNAMID, are unable or 
unwilling to respond to provocations and threats toward civilians in 
the precarious months ahead.
                                 ______
                                 

       Prepared Statement of the U.S. Commission on International
                           Religious Freedom

    Sudan was one of the first countries the U.S. Commission on 
International Religious Freedom focused on after its creation by the 
International Religious Freedom Act of 1998 (IRFA). For the past 
decade, this bipartisan, U.S. Federal Government advisory body created 
by Congress has monitored religious freedom conditions in Sudan and has 
recommended that Sudan be designated a ``country of particular 
concern'' (CPC) under IRFA for its engagement in or toleration of 
particularly severe violations of religious freedom. The State 
Department has agreed with that recommendation and has so designated 
Sudan since 1999. The Commission continues to recommend that Sudan be 
designated a CPC pending demonstrated progress in ending abuses, 
cooperating with international peacekeeping and humanitarian assistance 
operations in Darfur, and implementing the Comprehensive Peace 
Agreement (CPA) signed in January 2005.
    Since independence (1956), political power in Khartoum has been 
dominated by Arabic-speaking Muslims, who have effectively marginalized 
members of other groups, including non-Arab Muslims. Successive regimes 
in Khartoum have emphasized Sudan's identity as Arab and Muslim, thus 
effectively relegating non-Arabs and non-Muslims to a secondary status 
in the society.
    Resistance to Khartoum's policies of Islamization and Arabization 
was a major factor in the North-South civil war (1983-2005). During 
Sudan's last North-South civil war the Commission identified Sudan as 
the world's most violent abuser of the right to freedom of religion or 
belief. The Commission also has drawn attention to the Sudanese 
Government's genocidal atrocities against civilian populations in other 
regions, such as Darfur. Northern leaders, including Sudan's current 
President Omar Hassan Ahmad al-Bashir, have used religion as a tool for 
popular mobilization against both non-Muslim Southerners and Muslims 
who opposed the regime's policies. The civil war's civilian victims, 2 
million dead and 4 million driven from their homes, were overwhelmingly 
Southern Christians and followers of traditional African religions.
    Sudan is now in the midst of a historic transition under the terms 
of the CPA. Elections are to be held by April 2010 at the national, 
Southern regional, and state levels. The 6-year Interim Period, which 
began in 2005, is scheduled to end with a referendum on whether the 
South will remain within a united Sudan or become an independent 
country. Whatever the South's choice, this phase in Sudan's political 
development will determine the future of the largest country--in terms 
of land mass--in Africa and in the Arab world. Decisions made by the 
Sudanese people and their leaders will have potential ramifications 
beyond Sudan's borders, as Sudan is only one of several African 
countries with large Muslim and Christian populations. Peace, largely 
brokered by the United States, has created an opportunity for 
significant change.
    Although the Darfur conflict has dominated international attention 
on Sudan in recent years, the Commission believes that the CPA merits 
much attention because it provides a model for ending the deliberate 
marginalization of those regions of Sudan inhabited primarily by non-
Arab or non-Muslim populations. The success of the CPA thus is crucial 
to achieve lasting peace in Darfur and prevent potential conflicts in 
other regions.
    Ruling by the Abyei Arbitration Tribunal at the Permanent Court of 
Arbitration in The Hague: The Commission therefore welcomed the initial 
positive response by Sudanese, both North and South, to the ruling 
issued July 22 by the Abyei Arbitration Tribunal at the Permanent Court 
of Arbitration in The Hague. The decision settles a longstanding 
dispute over the boundaries of the Abyei region, a crossroads between 
North and South and one of the more contested points in the protracted 
negotiations leading to the CPA. In 2007, Sudanese President Omar al-
Bashir and the National Congress Party (NCP), which is dominant in the 
North, had rejected a report by the Abyei Boundaries Commission, a body 
established by the CPA, to determine the border, despite the CPA 
stating that the decision of the Abyei Boundaries Commission was to be 
``final and binding.'' In 2008, the dispute was referred by mutual 
agreement to the Permanent Court of Arbitration that issued the July 
ruling.
    Abyei has been particularly problematic as it is home to a volatile 
mix of rival ethnic groups with ties to both North and South. Abyei had 
provided a disproportionate number of fighters for the Southern-
dominated Sudan People's Liberation Army in the North-South civil war. 
In May 2008, units of the Northern-controlled Sudan Armed Forces and 
associated tribal militia brutally attacked local residents and 
destroyed private property, laying waste to the region's main town, 
also called Abyei, and driving 90,000 civilians from their homes. 
Deposits of oil in the region, and the economic competition they 
engendered, have exacerbated the dispute.
    As noted by Commission Chair Leonard Leo in a public statement 
issued by the Commission on July 24, ``It is imperative that the NCP 
and the SPLM (the Sudan People's Liberation Movement that governs 
Southern Sudan) fully support and implement the ruling as they have 
promised. It is a cornerstone of the Comprehensive Peace Agreement 
whose implementation is crucial for building a just and lasting peace 
for Sudan. Failure of the CPA could reignite a conflict in which 
millions of innocent people have been victimized because of their 
religious affiliations and ethnic identities. The parties' honoring 
their agreement (to abide by the ruling) would be both a victory for 
the rule of law in Sudan and an important precedent for resolving other 
conflicts among the region's diverse religious and ethnic groups in a 
fair, open, and peaceful manner.''
    The Abyei dispute has not been an isolated instance of delay in 
implementing the CPA's provisions. These delaying tactics have 
established a dangerous precedent that one of the parties to the CPA 
can, with impunity, unilaterally refuse to implement provisions. In the 
Commission's public statement of July 23, Commission Chair Leo also 
stated that ``Further delaying tactics or failure to implement the 
remaining CPA provisions, including the elections scheduled for 2010 
and the 2011 referendum, are unacceptable. Sudan must be held 
accountable to its CPA commitments. The CPA contains specific 
protections for religious freedom for all Sudanese. If religious 
freedom is going to be protected and respected in Sudan, the country's 
leaders, both Northerners and Southerners, must demonstrate their 
commitment to international law by accepting and implementing the 
Tribunal's ruling.''
    Recommendations of the U.S. Commission on International Religious 
Freedom: U.S. leadership has been crucial to preserve the substantial 
gains for peace that have been made in Sudan. Central to these gains is 
the CPA. Given this history of U.S. leadership and the importance to 
peace of the CPA, the U.S. Commission on International Religious 
Freedom has made the following recommendations for U.S. policy toward 
Sudan.
 i. focusing u.s. diplomacy on the successful implementation of the cpa
    In order to maintain U.S. engagement, the U.S. Government should:

  <bullet> Ensure that the Special Envoy for Sudan has the bureaucratic 
        authority, the appropriate personnel, and other support needed 
        to coordinate successfully U.S. efforts toward the complete and 
        timely implementation of the CPA and secure a just and lasting 
        peace for all of Sudan, including in Darfur; and
  <bullet> Build on past efforts by the Special Envoy to enlist 
        international support for peace in Sudan, including from China 
        and other nations that have major economic investments in 
        Sudan, and to press Khartoum to end its delaying tactics on CPA 
        implementation.
         ii. encouraging the parties to implement the cpa fully
    The U.S. Government should:

  <bullet> Insist on the full implementation of the CPA (including 
        power-sharing, wealth-sharing, respect for human rights, 
        democratic accountability through elections, resolution of the 
        Abyei issue, the 2011 referendum, and termination of all 
        support for militias) as the agreed basis for North-South peace 
        and a model for political accommodation of legitimate 
        grievances in other regions such as Darfur;
  <bullet> Help ensure that the parties conduct the national, Southern, 
        and state elections mandated by the CPA; insist that these 
        elections be free and fair, that adequate security be provided 
        to enable participation by all eligible voters regardless of 
        religious or ethnic background, and that the results be 
        accepted by both the National Congress Party and the Sudan 
        People's Liberation Movement;
  <bullet> Investigate and publicly report to the Congress every 6 
        months on the status of implementation of the CPA, with a 
        particular focus on violations, assessing responsibility and 
        indicating what actions are to be taken by the U.S. Government 
        in response;
  <bullet> Make clear that the United States expects the choice of the 
        people of Southern Sudan, as expressed in a free and fair 
        referendum to be held in 2011 in accordance with the CPA, to be 
        respected, whether the people of Southern Sudan choose to 
        remain in Sudan or be independent;
  <bullet> Strengthen the capability of the U.S. Embassy in Khartoum to 
        monitor implementation of the crucial human rights provisions 
        of the CPA and to report on human rights abuses, including 
        religious freedom in the North, as well as to advance the U.S. 
        human rights agenda in Sudan by appointing a ranking official 
        reporting to the Ambassador and working full-time on human 
        rights;
  <bullet> Consider new sanctions as needed to respond to noncompliance 
        with the terms of the CPA, including targeted sanctions such as 
        asset freezes and travel bans against individuals and 
        institutions, such as the National Congress Party, identified 
        as responsible for serious human rights abuses or for impeding 
        CPA implementation; and
  <bullet> Expand international radio broadcasting to Sudan to provide 
        objective sources of news and information and to improve 
        awareness of the CPA and its implementation, including specific 
        programming promoting grassroots reconciliation and respect for 
        freedom of religion; support independent television and radio 
        broadcasting, including in the South, to the same end.
                       iii. protecting civilians
    To prevent violence against civilians (including mass atrocities 
and genocidal acts) that would result from renewed conflict, the U.S. 
Government should:

  <bullet> Take the steps necessary to make feasible the establishment 
        of various security guarantees for Southern Sudan in order to 
        deter Khartoum from renewing the North-South civil war or 
        otherwise impose its will by force in violation of the CPA;
  <bullet> Provide Southern Sudan with the technical assistance and 
        expertise or other capacity it might need to bolster 
        professionalization of the Sudan People's Liberation Army, such 
        as International Military Education and Training (IMET), and 
        secure radar, communications, and other passive, defensive 
        equipment, as appropriate, to improve the South's ability to 
        detect air attacks and therefore reduce civilian casualties; 
        and
  <bullet> Support the Government of Southern Sudan's current, active 
        efforts toward disarmament, demobilization, and reintegration 
        of Southern Sudan's many ex-combatants.
 iv. strengthening reconciliation and the rule of law in southern sudan
    The U.S. Government should:

  <bullet> Utilize existing social institutions, including indigenous 
        religious bodies, and strengthen civil society organizations 
        that have special expertise and a demonstrated commitment in 
        the areas of interreligious and interethnic reconciliation and 
        conflict prevention, to promote a peaceful civil society;
  <bullet> Continue and strengthen existing programs through the State 
        Department's Bureau of International Narcotics and Law 
        Enforcement Affairs to improve the professional competence and 
        human rights performance of Southern Sudan's police and 
        security forces;
  <bullet> Expand U.S. assistance to the court system in Southern 
        Sudan, which is in dire need of training, reference materials, 
        improved court security, and facilities; encourage greater 
        involvement by the U.S. private sector, including professional 
        associations, law schools, and corporations, in this effort; 
        and
  <bullet> Provide scholarships to promising students to attend law 
        school in the United States under the requirement that they 
        return home at the completion of their training to build a 
        modern legal system in Southern Sudan, including a law school 
        with an advanced curriculum built upon democratic principles, 
        but targeted to the needs of the area.
               v. strengthening human rights protections
    The U.S. Government should:

  <bullet> Continue to support and strengthen the Government of 
        Southern Sudan's institutions and infrastructure, including the 
        Southern Sudan Human Rights Commission, necessary to protect, 
        monitor, and investigate human rights abuses and promote 
        respect for internationally recognized freedom of religion or 
        belief and related human rights;
  <bullet> Improve citizen awareness and enforcement of the legal 
        protections for human rights included in the CPA, the Interim 
        National Constitution, the Interim Constitution of Southern 
        Sudan, and the international human rights treaties, including 
        the International Covenant on Civil and Political Rights 
        (ICCPR), to which Sudan is a party;
  <bullet> Urge the establishment of an independent and impartial 
        national Human Rights Commission as called for in the Interim 
        National Constitution and in accordance with international 
        standards \1\ for such bodies in terms of independence, 
        adequate funding, a representative character, and a broad 
        mandate that includes freedom of thought, conscience, and 
        religion or belief; and
---------------------------------------------------------------------------
    \1\ ``Principles Relating to the Status and Functioning of National 
Institutions for Protection and Promotion of Human Rights,'' found in 
the Annex to ``Fact Sheet No. 19, National Institutions for the 
Promotion and Protection of Human Rights, Office of the High 
Commissioner for Human Rights'' (http://www.unhchr.ch/html/menu6/2/
fs19.htm, accessed April 6, 2009).
---------------------------------------------------------------------------
  <bullet> Urge the Government of National Unity to cooperate fully 
        with international mechanisms on human rights issues, including 
        inviting further visits by the U.N. Special Rapporteur on 
        Freedom of Religion or Belief, the Special Rapporteur on the 
        Situation of Human Rights in Sudan, the U.N. Working Group on 
        Arbitrary Detention, and the U.N. Human Rights Council's High-
        Level Mission on the Situation of Human Rights in Darfur and 
        comply with the Mission's recommendations.
     vi. building a successful indigenous economy in southern sudan
    The U.S. Government should:

  <bullet> Support the creation of an effective banking system in 
        Southern Sudan, recognizing that such a system is crucial for 
        the South's economic development and political stability;
  <bullet> Encourage U.S. private investment in Southern Sudan while 
        ensuring that U.S. sanctions are targeted more effectively in 
        support of U.S. diplomatic efforts to ensure a just and lasting 
        peace in all of Sudan;
  <bullet> Alleviate the impact of remaining U.S. sanctions on all 
        areas under the control of the Government of Southern Sudan and 
        local institutions in the border areas of Abyei, Southern Blue 
        Nile, and the Nuba Mountains, including sanctions on 
        communications equipment;
  <bullet> Expand U.S. educational assistance, including building the 
        capacity of the University of Juba, to enhance Southern 
        Sudanese expertise in agriculture, business, law, and other 
        areas to support development efforts;
  <bullet> Promote agricultural development in Southern Sudan with the 
        goal of promoting greater food security;
  <bullet> Expand the provision of U.S. assistance to indigenous civil-
        society, private-sector groups and provide appropriate 
        technical assistance to enable such groups to prepare project 
        proposals for U.S. grants;
  <bullet> Explore providing the Sudan People's Liberation Army with 
        needed technical expertise and capacity, such as in road 
        construction and other public works, to assist in creating an 
        infrastructure that bolsters economic development; and
  <bullet> While recognizing the urgent need for continued U.S. 
        assistance for returning refugees and internally displaced 
        persons, begin shifting from humanitarian to development 
        assistance in order to enhance the economic viability and 
        political stability of Southern Sudan in anticipation of the 
        2011 referendum on the South's political future.
       vii. expanding u.s. diplomatic capacity in southern sudan
    The U.S. Government should:

  <bullet> Enhance the facilities and personnel resources of the U.S. 
        Consulate General in Juba in order to support increased U.S. 
        engagement and programming in Southern Sudan.
             viii. promoting freedom of religion or belief
    The U.S. Government should:

  <bullet> Use U.S. bilateral discussions with Sudan, as well as U.N. 
        mechanisms and bilateral discussions with third countries with 
        influence in Sudan, to urge Sudan's Government of National 
        Unity to:

    --Allow all religious groups to conduct their activities without 
            harassment, discrimination or undue interference, including 
            publishing or importing religious literature, building, 
            repairing, and operating houses of worship, and operating 
            social service programs;
    --Repeal laws that punish changing one's religion or encouraging 
            another to do so and end official accusations of blasphemy, 
            apostasy, ``offending Islam,'' or similar charges used to 
            stifle public debate or restrict the right to freedom of 
            expression;
    --Eliminate the bureaucratic obstacles the government places on 
            international humanitarian assistance and remove the state 
            security services from their current role in regulating 
            humanitarian assistance;
    --Abandon efforts to force religious organizations to register as 
            nongovernmental organizations under regulations that give 
            government officials control over their activities;
    --Permit relations between national religious communities and their 
            coreligionists abroad in accordance with universal human 
            rights norms;
    --Reform the state security services to be representative of all 
            Sudanese and ensure that all national institutions such as 
            the military, law enforcement agencies, and the highest 
            levels of the judiciary are representative and equally 
            protective of all Sudanese regardless of religious 
            affiliation or belief;
    --End the impunity with which members of the security forces and 
            others acting as agents of the government have engaged in 
            human rights abuses; urge the establishment of effective 
            mechanisms for accountability for past abuses; and in the 
            absence of such bodies, provide full cooperation with 
            international institutions, including those mandated by the 
            U.N. Security Council;
    --Cease using government-controlled media for messages of 
            intolerance and discrimination against non-Muslims; and
    --Exclude negative stereotyping in school textbooks; include in 
            school curricula, in textbooks, and in teacher training the 
            concepts of tolerance and respect for human rights, 
            including freedom of religion or belief; and incorporate 
            into history texts the religious and cultural diversity of 
            Sudan's past.
        ix. assisting refugees and internally displaced persons
    The U.S. Government should:

  <bullet> Increase support to U.N. agencies and their NGO partners in 
        facilitating the voluntary return of refugees and the 
        internally displaced, including through intensified efforts to 
        monitor spontaneous or ``self-assisted'' returns to the South, 
        provide safer modes of transportation, de-mine roadways, and 
        develop a comprehensive return and reintegration strategy, as 
        well as development plans, to enhance the capacity of Southern 
        Sudan to absorb large numbers of IDPs and refugees;
  <bullet> Increase technical assistance programs to assist the 
        Government of Southern Sudan in providing basic services, 
        including education, health, and water sanitation, to the 
        returnees;
  <bullet> Work with U.N. agencies and NGO partners to ensure that the 
        populations that remain in refugee and IDP camps continue to 
        receive at least the same level of humanitarian assistance as 
        before, so they are not unduly pressured into making returns; 
        and
  <bullet> Work with other resettlement countries, UNHCR, and its NGO 
        partners to ensure that UNHCR expeditiously identifies those 
        refugees for whom repatriation is not an appropriate or 
        imminent solution, including those who have suffered from past 
        persecution; secure, as appropriate, timely local integration 
        in countries of first asylum or resettlement to third countries 
        for such refugees; and promptly devise a strategy to achieve 
        this concurrent with efforts to repatriate refugees to Sudan.
         x. protecting victims of slavery and human trafficking
    The U.S. Government should:

  <bullet> Urge Sudan's Government of National Unity to prosecute the 
        crime of abduction into slavery, most of whose victims are 
        women and children taken during the North-South civil war or in 
        Darfur by government-sponsored militias, and ensure the speedy 
        identification, voluntary return, and family reunification of 
        victims, as well as measures for their rehabilitation and 
        reparation.
         xi. protecting civilians and promoting peace in darfur
    The U.S. Government should:

  <bullet> Support a stronger international presence in Sudan 
        sufficient to protect civilian populations and to monitor 
        compliance with the peace accords and U.N. Security Council 
        resolutions, including by:

    --Urging the United Nations-African Union Mission in Darfur 
            (UNAMID) to protect civilians in accordance with the 
            highest international standards for peacekeeping 
            operations;
    --Providing resources such as improved communications equipment, 
            reliable vehicles and helicopters, and logistics assistance 
            to enable peacekeepers to move quickly to places where 
            abuses are occurring;
    --Bringing in advisers on civilian protection issues in armed 
            conflict to train and work with international force 
            commanders;
    --Ensuring that there is a secure environment for the delivery of 
            humanitarian aid and the return of refugees and the 
            internally displaced and providing an early warning system 
            with GPS (global positioning system) capability to warn 
            camps and villages of approaching forces;
    --Supporting the assignment of designated protection teams to camps 
            for internally displaced persons;
    --Supporting the active enforcement of the aerial ``no-fly'' zone 
            already specified in the U.N. Security Council's resolution 
            of March 29, 2005, which calls for the immediate cessation 
            of ``offensive military flights in and over the Darfur 
            region'';
    --Taking measures to prevent--and providing aid to those victimized 
            by widespread sexual violence and rape in Darfur, including 
            by training advisers for the international forces in Darfur 
            and by encouraging participating nations to include female 
            troops and female police officers in their deployment to 
            handle rape cases effectively; and
    --Supporting a substantial increase in the number of human rights 
            monitors from the U.N. Office of the High Commissioner for 
            Human Rights and in the number of international 
            peacekeepers deployed in Darfur;

  <bullet> Lead an international effort to pressure the Government of 
        Sudan to reinstate all international relief organizations 
        expelled following the International Criminal Court's 
        authorization of an arrest warrant against President Bashir and 
        permit unimpeded, safe access by such organizations to the 
        region so that necessary humanitarian assistance can be 
        provided to refugees and internally displaced persons;
  <bullet> Work with international partners to end the suffering of the 
        civilian population of Darfur, including by seeking an end to 
        killing, ethnic cleansing, forced displacement, and 
        interference with the distribution of international 
        humanitarian assistance; by assisting refugees and internally 
        displaced persons to return home in safety; and by promoting a 
        cease-fire as well as a peaceful and just resolution of the 
        grievances that underlie the crisis; and
  <bullet> Use bilateral and multilateral diplomacy to mount an 
        international campaign to pressure the Sudanese authorities to 
        cooperate fully with the International Criminal Court.
                                 ______
                                 

            Prepared Statement of Mercy Corps, Portland, OR

    Mercy Corps would like to sincerely thank Chairman Kerry and 
Ranking Member Lugar for their longstanding commitment to peace in 
Sudan, and for holding this hearing. The Congress has a long tradition 
of leadership in U.S. policy on Sudan, and it is a privilege to be able 
to advise this committee as it carries on that tradition.
    Mercy Corps has worked in Sudan since 2004, implementing community-
based relief and development programs in Darfur, South Sudan, and the 
``Three Areas'' of Abyei, South Kordofan, and Blue Nile. On March 4 of 
this year, Mercy Corps was one of 16 aid agencies--13 international, 3 
local--whose permission to operate in North Sudan was revoked. As has 
been extensively documented in the international media, these agencies 
were forcibly closed down, offices and assets were seized by the 
government, and all international staff based in Northern Sudan were 
expelled from the country. Mercy Corps' programs in Southern Sudan were 
unaffected, as the Government of South Sudan made clear that they would 
not extend the expulsions into Southern territory.
    Mercy Corps was deeply dismayed by the expulsions. Mercy Corps can 
state categorically that we are an apolitical, impartial actor in 
Sudan; we have no relations or contact with the International Criminal 
Court in Sudan or anywhere else. We strove to the best of our ability 
to abide by Sudanese laws and procedures and we believe that our 
actions in the country were always lawful. We have, therefore, appealed 
our expulsion through official channels and are hopeful that one day we 
shall be able to return to North Sudan.
    However, as an organization driven first and foremost by the 
humanitarian imperative, we also feel obligated to ensure coverage of 
the gaps that our departure has left behind in Darfur and the Three 
Areas. We therefore began exploring, soon after the expulsions, 
possible avenues for enabling coverage of those gaps. We were heartened 
when, upon appointing Gen. Scott Gration as special envoy to Sudan, 
President Obama directed that the humanitarian situation should be 
among the envoy's top priorities. We were further encouraged when 
General Gration learned, in his initial negotiations with the Sudanese 
Government, that the Sudanese were open to allowing new organizations 
to register to work in Sudan. General Gration's efforts to improve 
humanitarian access in Darfur--resulting in the issuance of a new 
Government decree that streamlines bureaucratic obstacles, and the 
creation of a more robust mechanism for monitoring impediments to 
humanitarian access--also suggested the Sudanese Government was 
signaling its openness toward a more constructive engagement with NGOs.
    Given that several of the expelled organizations had international 
affiliates working in Sudan--who had not been expelled--we began 
exploring whether a similar arrangement might be possible with our 
European affiliate, MC Scotland. We, along with several other 
organizations, sent senior-level representatives to Khartoum to meet 
with the government and explore the possible registration of our 
European affiliates. There has been speculation about this process in 
the press--much of it ill-informed and inaccurate--and so I would like 
to take this opportunity to clarify several points regarding these 
discussions:
    1. First, Mercy Corps is not reopening in North Sudan, though we 
hope that someday we can. MC-Scotland, a registered British charity and 
an affiliate of Mercy Corps, has registered and will be taking over 
some former Mercy Corps projects. Mercy Corps will provide technical 
and financial support to MC-Scotland's efforts, but we have no existing 
plans to reestablish our own presence in the areas from which we were 
expelled.
    2. Second, Mercy Corps and MC-Scotland undertook this process 
because of our humanitarian mission. Funding issues were certainly a 
concern, albeit a secondary one; our principal concerns were the major 
humanitarian gaps in Darfur and the potential harm to the peacebuilding 
and development process in the Three Areas.
    3. Third, there was no pressure placed on Mercy Corps or MC 
Scotland by General Gration, USAID, or any other U.S. Government 
representative to force us to pursue this arrangement. Their role in 
this process was, essentially, to create an opening for dialog between 
us, our colleague agencies, and the Government of Sudan. But the 
subsequent negotiations were conducted directly between the NGO 
representatives and the Sudanese Government.
    4. Finally, there were no special quid-pro-quos between MC-Scotland 
and the Sudanese Government, explicit or implicit, in these 
negotiations. The government provided MC-Scotland with a standard 
registration under Sudanese law. MC-Scotland will operate in Sudan on 
the same terms as any other member of the NGO community there.
    MC-Scotland is eager to hit the ground running. An advance team of 
MC-Scotland representatives is already in Khartoum, setting up a new 
country program and planning needs assessments. In the coming months, 
MC-Scotland will have several main priorities:
1. Restore Transitional Development Activities in the ``Three Areas''
    Prior to the expulsions, Mercy Corps' work in the Three Areas was 
by far the largest element of our Sudan country program, and the U.S. 
Agency for International Development has strongly supported these 
efforts. We are now in the process of transferring management of these 
programs to MC-Scotland, which we expect will be a relatively smooth 
process. This focus on the Three Areas is the result of a firm belief 
that humanitarian and development assistance plays a critical role in 
building peace in Sudan. The Three Areas were the front lines during 
the North-South conflict, and have a special political status under the 
Comprehensive Peace Agreement. It is widely recognized that these areas 
are critical to the larger effort to turn the CPA into a lasting, 
permanent peace between North and South Sudan.
    Development is a critical component of this effort. As our 
colleagues at the National Democratic Institute have shown through 
their public opinion research in Sudan, war-affected populations in the 
country define ``peace'' as a combination of both physical security and 
community development. The challenge in these areas--which is common to 
post-conflict societies--is that there is not yet sufficient capacity 
amongst local government and civil society to adequately meet urgent 
community recovery and development needs. These capacity gaps mean that 
NGO interventions must play a fundamental role in catalyzing recovery. 
With support from USAID and other donors, Mercy Corps had, prior to the 
expulsion, been pursuing a dual-track strategy to jump-start recovery 
and development in the Three Areas while also building up strong local 
capacity to lead development efforts in the long term.
    Toward this end, Mercy Corps had financed and provided technical 
support to a range of community recovery efforts--including financial 
services and entrepreneurship training to small businesses, enhancing 
food security, funding community infrastructure improvements including 
critical water resources, and supporting reestablishment of basic 
education and health care services. At the same time, Mercy Corps and 
its partners had worked closely with local government actors and civil 
society groups to provide the training and technical support that they 
need in order to lead their communities' development.
    These programs were well received by the communities with which 
Mercy Corps partnered, and were playing a critical role in addressing 
the need for development of these fragile regions. Following Mercy 
Corps' expulsion from North Sudan, we feared that an abrupt closure of 
these activities could have damaging social and humanitarian 
consequences--and would also undermine the population's confidence in 
the peace process, with less than 2 years left in the CPA's mandate. 
Mercy Corps is therefore pleased--and relieved--that MC-Scotland will 
be able to take up and carry forward these activities. Ensuring that 
this handover proceed quickly and smoothly is a first-order priority.
2. Assess and Cover Outstanding Humanitarian Gaps in Darfur
    Also at the top of the priority list for MC-Scotland are efforts to 
conduct needs assessments in Darfur. While many of our colleague 
agencies have undertaken heroic efforts to cover the large gaps created 
after the 4th of March, significant gaps remain. Much media attention 
has been focused on comments by the U.N. and others that a new crisis 
has been avoided; unfortunately these statements obscure a more complex 
reality. It is important to recall that the humanitarian community's 
monitoring mechanisms were greatly disrupted by the expulsions and so 
it is much harder now to get an accurate picture of the overall 
humanitarian situation across Darfur. Despite the impaired monitoring 
capacity, it is fair to say that there have been no indications of 
large-scale new mortality or displacement since the expulsions. This 
can be attributed principally to urgent efforts taken by the U.N. and 
the Sudanese Government, following the expulsions, to meet gaps in two 
critical sectors--food distribution and clean water access. Ruptures to 
the food pipeline and breaks in water access would have been the most 
likely drivers of mass death or displacement, and the swift action 
taken in these sectors in March and April has indisputably saved lives. 
Nonetheless, it is important to note that these efforts have been 
interim, emergency arrangements and are not a long-term solution to the 
problems. Likewise, coverage of gaps related to health, sanitation, 
education, protection, and shelter has proceeded more slowly and the 
shortfalls in these sectors will present expanding risks to IDP 
populations as the months pass. In particular, with the onset of the 
rainy season, the lack of adequate sanitation, shelter, and health care 
services presents a major risk of diseases such as cholera and malaria. 
In summary then--the worst-case scenario seems to have been averted for 
the moment, but the population of Darfur will continue to feel the 
fallout from the expulsions for some time yet to come.
    Within this context, MC-Scotland is seeking to assess, identify, 
and cover critical remaining gaps as quickly as possible. This will 
entail verification of the status of former Mercy Corps activities, but 
also a review of sectors and geographic regions where Mercy Corps had 
not previously been active. Where possible and appropriate, MC-Scotland 
will work to cover gaps that exist, whether or not the needs were 
previously being met by Mercy Corps. This will not be an immediate 
process--Darfur is a difficult operating environment even under the 
best of circumstances. Continuing deterioration in the security 
environment for humanitarian actors--highlighted by the recent 
abduction of several international NGO staff--poses major operational 
challenges. In addition to conducting assessments, MC-Scotland will 
need to build up its operational infrastructure in Darfur, hire new 
staff, and develop relationships with government officials, IDP 
leaders, and community leaders, and design project interventions. All 
of these elements take time; it will take 3 to 6 months to initiate 
gap-coverage activities in Darfur, and it will be 6 to 12 months before 
such operations come fully up to speed.
3. Assess Transitional Development Needs in Darfur and Initiate 
        Programming
    While MC-Scotland will focus on urgent gap coverage in the 
immediate term, the focus will shift to transitional activities in the 
medium term. This is because it has been clear for some time that 
Darfur is moving--or has moved--out of the acute humanitarian emergency 
phase and into a phase of protracted displacement. In this protracted 
phase, the vulnerability of the displaced population has decreased, 
coping mechanisms have begun to develop, and the overall situation has 
begun to stabilize. Mortality surveys across Darfur's camps in 2008 
confirmed this trend, showing across-the-board reductions in mortality 
levels relative to previous years and revealing that the overall crude 
mortality rate amongst Darfur's IDPs stood below the standard 
``emergency'' threshold of 1 death per 10,000 people per day.\1\
---------------------------------------------------------------------------
    \1\ http://new.cred.be/what-do-health-indicators-tell-us-about-
humanitarian-crises-2008.
---------------------------------------------------------------------------
    The mass displacement in Darfur has caused shifts in Darfur's 
population distribution, as is illustrated by simple diagrams below. 
Prior to the conflict, there were a limited number of large urban 
centers, but most of Darfur's rural agriculturalist populations--who 
now constitute the bulk of the IDPs--were distributed across small, 
rural towns surrounded by agricultural land. Grazing routes used by 
pastoralist populations (seminomadic herders) were interspersed between 
these settlements, creating many points of contact--and hence, of 
potential conflict--between agriculturalists and pastoralists, 
especially as climate change reduced the amount of suitable land for 
farming and grazing:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Now, 6 years into the conflict, those same urban centers have 
undergone a massive expansion, with IDPs encircling them. They are in 
turn surrounded by slim bands of agricultural land, where the IDPs can 
safely cultivate a limited volume of crops close to their new homes. 
The largely vacated countryside is dominated by pastoralist groups, who 
can move along their grazing routes unimpeded by agriculturalists 
populations.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    While it has long been taboo to look at Darfur's assistance context 
as transitional rather than acute, it is now past time to do so. The 
reality on the ground is that a significant proportion of Darfur's 2.7 
million IDPs will ultimately choose to permanently settle in or around 
their camps rather than return to their original homes. Sudan is not 
sui generis in this respect--in fact this dynamic is common in cases of 
protracted internal displacement. When a largely rural population 
becomes displaced into a camp--effectively an urban setting--for a 
protracted period of time, many of the displaced permanently adopt an 
urban lifestyle. In this sort of context, the distinction between what 
is a camp and what is an urban settlement (albeit an extremely poor 
one) becomes increasingly arbitrary. Assistance strategies based on an 
emergency posture become less appropriate as time passes--and over time 
such approaches can actually become harmful, as they dis-incentivize 
indigenous coping mechanisms and institutionalize dependence on 
international aid.\2\
---------------------------------------------------------------------------
    \2\ http://www.odihpn.org/report.asp?ID=2745.
---------------------------------------------------------------------------
    In light of the protracted nature of the population displacement 
and the likelihood that many IDPs will never fully return home, the 
humanitarian problems in Darfur begin to look increasingly similar to a 
large-scale, long-term urban development challenge. Prior to the NGO 
expulsions, humanitarian service provision has lifted many of the 
development indicators in the IDP camps to a higher standard than those 
in the towns that they surround. For example, education and child 
health indicators in the IDP camps were better on average than in the 
rest of Sudan (North and South). While these indicators have 
undoubtedly deteriorated since March, they are likely to come back up 
as gap coverage efforts gather steam and new organizations enter 
Darfur. This disparity between services for IDPs and services available 
to the population at large will continue to cause tension between 
previously existing urban populations and the IDPs. The emergency 
relief posture in Darfur--premised on a dynamic context of fragility 
and vulnerability rather than one of emerging stability and protracted 
displacement--has been maintained for 5 to 6 years now. This posture is 
not indefinitely sustainable and it is time to begin looking at ways to 
better link IDPs into the economies and social matrices of their 
present urban surroundings.
    While it is important to acknowledge the reality that many of 
Darfur's IDPs will not ultimately return to their villages of origin, 
it is also important to provide support to those who do--or will--
choose to return. There have been a few encouraging signs of this in 
South Darfur, where a recent multi-NGO needs assessment found that in 
some areas, agriculturalist and pastoralist populations had been able 
to negotiate localized peace agreements, enabling several hundred IDP 
households to return to their land. However, it should be noted that 
the majority of potential return areas in Darfur continue to suffer 
from severe insecurity, and the vast majority of the IDPs will be 
unwilling to return until security problems are dealt with. There is as 
yet little evidence of any substantial IDP returns across Darfur, and 
most movements out of the camps seem to be seasonal rather than 
permanent.
    As MC-Scotland initiates operations, it will seek to engage with 
Darfur's needs as they exist today, not as they existed several years 
ago. Basic life-sustaining activities in the IDP camps will need to 
continue for the foreseeable future, but in the medium term, activities 
in Darfur will also begin to focus on durable solutions for Darfur's 
IDPs. This will proceed on the basis of firm respect for the principle 
that IDPs themselves are best placed to determine what is in their own 
best interest. The choice of whether to return, integrate, or something 
in between is ultimately up to them, and their right to make this 
decision voluntarily and without coercion must be respected. The 
widespread insecurity in Darfur is the largest obstacle to IDP return, 
and in this context, it is important that all actors adhere closely to 
the U.N.'s Guiding Principles on Internal Displacement. The Principles, 
which provide a legal framework for international IDP action, state 
that:

  <bullet> [IDPs have t]he right to be protected against forcible 
        return to or resettlement in any place where their life, 
        safety, liberty and/or health would be at risk. (Principle 15)
  <bullet> Competent authorities have the primary duty and 
        responsibility to establish conditions, as well as provide the 
        means, which allow internally displaced persons to return 
        voluntarily, in safety and with dignity, (Principle 28)

    These Principles provide useful, practical standards for 
approaching return-oriented programming. In rural areas where the 
voluntary return of IDPs--in safety and with dignity--is possible, MC-
Scotland will seek to adapt IDP return methodologies that have 
previously been applied successfully in Southern Sudan and elsewhere. 
MC-Scotland will pursue multifaceted programs focused on employment 
generation, community economic infrastructure development, and 
agricultural inputs. These efforts will initially focus on the 
communities where people have actually begun returning, in order to 
help them reintegrate socially and economically. This will be 
complemented by community safety, reconciliation, and watershed 
management components in order to begin addressing some the underlying 
structural drivers of Darfur's conflict. As these latter efforts bear 
fruit, they will open up new areas for potential IDP return, and MC-
Scotland will expand reintegration services to those areas as well.
    Simultaneous to these efforts to facilitate returns, MC-Scotland 
will also undertake efforts to enable successful local integration for 
those who choose to settle permanently around the camps or other urban 
areas. These populations will need support that enables them to 
integrate into the local economies and service structures of the cities 
they will belong to. This means vocational training for integration 
into the urban economy, microfinance for small business development, 
the upgrade of both neighborhood services and housing in what will be 
their long-term homes. This will be complemented by an effort to 
integrate these new urban residents into the taxation and service 
regime of the local governments, while providing capacity-building 
services to enable the local government structures to manage this 
transition.

                                  <all>

</pre></body></html>
